<html>
<title> - SUSTAINABILITY OF MAINE'S GROUNDFISH INDUSTRY</title>
<body><pre>[Senate Hearing 110-807]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-807
 
                           SUSTAINABILITY OF 
                      MAINE'S GROUNDFISH INDUSTRY
=======================================================================



                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 14, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
46-471                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia                             Ranking
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        JOHN McCAIN, Arizona
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

MARIA CANTWELL, Washington,          OLYMPIA J. SNOWE, Maine, Ranking
    Chairman                         GORDON H. SMITH, Oregon
JOHN F. KERRY, Massachusetts         JOHN E. SUNUNU, New Hampshire
BARBARA BOXER, California            JIM DeMINT, South Carolina
BILL NELSON, Florida                 DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
THOMAS R. CARPER, Delaware
AMY KLOBUCHAR, Minnesota


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 14, 2008.................................     1
Statement of Senator Snowe.......................................     1
    Prepared statement of Hon. Susan M. Collins, U.S. Senator 
      from Maine, submitted by Senator Snowe.....................     2

                               Witnesses

Alexander, Terry, Fisherman and Owner............................    61
Balsiger, Ph.D., James W., Acting Assistant Administrator for 
  Fisheries, National Marine Fisheries Service, National Oceanic 
  and Atmospheric Administration, Department of Commerce.........     7
    Prepared statement...........................................     9
Bradley, Edward, President and Manager, Vessel Services, Inc.....    54
Ciocca, Angelo, President, Nova Seafoods Ltd.....................    70
Cunningham, Jr., Colin M. ``Rip'', Vice Chairman, New England 
  Fishery Management Council.....................................    17
    Prepared statement...........................................    18
Dority, Aaron, Project Director, Downeast Initiative, Penobscot 
  East Resource Center...........................................    74
Gerencer, Bill, Member, Groundfish Advisory Panel, New England 
  Fishery Management Council; Member, Atlantic Highly Migratory 
  Species Advisory Panel; Commercial Fish Buyer, M.F. Foley 
  Company, Inc...................................................    49
Hamlin, Cyrus, Author, Preliminary Design of Boats and Ships.....    57
Holland, Ph.D., Daniel S., Resource Economist, Gulf of Maine 
  Research 
  Institute......................................................    34
    Prepared statement...........................................    36
Jongerden, Bert, General Manager, Portland Fish Exchange.........    78
Libby, Glen, Chairman, Midcoast Fishermen's Association and 
  President, Midcoast Fishermen's Cooperative....................    30
    Prepared statement...........................................    32
Linnell, Captain Bill, Lobsterman................................    85
Litteral, Jennifer, Director of Marine Programs, Island Institute    60
Mahoney, Sean, Vice President and Director, Maine Advocacy 
  Center, Conservation Law Foundation............................    64
McGee, Sally, New England Fisheries Policy Director, Oceans 
  Program, Environmental Defense Fund; Member, New England 
  Fishery Management 
  Council........................................................    37
    Prepared statement...........................................    38
Odlin, Amanda, Co-Owner, F/V LYDIA AND MAYA, F/V BETHANY JEAN....    82
Odlin, James A., Vessel Owner, Atlantic Trawlers Fishing, Inc....    21
    Prepared statement...........................................    23
    Letter, dated September 16, 2008, from Paul Howard, Executive 
      Director, New England Fishery Management Council to 
      Patricia Kurkul, Regional Administrator, National Marine 
      Fisheries Service..........................................    26
    Letter, dated October 3, 2008, from Patricia Kurkul, Regional 
      Administrator and Nancy Thompson, Ph.D., Science and 
      Research Director, National Marine Fisheries Service to 
      Paul Howard, Executive Director, New England Fishery 
      Management Council.........................................    28
Odlin, Captain Robert M., Commercial Fisherman and Owner, F/V 
  MAINE LADY III.................................................    79
Pendleton, Craig, Former Coordinating Director, Northwest 
  Atlantic Marine Alliance (NAMA); Owner, F/V OCEAN SPRAY........    59
Raymond, Maggie, Executive Director, Associated Fisheries of 
  Maine..........................................................    68
Stockwell, Terry, Director of External Affairs, Department of 
  Marine Resources, State of Maine; Member, New England Fishery 
  Management 
  Council........................................................    11
    Prepared statement...........................................    14
Thompson, Matthew, Commercial Fisherman and Lobsterman, F/V 
  STRIKER........................................................    69
Viola, Willard H., Commercial Fisherman; President, Black Beauty, 
  Inc............................................................    76
Viola III, Sam, Commercial Fisherman.............................    66
Williamson, John, Manager, Fish Conservation, New England, Ocean 
  Conservancy....................................................    62


                           SUSTAINABILITY OF 

                      MAINE'S GROUNDFISH INDUSTRY

                              ----------                              


                       TUESDAY, OCTOBER 14, 2008

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                      Portland, ME.
    The Subcommittee met, pursuant to notice, at 1:06 p.m. in 
City Hall Council Chambers, Portland, Maine, Hon. Olympia J. 
Snowe, presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Good afternoon. Thank you all for being 
here--and I appreciate it--on a critical issue, obviously, to 
Maine.
    And I want to invite this to be a conversation. I would 
like to read my opening statement because I do think it is an 
important issue and will invite the panelists to do so as well. 
And I will explain the procedures, but first of all, I just 
want to welcome everybody here today.
    I now call this hearing to order, as we gather to examine 
the sustainability of Maine's historic groundfishery. As 
Ranking Member of the Senate Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard, I am, like all of you, 
deeply troubled by the trends that I have witnessed in this 
industry.
    And it is unmistakable. If we remain on our present 
regulatory trajectory, it is no exaggeration to say that the 
industry as a whole--particularly in Maine, but ultimately 
throughout New England--is in terrible jeopardy.
    Before we begin our vital, in-depth discussion and analysis 
of these challenging issues confronting all of us, I would 
first like to thank our witnesses, who have joined us here 
today--Dr. James Balsiger, Administrator of the National Marine 
Fisheries Service; Terry Stockwell, External Affairs Director 
of Maine's Department of Marine Resources; Rip Cunningham, 
Chair of the New England Fishery Management Council's 
Groundfish Committee; Glen Libby, representing the Midcoast 
Fisheries Association and the Midcoast Fishermen's Cooperative; 
James Odlin, representing Associated Fisheries of Maine; Sally 
McGee, New England Fisheries Policy Director at the 
Environmental Defense Fund; and Dr. Daniel Holland, Research 
Scientist and Resource Economist at the Gulf of Maine Research 
Institute.
    I would also like to include in the record of this hearing 
a statement from my colleague Senator Collins as well.
    [The prepared statement of Senator Collins follows:]

  Prepared Statement of Hon. Susan M. Collins, U.S. Senator from Maine
    I want to thank my colleague, Senator Snowe, Ranking Member of the 
Subcommittee on Oceans, Fisheries, and Coast Guard, for holding this 
hearing to examine the condition of Maine's groundfish fishery. The 
contribution this industry has made to the economy of New England over 
the last 400 years is immeasurable. The proud heritage that to this day 
shapes the economies and culture of many communities throughout our 
state is now fighting for its survival amid increasingly restrictive 
management measures and soaring operational costs.
    Today, we rely on science to strike the critical balance between 
sustainability and the harvesting of this historic natural resource. 
Regulations, management measures, and emergency actions are all 
developed using the best available science. These mandates, in turn, 
determine whether generations of fishermen will continue to earn their 
living at sea. The discouraging fact is that over the past 8 years, the 
hard-working men and women in Maine's groundfish industry have seen 
their profits decline by over fifty percent. Many boats have relocated 
out of state and still others struggle to avoid going into foreclosure.
    Making matters worse are proposed changes to the Northeast 
Multispecies Fishery Management plan that would severely restrict 
fishing effort. Because of Amendment 16, fishermen in Maine face cuts 
to their days-at-sea by as much as seventy percent resulting from 
complex, and perhaps imprecise--scientific modeling. NOAA's scientific 
modeling to end overfishing has yielded results that, if implemented. 
would leave most fishermen with fewer than 30 days a year to earn a 
living. There can be little doubt that if Amendment 16 is implemented 
as proposed, Maine's groundfish industry would quickly disappear.
    I, along with Senators Snowe, Kerry, and Kennedy, sent a letter to 
Dr. James Balsiger, NOAA's Acting Administrator for Fisheries, on May 
16, 2008, supporting a revised implementation schedule for Amendment 16 
that would allow for the appropriate consideration of the 2008 
benchmark stock assessments. It is critical that the most accurate, up 
to date science be used to guide the management of an industry that has 
already made great sacrifices to support many small, family businesses. 
As we note in the letter, sound management of this fishery requires 
that NMFS value scientific data over adherence to an arbitrary time 
line. The New England Fisheries Management Council was right to delay 
implementation of Amendment 16 to thoroughly consider the most recent 
stock assessment data, as Senator Snowe and I have urged. With 
Secretarial Action now needed to manage the fishery in the intervening 
months, it is critical that NMFS implement interim management measures 
that are balanced, supported by sound science, and not going to 
unnecessarily burden the New England groundfish industry.
    With the hope of fishing families hanging in the balance, it is 
incumbent on the government to set realistic catch limits that are 
supported by accurate and reliable data. After concerns were raised by 
industry stakeholders suggesting that the science underlying proscribed 
catch limits was flawed, I joined Senator Snowe and others in calling 
for an investigation of NMFS's Northeast Fisheries Science Center 
(NFSC) by the Department of Commerce Inspector General. We have asked 
the Inspector General to examine allegations that the Center has set 
catch levels that are not supported by historical biomass data, 
scientific protocol is not followed, and estimates of biomass and 
allowable fishing rates have varied considerably during fishing 
seasons. The object of the investigation is to examine the accuracy of 
the science underlying fisheries management measures so that these 
regulations will be met, not with distrust, but with the knowledge and 
understanding that fish stocks are being managed sustainably and 
responsibly.
    As was expressed to the Inspector General, there are several 
specific issues that require close examination. First, despite the fact 
that fishing effort for several fish stocks is well below NFSC 
recommended levels, overfishing of these stocks is somehow still 
occurring. Second, until the third Groundfish Assessment Review Meeting 
on August 29, 2008, the scientific modeling failed to account for the 
ocean ecosystem's inability to simultaneously support historically high 
population levels for all 19 groundfish stocks. My concern is that this 
has led to the mismanagement of species like the spiny dogfish, which 
has become so abundant that it is counteracting the rebuilding efforts 
of our more valuable groundfish stocks. Third, having reached the 
midway point in the 10-year multispecies rebuilding plan, the stock 
assessments appear to suggest that even without any fishing effort, 
some stocks might not rebuild in the next 5 years. This calls into 
question whether fishery rebuilding programs should be managed 
according to a specific target date or according to sustainably managed 
fishing activity. Without the assurance that nature will perform as 
expected, NMFS must develop a clear and practical methodology for 
adjusting rebuilding time frames.
    I also want to call attention to efforts by legislators in New 
England to certify the New England groundfishery as a fisheries 
disaster. I, along with Senator Snowe, have repeatedly indicated to the 
Secretary of Commerce, that a groundfish fishery disaster has indeed 
occurred in the Northeast. On December 4, 2007, the Senate passed a 
resolution that I cosponsored stating the sense of the Senate that the 
Secretary should declare a commercial fisheries failure for the New 
England groundfish industry. After the resolution passed, I joined 
Senators Snowe, Gregg, and Sununu in writing to the Secretary urging 
him to reconsider his denial of Federal assistance for our struggling 
fishing fleet. Following NMFS's announcement on September 22, 2008, 
that it would certify a fisheries disaster for the Chesapeake Bay blue 
crab commercial fishery due to a 40 percent decrease in landings value, 
we again urged the Secretary to find that a fisheries failure has 
occurred in New England, which has experienced markedly similar 
landings decreases.
    In denying Federal fisheries disaster assistance for Maine in 
October 2007, NOAA stated that while there has been significant 
economic difficulty for groundfish-dependent communities in Maine, the 
request for a commercial fisheries failure did not meet the 
requirements under Magnuson-Stevens. I strongly disagree with this 
assessment and will continue to work with colleagues to seek 
opportunities to provide assistance to New England's groundfish 
industry. One positive development is that the Senate CJS 
appropriations bill passed out of Committee with $75 million designated 
for national fisheries disaster relief that specifically mentions the 
New England groundfish fishery. While it is unclear whether this 
important provision will be signed into law, I will seek every 
opportunity to provide emergency assistance to Maine's struggling 
groundfish industry.
    Thank you for the opportunity to offer comments about improving the 
management of Maine's struggling groundfish industry. Management of one 
of New England's oldest and most significant industries must be 
founded, first and foremost, on accurate and reliable science so that 
sensible regulations can be developed to create a sustainable fishery 
both for fish stocks and our fishing communities. At this critical 
juncture leading up to the implementation of Amendment 16, preserving 
Maine's groundfish industry will require developing equitable capacity 
reduction strategies, investing in ways to reduce the discard rate, and 
working to address the shortcomings of the increasingly prohibitive 
days-at-sea model.

    Senator Snowe. I believe we all share a mutual goal here 
today--to ensure that we have self-sustaining populations of 
the 19 stocks that comprise the Northeast Multispecies Fishery 
and that we do not regulate our nation's first fishery out of 
existence. To that end, I hope this will be an open dialogue 
among our panelists, allowing them to speak directly with me 
and one another to get to the bottom of this critical issue 
facing the fishery as we approach two major regulatory 
milestones--the development of the interim regulations for 
fishing year 2009 and Amendment 16 for 2010 and beyond.
    I would also thank all the members of the public for 
attending this hearing, and I look forward to hearing from all 
of you directly. Our agenda will begin with opening statements 
from our panelists. Then I will lead a discussion with direct 
questions to our witnesses and subsequently facilitate a 
conversation among the participants.
    We will then open the floor for your comments and questions 
for consideration by the panelists. If you would like to 
address me or the panelists, you may add your name to the list 
of speakers at the back of the room, and you will be called to 
the microphone in that order.
    I apologize if there is insufficient time to hear from 
everyone who wishes to speak, but I hope that we can 
accommodate anyone who does wish to do so. And if not, you can 
also include your written statements in the record because this 
will be part of the official proceedings of this hearing and of 
this Committee.
    We are here today to discuss the future of one of our 
Nation's most historic industries. It was the bounty of Georges 
Bank and the Gulf of Maine that first enticed fishermen to 
cross the Atlantic Ocean more than 600 years ago, fill their 
boats with cod, salt and dry fish on these shores, and return 
to sell their wares in the markets of medieval Europe.
    Despite the dangers inherent in this trade, known all too 
well even to the fishermen of today, the fishing grounds were 
so robust as to outweigh the risk to life and property. In this 
regard, the groundfishery of today bears little resemblance to 
that encountered by those early European explorers.
    Now, more than ever, Maine's fishing industry relies on a 
single species. And last week, largely in response to the 
current economic situation, lobster prices fell to levels not 
seen since the early 1980s. I think events such as this only 
underscore that we cannot continue the trend of consolidating 
more and more of our eggs in one basket. And my thoughts are 
with the industry as well, as I know they are struggling 
through this very difficult time.
    Today, we are confronted by a fishery trying desperately to 
survive increasing regulatory restrictions that have reduced 
the number of days fishermen are permitted to go to sea from an 
average of 116 in 1996 to a mere 48 in 2008. Particularly here, 
in the State of Maine, we have lost much of our fishing 
heritage in recent years.
    In the 1990s, there were more than 350 active groundfishing 
boats in Maine. Today, the Department of Marine Resources 
estimates perhaps as few as 70 still land their catch here in 
the State. And there is only one active groundfishing permit 
east of Penobscot Bay.
    Since 2000, the Portland Fish Exchange, right here, has 
witnessed its volume of fish drop by more than 60 percent. And 
from 2000 to 2004, jobs in fish processing and wholesaling in 
the State fell by more than 40 percent.
    As we focus on the short-term impact of regulations, both 
in 2009 and 2010, we must also consider the long-term viability 
of this industry in this State, home to America's first fishing 
settlements. And regrettably, the horizon before us is ominous.
    Current regulations require at least an 18 percent 
reduction in days at sea for next year, and proposals put 
forward by the National Marine Fisheries Service have suggested 
that as much as a 70 percent cut could be forthcoming. As I 
asserted in my statement before the New England Fishery 
Management Council in June, that kind of drastic reduction in 
fishing effort would be a death knell for this historic 
industry.
    While the future of our fishing industry depends on healthy 
fish stocks, we cannot allow well-intentioned efforts to 
rebuild those stocks to bankrupt the industry now, or they will 
be left with no one to capitalize on the sacrifices of 
tomorrow.
    I recognize the challenges before us as we attempt to 
rebuild our stocks to healthy levels that can sustain our 
fishing communities. And evidence has shown that, in some 
cases, the efforts of our fishermen are paying dividends. The 
haddock population has experienced a resurgence in recent 
years, for example. But our management measures have not 
adapted in similar fashion, preventing fishermen from taking 
advantage of this wealth of fish.
    In fishing year 2006, the total allowable catch of haddock 
was approximately 36,500 pounds, yet fishermen landed less than 
8 percent of that figure due to regulatory restrictions aimed 
at protecting less abundant species. This kind of lowest common 
denominated management is clearly not viable.
    As required by Amendment 13, the New England Fishery 
Management Council has been striving to develop Amendment 16, 
the next major management action for the industry. 
Unfortunately, due to a funding shortfall and a delay in the 
release of the report from the Groundfish Assessment Review 
Meetings, or GARM, the Council could not act on Amendment 16 in 
time to develop regulations for fishing year 2009, as required 
by the previous management measure, Amendment 13.
    As such, the agency now must take responsibility upon 
itself to issue interim regulations for the upcoming fishing 
season. I received assurances from Dr. Balsiger, who will 
testify before the Committee today, that his office would work 
closely with the Council to develop these interim regulations. 
But last month, the Council passed a recommendation for interim 
measures, which included the mandated 18 percent cut to days at 
sea.
    The Council's vote in favor of this measure was 15-1, with 
the lone dissenting vote cast by the National Marine Fisheries 
Service's regional administrator, who subsequently dismissed 
the Council's recommendation entirely and announced that she 
would develop interim regulations without regard for the 
Council's near unanimous decision. This is not the way the 
process is designed to operate.
    To get at the core issue of scientific uncertainty 
preventing productive management, we must address the science 
upon which our regulations are based. The Northeast Fisheries 
Science Center has recently completed its comprehensive review 
of all 19 stocks that comprise the Northeast Multispecies 
Fishery. While the GARM report does contain some positive 
results on the status of certain commercially valuable fish 
populations, it also finds that many of the other stocks remain 
in an overfished state.
    And I am concerned by allegations of mismanagement of the 
data contained in the GARM. Many members of the fishing 
industry have approached me and my staff in recent months to 
point out perceived inaccuracies in the science underlying this 
report. Their arguments have been persuasive. And in order to 
give them the thorough, independent examination that they 
deserve, I, along with Senator Collins and our colleagues from 
Massachusetts--both Senator Kennedy and Senator Kerry--have 
asked the Department of Commerce inspector general to 
investigate these claims.
    Review by this impartial third party will either confirm or 
disprove these assertions. And in the end, management based on 
the sound analysis of sound science will be the foundation on 
which this groundfish industry will be rebuilt.
    From some of our witnesses testifying today, you will hear 
calls for an industry-funded buyback to reduce capacity within 
the fishery. Fishermen from small ports like Stonington and 
Port Clyde oppose the current buyback proposal because it may 
increase their costs immediately but provide them no 
appreciable benefit in the short term. This may hasten the 
demise of the industry in those communities where it is already 
struggling to survive, but the concept may have value to other 
portions of the fishery.
    While I believe that buyouts can be an effective tool, 
anything we pursue must ensure that we are not simply 
facilitating consolidation of the fishery in a few ports, 
particularly ports outside the State of Maine, and provide a 
means to bring our traditional fishing communities back into 
the industry once stocks have rebuilt sufficiently.
    I also continue to pursue vigorously a secretarial 
declaration of a fishery failure for the groundfish industry in 
this State. Such a declaration would make the industry eligible 
for Federal funding to alleviate some of the economic impacts 
of past and soon-to-be present regulations.
    When Congress reauthorized the Magnuson-Stevens Act in 
2006, we included language to allow such a declaration due to 
regulatory effects. Still, as you know, the Secretary denied 
such a request that was made by the Governors of several 
states, including Governor Baldacci, in 2007.
    But I simply cannot and will not accept that more than a 50 
percent decline in landing values here in the State does not 
constitute a disaster or a failure. This designation is now 
more vital than ever as in a spending bill signed into law just 
a week ago in Congress, where we set aside $75 million in 
funding for fisheries in which the Secretary has declared a 
disaster.
    Well, along with my colleagues in the Senate--Senator 
Collins, Senator Gregg, and Senator Sununu of New Hampshire--we 
asked the Secretary for reconsideration of this denial, along 
with Governor Baldacci. And we will continue to pursue such a 
declaration and the funding that accompanies it until Maine's 
fishermen receive the Federal financial assistance to which you 
should be entitled to under the law.
    Whatever form the final solution takes, this rule-making 
process is far from over. We all share the goal of giving our 
fish stocks the best possible opportunity to recover. For 
without viable, sustainable populations, there will be no 
fishery at all.
    But at the same time, we must ensure that while that 
rebuilding is taking place, we do not inadvertently bankrupt an 
industry that has played such a vital role in our State's 
economy and our heritage for centuries. I, for one, am not 
ready to capitulate on the possibility of achieving that goal.
    So, at this time, I would like to begin hearing testimony 
from our panel of witnesses. I will include your entire 
statements in the record, however you choose to proceed, 
because I do think it is important to hear from all of you.
    And then we will have questions, and we will open it up to 
the audience to ask questions of panelists or me and to make 
comments. Because I think it is important to have that 
interaction so that we all have a complete understanding of 
what the issues are, what is at stake, and what do we hope to 
accomplish in the final analysis to save this most critical 
industry to our State and to the entire New England region. So, 
thank you.
    Dr. Balsiger, would you begin, please? Thank you.

    STATEMENT OF JAMES W. BALSIGER, Ph.D., ACTING ASSISTANT 
  ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE, NATIONAL 
  OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF 
                            COMMERCE

    Dr. Balsiger. Thank you, Senator Snowe.
    Senator Snowe. Thank you. And thank you for being here 
today.
    And I thank all of you for being here today, everybody. 
Thank you.
    Dr. Balsiger. I appreciate the invitation to travel to 
Portland, Maine. I never turn down invitations to get out to 
the coast. So, thank you.
    I am Jim Balsiger. I am the director of NOAA Fisheries 
Service. Thanks for inviting me to testify at this important 
hearing on New England groundfish and thank you for your 
outstanding leadership on the ocean and fisheries issues in 
Maine and in the Nation's capital.
    The red light is on. Am I too far away?
    I am well aware that commercial fishing for cod, haddock, 
flounder, and other species has been a long tradition in New 
England, and this fishing history is tied tightly to the 
culture and the economics of the region. Before serving in this 
current job, I was the Regional Administrator for Fisheries in 
Alaska, where fishing is also of paramount importance.
    So my ultimate goal as the head of the Fisheries Service is 
to see healthy stocks supporting productive fishing livelihoods 
in coastal communities around the Nation. We have some work to 
do here to reach that goal in New England and elsewhere, but we 
are making progress. And I am confident that we will reach that 
point in the not-too-distant future.
    The Magnuson-Stevens Act is the key legislative directive 
under which NOAA manages the Nation's fisheries. This important 
legislation requires us to end overfishing and rebuild stocks. 
We work with the New England Fishery Management Council to 
manage New England's groundfish as part of a 19-stock complex 
called the Northeast Multispecies Fishery.
    In recent years, we have had to sharply reduce fishing 
levels in an effort to rebuild stocks to stay in compliance 
with the Magnuson-Stevens Act. In 2004, we implemented 
Amendment 13, which substantially decreased the fishing effort 
on several stocks. This amendment also set up further 
reductions beginning in 2009 to end overfishing on the 
remaining stocks and to keep us on track to rebuild all of the 
stocks by 2014.
    In an attempt to reduce the economic harm to fishermen, 
Amendment 13's fishing reductions were set at the bare minimum 
bar. It was acknowledged they only had a 50 percent chance of 
success. Inherent in that was a 50 percent chance of failure. 
Now we are facing the next big change to the Fishery Management 
Plan, which is Amendment 16.
    To prepare for this amendment, we recently completed the 
comprehensive midpoint evaluation assessing the status of the 
groundfish stocks. This 2008 groundfish assessment, which we 
call the GARM, represents the work of more than 70 scientists 
from throughout the New England region--including NOAA fishery 
scientists--from the States, from academia, from industry, from 
consultants and independent reviewers. This assessment 
comprises hundreds of thousands of observations, records, and 
measurements from 13 different sources, including from the 
fishing industry itself.
    Results of these stock assessments are mixed but not 
entirely unexpected, given the probability of success set forth 
in Amendment 13. Results show that while there have been large 
reductions in fishing mortality, overfishing is still occurring 
in 13 stocks. This is 5 more stocks than in 2004.
    The assessments also documented a decline in productivity 
in average weight for several species, indicating slower than 
anticipated growth for these stocks. A number of these stocks 
are not increasing at the rate necessary to meet the rebuilding 
deadlines identified by the Council in the Fishery Management 
Plan.
    There is some good news, though. Some stocks that were the 
focus of concern when Amendment 13 was developed have 
experienced major recoveries. For instance, Georges Bank 
haddock has exceeded its rebuilding target. Gulf of Maine 
haddock is nearly rebuilt. We also have seen major proportional 
increases in some flounder stocks.
    I want to briefly identify where things stand in terms of 
management and what we need to do to meet the requirements of 
the mandates of the Magnuson-Stevens Act. We must put in place 
measures to continue rebuilding groundfish stocks. Amendment 16 
is the tool for this. Council action has been delayed on this 
amendment, so we need to consider other options for the 2009 
fishing year.
    The most likely option for this is an interim rule that 
would be in place until Amendment 16 is finalized. I don't know 
yet what will be in that interim rule. At present, it is clear 
that some reductions, additional reductions in fishing 
mortality are probably unavoidable. But we will work with the 
Council and the industry to put those in place.
    In terms of the overarching management strategy for the New 
England groundfish, it is worth noting that the existing 
management strategy of relying primarily on effort controls, as 
opposed to catch controls, has had mixed success and has not 
entirely achieved the desired results. To reach our ultimate 
goal of healthy fish stocks and a productive fishing industry, 
I think it is important to think beyond the historic management 
tools, and I am pleased that the Council is considering sector 
management as an alternative.
    Unfortunately, there is no silver bullet that will solve 
all the problems in the fisheries. I think we will need to use 
a variety of traditional and new management tools, probably 
including catch limits, effort controls, and maybe market 
approaches. We look forward to ideas that may come from this 
forum to help us solve some of these issues.
    I also wanted to point out that fishing is not the only 
factor that can affect fish populations. Our recent stock 
assessments showed a decline in average weight for several 
species, which means slower than anticipated growth of these 
resources. We consider these factors when we set the rebuilding 
targets. And as our understanding of marine ecosystems 
improves, we will continue to incorporate this information into 
our models and, ultimately, improve management of the fishery.
    In conclusion, I want to reiterate that our goal is the 
same as your goal. It is to have healthy stocks supporting 
productive fishing livelihoods in coastal communities. I want 
this for New England, and I want it for other coastal 
communities around the country.
    Rebuilding fish stocks is not easy. No one knows this 
better than the men and the women fishing the waters of New 
England. Nevertheless, we need to achieve this goal so we can 
revive those communities dependent on groundfish and can 
continue the fishing traditions that are a foundation of this 
region's culture and economy.
    Thank you, Senator Snowe, for holding this hearing. I 
welcome any questions. Most of all, I look forward to any ideas 
that may come out of this panel or this audience.
    [The prepared statement of Dr. Balsiger follows:]

    Prepared Statement of James W. Balsiger, Ph.D. Acting Assistant 
Administrator, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce
    Good afternoon, Senator Snowe. I am Dr. James Balsiger, the Acting 
Assistant Administrator of the National Marine Fisheries Service (NMFS) 
within the National Oceanic and Atmospheric Administration (NOAA) under 
the Department of Commerce. Thank you for inviting me to testify at 
this important hearing on New England groundfish.
Background
    Commercial fishing for cod, haddock, flounder, and other fish 
species has been a long tradition in New England, and this fishing 
history is tied tightly to the culture and economics of the region. 
Before serving in my current job, I was the Regional Administrator for 
Fisheries in Alaska where fishing is also of paramount importance. My 
ultimate goal as the head of Fisheries for NOAA is to see healthy 
stocks supporting productive fishing livelihoods in coastal communities 
around the Nation. We have some work to do to reach that goal in New 
England, but we are making progress and I am confident we will reach 
that point in the not too distant future.
    NOAA bases its fishery management decisions for New England 
groundfish on key legislative directives, management plans, and 
scientific assessments. The Magnuson-Stevens Fishery Conservation and 
Management Reauthorization Act (Magnuson-Stevens Act) is the key 
legislative directive under which NOAA manages the Nation's fisheries. 
This important legislation requires us to end overfishing and rebuild 
stocks, among other things. The new Magnuson-Stevens Act, which was 
signed by the President in January 2007, also requires us to implement 
annual catch limits and accountability measures which create an even 
more conservative management system.
    NOAA, together with the New England Fishery Management Council 
(Council), manages New England groundfish as part of a 19-stock complex 
called the Northeast Multispecies Fishery. Atlantic cod, haddock, 
pollock, and various flounders are a few of the species that make up 
the Fishery which has been heavily overfished for several decades. In 
recent years, we have had to sharply reduce fishing levels in an effort 
to rebuild stocks in compliance with the law.
Amendment 13
    In 2004, the Northeast Multispecies Fishery Management Plan (Plan) 
was amended to strengthen the work that NOAA and the Council were doing 
to manage the Fishery. Amendment 13 of the Plan instituted major 
changes in the Northeast Multispecies Fishery. These changes 
substantially decreased fishing effort on several stocks and planned 
for further reductions beginning in 2009 to end overfishing on the 
remaining stocks and keep us on track to rebuild all of the stocks by 
2014 as required by the current Plan. In an attempt to reduce economic 
harm to fishermen, Amendment 13's fishing reductions were the bare 
minimum, and only had a 50 percent probability of success. In addition, 
Amendment 13 called for regular adjustments to the Plan (such as 
Framework Adjustment 42 that further reduced fishing effort) and a 
comprehensive mid-point evaluation in 2008 to re-assess the status of 
the groundfish stocks given the 2004 fishing reductions. This 
evaluation was meant to provide the data necessary to make any needed 
changes to the rebuilding programs for the beginning of the 2009 
fishing year.
GARM
    NOAA's work to manage the Nation's fisheries, including groundfish 
in the Northeast Multispecies Fishery, is based on sound science. Most 
recently, regional scientists completed the Groundfish Assessment 
Review Meeting, or GARM. This 2008 groundfish assessment represents the 
work of more than 70 scientists from throughout the New England region, 
including those from NOAA, the states, academia, industry, consultants, 
and independent reviewers. The process used to develop the assessment 
was fully documented, open, and public during 4 week-long meetings over 
a year's time. The meeting's results were peer reviewed, drawing on the 
services of 22 scientists unaffiliated with the NMFS Northeast 
Fisheries Science Center, many from outside the United States. The 
assessments comprise hundreds of thousands of observations, records, 
and measurements from 13 different sources, including the fishermen.
    The GARM process was exceptionally rigorous, and the results are 
consistent with NOAA's obligations under national standard 2 in  
301(a)(2) of the Magnuson-Stevens Act, which mandates that management 
measures be ``based upon the best scientific information available.'' 
Northeast region stock assessments are among the most scrutinized of 
any in the world, and the methodologies have been reviewed by the 
National Academy of Sciences. By any measure these assessments set a 
reliable benchmark for the management of New England groundfish.
    Results of these stock assessments are mixed but not entirely 
unexpected given the probability of success set forth in Amendment 13. 
Results show that while there have been large reductions in fishing 
mortality since 2004, overfishing is still occurring in 13 stocks, five 
more than in 2004. The assessments also document a decline in 
productivity and average weight for several species, indicating slower-
than-anticipated growth for these stocks. A number of these stocks are 
not increasing at the rate necessary to meet the rebuilding deadlines 
identified by the Council in the fishery management plan.
    There is some good news though. Some stocks that were the focus of 
concern when Amendment 13 was developed have experienced major 
recoveries. For instance, Georges Bank haddock has exceeded its 
rebuilding target, and Gulf of Maine haddock is nearly rebuilt. We have 
also seen major proportional increases in two yellowtail flounder 
stocks and southern windowpane flounder.
Amendment 16
    Now I want to review briefly where things stand in terms of 
management and what we must do next to meet our statutory requirements.
    The next major amendment to the Northeast Multispecies Fishery 
Management Plan is Amendment 16, which was scheduled to be implemented 
in May 2009. Because of a desire to more thoroughly consider the new 
stock assessment results, the Council delayed action on Amendment 16. 
Final implementation of this amendment is not anticipated until 
September or October 2009 at the earliest. At its September meeting, 
the Council asked the Secretary of Commerce to take interim action 
while it continues to develop the amendment. At this meeting, the 
Council also recommended interim measures for NOAA to put in place 
during the fishing year starting in May 2009. As we look at our 
options, we are considering the Council's recommendations but 
ultimately, we need to ensure that we continue to rebuild stocks and 
comply with the law and it doesn't appear that the Council's 
recommendations will get us to where we need to be. At present, it is 
clear that additional reductions in fishing mortality for some of these 
stocks will be unavoidable.
Next Steps
    In terms of the overarching management strategy for New England 
groundfish, it is worth noting that the existing management strategy of 
relying primarily on effort controls as opposed to catch controls has 
had mixed success and has not entirely achieved the desired results. To 
reach our ultimate goal of healthy fish stocks and a productive fishing 
industry, I think it is important to think beyond the historic 
management tools and I'm pleased that the Council is considering sector 
management as an alternative. Unfortunately, there is no silver bullet 
that will solve all of the problems in this Fishery. We'll need to use 
a variety of traditional and new management tools including catch 
limits, effort controls, and market approaches.
    Our position on these basic management issues is clear. We will 
support any number of conservation and management measures but they 
need to demonstrate a high probability of meeting the fundamental 
Magnuson-Stevens Act mandates to end overfishing and rebuild stocks in 
a timely manner.
    I also want to point out that fishing is not the only factor that 
can affect fish populations. Our recent stock assessments showed a 
decline in average weight for several species, which means slower-than-
anticipated growth. We consider these factors when we set the 
rebuilding targets and as our understanding of marine ecosystems 
improves, we will continue to incorporate this information to improve 
our models and ultimately improve our management of the Fishery.
Conclusion
    In conclusion, I want to reiterate that NOAA's goal is to have 
healthy stocks supporting productive fishing livelihoods. I want this 
for New England, and I want it for other coastal communities around the 
country. Rebuilding fish stocks isn't easy. No one knows this better 
than the men and women fishing the waters off New England. 
Nevertheless, we need to achieve this goal so that we can revive those 
communities dependent on groundfish and continue the fishing traditions 
that are a foundation of this region's culture and economy. Thank you, 
Senator Snowe, for holding this hearing. I welcome any questions you 
may have and I look forward to continuing to work with you on this 
important issue.

    Senator Snowe. I appreciate that, Dr. Balsiger. Thank you.
    Mr. Stockwell?

  STATEMENT OF TERRY STOCKWELL, DIRECTOR OF EXTERNAL AFFAIRS, 
  DEPARTMENT OF MARINE RESOURCES, STATE OF MAINE; MEMBER, NEW 
               ENGLAND FISHERY MANAGEMENT COUNCIL

    Mr. Stockwell. Thank you, Senator Snowe.
    My name is Terry Stockwell. I am the Director of External 
Affairs for the Maine Department of Marine Resources and the 
Commissioner's designee on the New England Fishery Management 
Council.
    I am speaking today in my role as the Director of External 
Affairs, and I would like----
    Senator Snowe. Could you just speak more into the mike?
    Mr. Stockwell. I sure will.
    Senator Snowe. Thank you.
    Mr. Stockwell. And I guess it is appropriate I would like 
to begin by thanking you, Senator Snowe, for this hearing on 
the status and future of the groundfishery in the State of 
Maine.
    Maine's groundfishing industry is on the verge of collapse. 
The cumulative impact of multiple amendments and framework 
adjustments have eliminated over three-quarters of Maine's 
active groundfish fleet since the early 1990s. Currently, there 
are roughly 70 active vessels, as compared to nearly 350 in 
1990. Over the same time period, the overall landings have 
dropped from a high of about 45 million pounds to a little less 
than 10 million pounds in 2007.
    Consequently and concurrently, the shoreside infrastructure 
associated with the fishery has also greatly declined. There 
are many small ports coast-wide where groundfish vessels no 
longer moor or where groundfish vessels are no longer unloaded. 
The once prevalent local gear shops and icehouses have closed, 
and many vessel owners are reducing their maintenance and 
safety schedules to the point where there are clear concerns 
for human safety.
    For a number of reasons, the exodus of large boats from 
Portland to Massachusetts continues. Portland Fish Exchange 
groundfish volume fell from 23 million pounds in 2003 to just 
under 9 million pounds in 2007. The Exchange is forecasting 8 
million pounds for this calendar year, barely their break-even 
point.
    I am very concerned that the majority of Maine's offshore 
boats will eventually relocate and that all the historic 
groundfish ports and related communities will soon cease to 
exist. Maine has been committed to aggressively rebuilding the 
groundfish stocks in order to sustain the future of our fishery 
and coastal communities.
    However, the overall news from the final GARM III report is 
extremely grim. With the exception of haddock, plaice, and 
redfish in the Gulf of Maine, the report concludes that 11 of 
the multispecies stocks are now both overfished and experience 
overfishing as compared to 7 in 2004.
    In the Gulf of Maine, pollock, witch flounder, winter 
flounder, and northern windowpane have seriously deteriorated 
in status. The mortality reductions needed for the Gulf of 
Maine are in the 40 percent range.
    The combination of two-vessel permit buybacks, severe cuts 
in the days at sea, large area and rolling closures, increased 
mesh sizes, and trip limits have greatly reduced the fishing 
effort. But with the exception of haddock, they have not 
successfully rebuilt the Gulf of Maine stocks.
    Maine's strong support for the development and 
implementation of sector management in Amendment 16 clearly 
underscores the need for measures that sustain the fishing 
industry while rebuilding the groundfish stocks. But the 
implementation of sectors has been delayed until 2010. 
Guidelines on revisions to the National Standard 1 are not yet 
available, and the devil in the details of the costly reporting 
and monitoring program are still not yet determined.
    At the September council meeting in Providence, the 
regional administrator stated that the upcoming need for an 
interim action was a result of the failure of the Council to do 
its work. But there are a number of reasons, including the 
delay of GARM III and the lack of adequate agency resources, 
that contributed to the need for this interim action.
    And while the Council voted to request that the National 
Marine Fisheries Service initiate an interim action in order to 
remain compliant with the court-ordered rebuilding goals, the 
proposed measures will have a significant impact on the fishing 
fleet and industry that is already under huge pressure.
    My sense is that Maine's groundfish industry is on the edge 
of changes that they can't recover from and that many in the 
fleet have already crossed that threshold. Next year's interim 
management measures may push many others to a similar point. 
And while we continue to reduce fishing mortality and to make 
progress toward accomplishing the biomass targets, the question 
to ask is ``at what cost?''
    In Maine, we have already lost a significant portion of our 
fleet. The interim regulations will further exacerbate this 
trend, weakening the position of the industry in coastal 
communities to survive. Maine obviously isn't alone in this 
situation. The entire groundfish fishery is in grave condition.
    Some individuals in two-permit banks have had the foresight 
and ability to acquire additional permits and days at sea to 
help them through this very difficult time. But they are also 
in the same position of less fish available to land, 
significantly increased operating expenses, and fish prices 
that haven't significantly increased over the last 5 years.
    The State of Maine and Maine's groundfishery cannot survive 
another round of days-at-sea reductions. Amendment 16 and the 
upcoming Amendment 17 must implement output control-based 
management to enable the stocks to recover without requiring 
the demise of Maine's remaining groundfish industry. The 
movement toward sector management should increase fishermen's 
profitability while greatly reducing discards and ensuring that 
TACs <SUP>*</SUP> are not exceeded.
---------------------------------------------------------------------------
    \*\ Total Allowable Catch.
---------------------------------------------------------------------------
    However, the high costs associated with the necessary 
monitoring requirement are jeopardizing its implementation. 
Fishermen who are barely breaking even can't be expected to pay 
costs estimated at $1,200 a day to meet the sector monitoring 
requirements. While some early sectors have been successful in 
getting grant funding for implementation and monitoring, I 
don't think that this strategy can be relied on for future 
sectors.
    NMFS must follow through on their commitment to provide the 
staff and resources necessary to implement sector management in 
a timely manner. With additional measures, Maine, the Council, 
and the National Marine Fisheries Service can come up with a 
solution to this problem. While sector management assigns 
responsibility to the sectors for the development and 
implementation of their operations plans, given the continued 
decline of the multispecies resources, a centuries-old way of 
life cannot disappear for the lack of administrative resources.
    New England's groundfish stocks will eventually recover and 
will provide viable economic rewards for the fishing industry's 
substantial sacrifices. But to achieve this goal, we need a 
renewed commitment to New England's entire groundfishery. That 
means paying attention to Maine, New Hampshire, Massachusetts, 
Rhode Island, and Connecticut.
    It means we need to think about and discuss new management 
ideas and be able to act in a much more timely way than we have 
been able to do in the past. To be honest, the management 
system that we have all had a hand in creating and implementing 
hasn't served us well in this regard. As I mentioned before, we 
need thoughtful development and consideration of new sector 
proposals.
    In addition to sector management, there are other options, 
which will help ensure Maine's future and that of the entire 
New England fleet in the groundfishery. This should include, 
but not be limited to, consideration of an industry-funded 
buyout, thoughtful discussion and deliberation on whether 
individual fishing quotas would better serve industry in the 
future, and a workable area management concept.
    An industry buyout would help reduce overcapacity, increase 
profitability for those who remain, and provide an opportunity 
for future community-based actions through an associated 
permit-banking component. But there are concerns about how 
already cash-starved vessels would pay the tax on landings when 
everybody in the fishery would be subject to the current drafts 
of the idea.
    Additionally, there are concerns that an industry-funded 
buyback may exacerbate the shift of permits and vessels out of 
Maine. So we have got much work to do with this idea, but it 
certainly merits timely consideration as one part of assisting 
the groundfish industry through this incredibly difficult 
period.
    Within Amendment 17, individual fishing quotas could 
further increase fishermen's profitability. This has been a 
taboo subject in the groundfishery in the past. But again, I 
believe that this concept may help some industry sectors to 
survive in the future.
    Making it work might mean having an in-shore and offshore 
component that allows the folks in these areas to choose 
whether or not to move toward an IFQ <SUP>*</SUP> system. This 
would recognize that different solutions would likely be 
tailored for the unique circumstances facing different parts of 
the groundfishery. This is a huge shift in position for Maine 
and for New England, but it must be considered to see what will 
help us do a better job for the groundfish industry and the 
resource.
---------------------------------------------------------------------------
    \*\ Individual Fishing Quota.
---------------------------------------------------------------------------
    Within Amendment 17, area management could help revitalize 
and preserve Maine's small fishing communities, particularly in 
the Midcoast and Down East areas. The recovery of multispecies 
complex should not be dependent upon the sacrifice of an entire 
State's fishing industry. Area management holds promise in 
providing a future for small-scale, locally based components of 
the groundfish fishery, but there are issues of how areas under 
area management fit within an entire fishery, how to share 
among subdivisions available stock, how to pay for the 
management costs associated with area management. But 
nonetheless, like these other ideas, area management must be 
part of the deliberations on how to revitalize the New England 
groundfish fishery.
    As I mentioned earlier in my statement, we are in danger of 
losing much of Maine and New England's groundfish fishery. If 
management continues on the traditional path, I suspect that 
will be the result. Maine is committed to working with you, the 
other New England States, the New England Fishery Management 
Council, the Fisheries Service to make sure that this doesn't 
happen.
    I ask that you continue your great work with the Maine 
fisheries to do whatever is necessary to secure long-term 
funding to ensure that sector management is fully implemented 
as soon as possible to promote an industry buyout for those who 
wish to get out of the fishery, to enable a viable monitoring 
system for those who wish to remain, and to make sure the 
management process works for stock rebuilding in a vibrant New 
England groundfish fleet.
    Thank you for this opportunity to testify.
    [The prepared statement of Mr. Stockwell follows:]

 Prepared Statement of Terry Stockwell, Director of External Affairs, 
  Department of Marine Resources, State of Maine; Member, New England 
                       Fishery Management Council
    My name is Terry Stockwell; I am the Director of External Affairs 
for the Maine Department of Marine Resources, and I am the 
Commissioner's designee on the New England Fishery Management Council. 
I speak today in my role as the Director of External Affairs. I'd like 
to begin by thanking Senator Snowe for this hearing on the status and 
future of the groundfish fishery in Maine.
    Maine's groundfishing industry is on the verge of collapse. The 
cumulative impact of multiple Amendments and Framework Adjustments has 
eliminated over three-quarters of Maine's active groundfish fleet since 
the early 1990s. Currently, there are roughly 70 active vessels as 
compared to nearly 350 active vessels in 1990. Over the same time 
period, the overall landings have also dropped from a high of 44.8 
million pounds (worth approximately $33 million) in 1991 to 9.7 million 
pounds (worth approximately $10.3 million) in 2007. Consequently and 
concurrently, the shore-side infrastructure associated with the fishery 
has also greatly declined. There are many small ports, coast-wide, 
where groundfish vessels no longer moor or where groundfish vessels are 
no longer unloaded. The once prevalent, local gear shops and ice houses 
have closed, and many vessel owners are reducing their maintenance and 
safety schedules to the point where there are clear concerns for human 
safety.
    For a number of reasons, the exodus of large boats from Portland to 
Massachusetts continues. The Portland Fish Exchange's groundfish volume 
fell from 23 million pounds in 2003 to just under 9 million pounds in 
2007. The Exchange is forecasting 8 million pounds for this calendar 
year--barely their break-even point. I am very concerned that the 
majority of Maine's off-shore boats will eventually re-locate and that 
all the historic groundfish ports and related communities will soon 
cease to exist.
    Maine has been committed to aggressively rebuilding the groundfish 
stocks in order to sustain the future of our fishery and coastal 
communities. However, the overall news from the final GARM III report 
is extremely grim. With the exception of haddock, plaice and redfish in 
the Gulf of Maine (GOM), the report concludes that 11 of the 
multispecies stocks are now both overfished and experiencing 
overfishing compared to 7 in 2004. In the GOM, pollock, witch flounder, 
winter flounder and northern windowpane flounder have seriously 
deteriorated in status. The mortality reductions needed for the GOM are 
in the 40 percent range. The combination of two vessel/permit buybacks, 
severe cuts in days at sea, large area and rolling closures, increased 
mesh sizes and trip limits have greatly reduced the fishing effort, but 
with the exception of haddock they have not successfully rebuilt the 
GOM stocks.
    Our strong support for the development and implementation of sector 
management in Amendment 16 clearly underscores the need for measures 
that sustain fishing industry components while rebuilding groundfish 
stocks. But the implementation of sectors has been delayed until 2010, 
guidance on the revisions to National Standard 1 is not yet available, 
and the devil in the details of the costly reporting/monitoring 
programs are still not yet determined. At the September Council meeting 
in Providence, Rhode Island; the Regional Administrator stated that the 
upcoming need for an interim action was the result of the failure of 
the Council to do its work. There are a number of reasons, including 
the delay of GARM III and lack of adequate agency resources that have 
contributed to the need for this interim action.
    While the Council voted to request that NMFS initiate an interim 
action in order to remain compliant with the court ordered rebuilding 
goals of Amendment 13, the proposed measures will have a significant 
impact on a fishing fleet and industry that is already under huge 
pressure. My sense is that Maine's groundfish industry is on the edge 
of changes that they cannot recover from, and that many in the fleet 
have already crossed that threshold. Next year's interim management 
measures will likely push many others to a similar point.
    While we continue to reduce fishing mortality and to make progress 
toward accomplishing the biomass targets the question to ask is ``at 
what cost''? In Maine, we've already lost a significant portion of our 
fleet. The interim regulations will further exacerbate this trend 
weakening the position of the industry and coastal communities to 
survive. Maine obviously isn't alone in this situation; the entire 
groundfish fishery is in grave condition. Some individuals and two 
permit banks have had the foresight and ability to acquire additional 
permits and DAS to help them through this very difficult time. But, 
they're also in the same position of less fish available to land, 
significantly increased operating expenses, and fish prices that 
haven't significantly increased over the last 5 years.
    The State of Maine and Maine's groundfishery cannot survive another 
round of days-at-sea effort reductions. Amendments 16 and the upcoming 
Amendment 17 must implement output control based management to enable 
the stocks to recover without requiring the demise of Maine's remaining 
groundfish industry. The movement toward sector management should 
increase fishermen's profitability while greatly reducing discards and 
ensuring that TACs are not exceeded. However, the high costs associated 
with the necessary monitoring requirements are jeopardizing its 
implementation. Fishermen who are barely breaking even cannot be 
expected to pay costs estimated at $1200 a day to meet the sector 
monitoring requirements. While some early sectors have been successful 
in getting grant funds for implementation and monitoring, I don't think 
that this strategy can be relied upon for future sectors. NMFS must 
follow through on their commitment to provide the staff and resources 
necessary to implement sector management in a timely manner. With 
additional resources; Maine, the NEFMC and NMFS can come up with a 
solution to this problem. While sector management assigns 
responsibility to the sectors for the development and implementation of 
their operations plans, given the continued decline of the multispecies 
resources, a centuries-old way of life can not disappear for lack of 
administrative resources.
    New England's groundfish stocks will eventually recover, and will 
provide viable economic rewards for the fishing industry's substantial 
sacrifices. To achieve this goal, we need a renewed commitment to New 
England's entire groundfish fishery. This means paying attention to 
Maine, New Hampshire, Massachusetts, Rhode Island, and Connecticut. It 
means that we need to think about and discuss new management ideas and 
be able to act in a much more timely way than we've been able to do in 
the past. To be honest, the management system that we've all had a hand 
in creating and implementing hasn't served us well in this regard.
    As I'd mentioned before, we need thoughtful development and 
consideration of new sector proposals. In addition to Sector 
Management, there are other options which will help ensure Maine's 
future, and that of the entire New England fleet, in the groundfishery. 
This should include, but not be limited to, consideration of an 
industry funded buy out, thoughtful discussion and deliberation on 
whether individual fishing quota (IFQ) systems would better serve the 
fishery in the future, and a workable area management concept.
    An Industry Buyout would help reduce overcapacity, increase 
profitability for those who remain, and provide an opportunity for 
future community based access through an associated Permit Banking 
component. But, there also concerns about how already cash starved 
vessels will pay for the tax on landings that everybody in the fishery 
would be subject to in the current drafts of this idea. Additionally, 
there are concerns that an industry funded buyback may exacerbate the 
shift of permits and vessels out of Maine. So, we've got much work to 
do with this idea but it certainly merits timely consideration as one 
part of assisting the groundfish industry through this incredibly 
difficult period.
    Within Amendment 17, individual fishing quotas could further 
increase fishermen's profitability. This has been a taboo subject in 
the groundfishery in the past but, again, I believe that the concept 
may help some industry sectors to survive in the future. Making it work 
might mean having an inshore and offshore component that allows the 
folks in these areas to choose whether to move toward an IFQ system. 
This would recognize that different solutions will likely be tailored 
for the unique circumstances facing different parts of the 
groundfishery. This is a huge shift in position for Maine and for New 
England but I believe it must be considered to see if it will help us 
do better than we've done for the groundfish industry and resource.
    Within Amendment 17, Area Management could help revitalize and 
preserve Maine's small fishing communities--particularly in Midcoast 
and Down East areas. The recovery of the multispecies complex should 
not be dependent on the sacrifice of an entire state's fishing 
industry. Area management holds promise in providing a future for small 
scale, locally based components of the groundfish fishery. There are 
issues of how areas under area management fit within the entire 
fishery, of how to share among subdivisions of available stock 
components, e.g., how do you parse out Gulf of Maine cod to areas, 
sectors, etc.; and how to pay for the management costs associated with 
area management. None the less, like these other ideas, I believe area 
management must be part of the deliberations on how to revitalize the 
New England groundfish fishery.
    As I mentioned earlier in my statement, we are in danger of losing 
much of Maine, and New England's, groundfish fishery. If management 
continues on the traditional path, I suspect that will be the result. 
Maine is committed to working with you, the other New England States, 
the New England Fishery Management Council, and NMFS to make sure that 
this doesn't happen. I ask that you continue your great work with 
Maine's fisheries to do whatever is necessary to secure long-term 
funding to ensure that Sector Management is fully implemented as soon 
as possible, to promote an industry buyout for those who wish to get 
out of the fishery and to enable a viable monitoring system for those 
who with to remain, and to make sure the management process works for 
stock rebuilding and a vibrant New England groundfish fleet.
    Thank you for this opportunity to testify.

    Senator Snowe. Thank you very much, Mr. Stockwell. 
Hopefully, we can work together on that goal.
    Mr. Cunningham?

 STATEMENT OF COLIN M. ``KIP'' CUNNINGHAM, JR., VICE CHAIRMAN, 
             NEW ENGLAND FISHERY MANAGEMENT COUNCIL

    Mr. Cunningham. Good afternoon, Senator Snowe. On behalf of 
the New England Fishery Management Council, I am both pleased 
and honored to be here.
    I have served for 5 years on the Council and 3 terms as 
Vice Chairman. I currently serve as the Chairman of the 
Groundfish Committee. My comments represent my opinion, not the 
official council position. But I will try to convey the sense 
of the Council.
    The Council is currently preparing Amendment 16 to the 
Groundfish Management Plan to continue the rebuilding adopted 
in 2004 with Amendment 13 to meet time lines mandated in 
Magnuson. Planning for Amendment 16 began in the spring of 
2006. The Council, the Northeast Regional Office, and the 
Science Center met a number of times to coordinate. It became 
obvious that completing Amendment 16 in time to implement new 
regulations in May 2009 would be difficult.
    Further, the Science Center was being asked to do something 
never before attempted--to conduct complete benchmark 
assessments for 19 stocks at the same time through the GARM. 
This was a Herculean task, and the Center and the staff deserve 
a lot of credit for accomplishing it. However, in June, it 
became apparent that the Service would need to implement an 
interim action in May 2009, and Amendment 16 would be 
implemented in May 2010.
    With all the amendments, the Council, the Regional Office, 
and the Science Center coordinate their efforts. The Council 
would be at a loss if not for the expertise of the Service's 
assessment and social scientists that perform the majority of 
the technical analysis for our actions. However, this 
cooperative spirit tends to take a backseat once the Service 
begins preparation on an interim action, as is currently the 
case.
    We expect the combination of the interim action and 
Amendment 16 to continue the groundfish building. And in spite 
of all we hear, in spite of all of the gloom and doom, real 
progress is being made. Georges Bank haddock and Gulf of Maine 
haddock are rebuilt 5 years before the plan deadline. Redfish 
is nearly rebuilt 40 years before the deadline. Gulf of Maine 
cod is no longer overfished and is at a stock size that has not 
been seen in 30 years.
    Many of the stocks that are still overfished are seeing 
increases in stock size for the first time in nearly a decade. 
Fishing mortality has been reduced. Groundfish landings 
increased in 2007 for the first time in 6 years. The take-home 
message is that groundfish stocks are being rebuilt.
    Progress has been difficult at times because stock status 
has been dramatically revised. The confidence of fishermen in 
the management system suffers each time this happens. But as 
discouraging as that may be for all of us, more and better 
science is essential to crafting effective management measures.
    Looking at the future, groundfish stocks, when rebuilt, 
should produce nearly triple the current catches. But managing 
a rebuilt fishery will have its own set of problems. There are 
a number of ideas circulating to accomplish this, such as 
rights-based management and output management regimes. It is 
safe to say that the industry and the Council believe that 
input management controls need to be replaced. The 
inefficiencies required with input controls no longer work.
    Looking down the road to recovery, it has to be recognized 
that the industry is not likely to be the same. There may be 
fewer landing ports. There may be fewer boats. They will land 
where it is advantageous to do so. The recent experience of the 
State of Maine may be illustrative.
    Groundfish landings for vessels that claim Maine home ports 
declined by 27 percent between the fishing year 2001 and 2007, 
less than for other groundfish states. But boats are often 
landing their catches outside the State. So groundfish landings 
in Maine declined 63 percent over the same period. Yet Maine 
vessels have actually seen their share of groundfish landings 
increase.
    At least two organizations with strong ties to Maine 
communities are acquiring permits to preserve future access. 
This is a model that can be used without changes in the current 
management system. Programs such as groundfish sectors and 
other rights-based systems provide current participants the 
opportunity to preserve future access.
    Despite the revised timetable, I personally feel that 
Amendment 16 must go forward to continue the important stock 
rebuilding we have achieved to date. I also feel that the 
Council and fishermen are developing innovative management 
strategies scheduled for consideration in Amendment 17 that 
will adjust to changing resource and economic conditions.
    Senator Snowe, thank you for the opportunity to testify 
today, and we look forward to working with you to continue the 
rebuilding of these important resources.
    [The prepared statement of Mr. Cunningham follows:]

  Prepared Statement of C. M. ``Rip'' Cunningham Jr., Vice Chairman, 
                 New England Fishery Management Council
    Good morning Senator Snowe. On behalf of the New England Fishery 
Management Council, I am both pleased and honored to respond to your 
invitation and hope that I can be helpful to you as well as those 
members of the fishing community who are here today.
Background
    Before I begin, I would like to offer a few details about my 
background. I have served for 5 years on the Council and 3 terms as its 
Vice Chair. I am currently Chairman of the Council's Northeast 
Multispecies or Groundfish Committee and have served in that position 
for 4 years. Prior to my appointment to the Council, I was the owner, 
Publisher and Editor-In-Chief of Salt Water Sportsman, the world's 
largest sport fishing magazine, with approximately four million 
readers. I am privileged to have made a living by working with and for 
our valuable marine resources.
    With 18 voting New England Fishery Council members, there often are 
18 different opinions about the problems we face and their solutions. 
As a result, my comments may not represent the opinion of any 
individual member or the official position of the Council, but I will 
try to convey the sense of the Council as a body. I will address three 
broad topics: the relationship between the National Marine Fisheries 
Service and the Council during the development of Amendment 16 and the 
pending interim action, the long-term future of the groundfish fishery 
and how communities can ensure future access to the fishery.
The National Marine Fisheries Service and the Development of 
        Amendment 16
    The Council is currently preparing Amendment 16 the Groundfish 
Plan. As a quick review, the amendment was designed to continue the 
formal rebuilding programs first adopted in 2004 as part of Amendment 
13. These programs were designed to meet the strict rebuilding time 
lines called for in the Magnuson-Stevens Fishery Conservation and 
Management Act. Also included in Amendment 13 was a mid-term review to 
assess the progress of the programs following several years of 
implementation. The National Marine Fisheries Service recently 
completed this multi-year effort by assessing each of the 19 groundfish 
stocks at a series of meetings called the Groundfish Assessment Review 
Meeting III, or GARM III. (Interestingly, in Norse mythology GARM is 
the dog that guards the land of the dead, a coincidence that did not go 
unnoticed.)
    Planning for Amendment 16 began in the spring of 2006. The leaders 
of the Council, the Northeast Regional Office of the National Marine 
Fisheries Service and the Service's Northeast Fisheries Science Center 
met several times to coordinate time lines for development of the 
amendment. It was immediately obvious that completing Amendment 16 in 
time to implement new regulations by May 2009 would be nearly 
impossible. Further, the Science Center was being asked to do something 
never before attempted--to conduct complete ``benchmark'' assessments 
for 19 stocks at the same time. This was a herculean task, and the 
NEFSC deserves a lot of credit for that accomplishment.
    Simultaneously, the Council and its staff were asked to digest the 
assessment information and develop revised management measures in an 
unrealistically short time frame. To facilitate this process, the 
Council had to begin its work before knowing what the new mortality 
objectives would be. With the receipt of preliminary information from 
the GARM in June 2008, it became obvious that there would have to be a 
change in strategy. In response, the Council and the Regional Office 
agreed to delay developing the amendment until after all the assessment 
information was final and released in September 2008. At that point, it 
also became apparent that the Service would need to prepare an interim 
action by May 2009, and Amendment 16 would be implemented at a later 
date. We now expect the amendment to be in place by May 2010.
    Throughout the development of Amendment 16, as with all amendments, 
the Council, the Regional Office and the Science Center coordinated 
their efforts. The Council would be at a loss if not for the expertise 
of the Service's assessment and social scientists that perform the 
majority of the technical analyses that form the basis of our actions. 
At times our different perspectives required a healthy exchange on the 
issues and compromise by each party. This cooperative spirit tends to 
take a backseat once the Service begins preparation of an interim 
action, as is currently the case. While the Council discussed and 
provided suggestions for measures that the Service might adopt, the 
Service's need to complete the action has resulted in a loss of 
technical support for the Council's amendment until work on the interim 
action is completed. In addition, the need to maintain the Secretary's 
independence means that almost no dialogue occurs between the Council 
and the Regional Office concerning the design of measures for the 
interim action.
    We expect the combination of the interim action and Amendment 16 
will continue the groundfish rebuilding that has been documented. Make 
no mistake, in spite of all the rhetoric, in spite of all the gloom and 
doom, real progress is being made. Let me cite some examples. Georges 
Bank haddock and Gulf of Maine haddock are rebuilt, 5 years before the 
planned deadline. Redfish is nearly rebuilt, forty years before the 
deadline. Gulf of Maine cod is no longer overfished and is at a stock 
size that has not been seen in thirty years. Many of the stocks that 
are still overfished are seeing increases in stock size for the first 
time in nearly a decade, and fishing mortality has been reduced.
    Now, in many instances stocks are not growing rapidly enough to 
comply with the law, or fishing mortality is still too high, but we are 
in a much better position now than in the past. Progress also has been 
difficult at times because reports of stock status have had to be 
dramatically revised, even over relatively brief time periods. The 
confidence of fishermen in the management system suffers each time this 
happens, but as discouraging as that may be for all of us, more and 
better science is essential to crafting effective management measures.
    It is equally important to recognize the sacrifices made by the 
fishing industry, both commercial and recreational, and their 
communities. In order to comply with requirements to rebuild, 
groundfish landings were reduced by 44 percent between fishing year 
2001 and fishing year 2007. Gross revenues, adjusted for inflation, 
declined by 35 percent. The number of vessels landing groundfish 
declined from over 1,300 in fishing year 2001 to about 750 in fishing 
year 2007. I could go on, but the picture is clear--the requirement to 
rebuild overfished stocks has forced many fishermen out of the 
groundfish fishery, and the situation has not been helped by rising 
energy costs. Nonetheless, there is a glimmer of hope. Groundfish 
landings increased in 2007 for the first time in 6 years.
    I hope, though, that there is a take-home message here that is not 
lost. I firmly believe groundfish stocks will be rebuilt, but we cannot 
afford to mismanage them again because of the unacceptably high price 
paid by fishermen and their families and the negative effects on the 
infrastructure that supports their activities, as well as the 
communities in which they live.
Future of the Groundfish Fishery
    Looking at the future, groundfish stocks, when rebuilt, should 
produce nearly triple the current catches. Managing a rebuilt fishery 
will have its own set of problems as current legal requirements tend to 
force us to manage for the weakest stock, sacrificing yield from 
abundant stocks. There are a number of ideas circulating for ways to 
improve management: individual fishing quotas or other limited access 
privilege programs, sectors and area management are a few. The Council 
is exploring these ideas, but it is premature to know which will be 
selected in the future. It is safe to say that the industry and the 
Council believe that input management controls need to be replaced with 
output controls. The inefficiencies required with input controls, no 
longer can be overcome.
    We also cannot ignore that there is much we do not know about the 
ecosystem. How are changing temperatures affecting fish stocks? Are 
there effects from declines in inshore water quality? Has the very act 
of fishing changed the genetic composition of the stocks? These and 
other questions often are forgotten by the public. We may ultimately 
find that the answers to these and similar questions contribute as much 
to stock health as fisheries management.
Future Access to the Fishery
    How do communities cope with the rebuilding program so that they 
can benefit in the future? It has to be recognized that the industry is 
unlikely to return to its recent past. There may be fewer landing 
ports, there will be fewer boats and they will land their catch where 
it is advantageous to do so. The recent experience of the state of 
Maine may be illustrative. Groundfish landings for vessels that claim 
Maine homeports declined by 27 percent between fishing year 2001 and 
fishing year 2007 (less than for some other important groundfish 
states), but boats are often landing their catches outside the state. 
In fact, groundfish landings in Maine declined 63 percent over the same 
period. At the same time, Maine vessels have actually seen their share 
of groundfish landings increase slightly. So while the catch is not 
being landed in Maine, Maine vessels remain a key component of the 
groundfish fishery.
    How do these vessels remain active? At least two organizations with 
strong ties to Maine communities are acquiring permits to preserve 
future access. This is a model that can be used even without changes in 
the current management system. While not universally supported and 
difficult to implement, programs such as groundfish sectors or other 
rights-based systems provide current participants the opportunity to 
preserve future access. A carefully designed individual quota program 
should be able to address concerns over excessive consolidation. Some 
suggest that area management, which restricts access to an area to a 
specific group of fishermen, may be another option. The details of such 
a system have yet to be worked out, and often these proposals are 
resisted by many other fishermen who prefer the flexibility to move 
between areas.
    I suspect that until our capacity to catch fish more closely 
matches the available resource, all of these systems will struggle. 
Some of them, however, allow fishermen to make more rational business 
decisions to determine their future. The current approach to reducing 
capacity, a Darwinian survival of the fittest, is not the preferred 
method, but industry support for a capacity reduction program tends to 
hinge on external funding. While some Council members may disagree, I 
think that capacity reduction has to occur if we are to achieve the 
most benefit from the groundfish fishery.
Summary
    Simple answers are not always available to any of us within the 
context of a regulatory framework; and evolving science is necessary 
but often difficult to understand. Despite the revised timetable, I 
personally feel that Amendment 16 must go forward to continue the 
important stock rebuilding we have achieved to date. I also feel that 
the Council and fishermen are developing innovative management 
strategies, scheduled for consideration in Amendment 17, that will help 
them adjust to changing resource and economic conditions and begin to 
reap the benefits of their sacrifices.
    Senator Snowe, on behalf of the New England Council, I hope my 
comments are helpful to you as you continue to engage in discussions 
about the groundfish fishery. I am available now or in the future to 
answer questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Snowe. Thank you very much, Mr. Cunningham, for 
your input.
    Mr. Odlin?

          STATEMENT OF JAMES A. ODLIN, VESSEL OWNER, 
                ATLANTIC TRAWLERS FISHING, INC.

    Mr. James Odlin. Good afternoon, Senator Snowe. Thank you 
for the opportunity to discuss the future of the groundfish 
industry here in Maine.
    My name is James Odlin. I am a second-generation commercial 
fisherman. I have 40 years experience fishing for groundfish. I 
am Vice President of the Associated Fisheries of Maine, and my 
comments today are trying to represent the Associated Fisheries 
of Maine.
    I won't repeat what we have all heard about the drop in 
groundfish landings and the number of boats in the State of 
Maine. I am going to move right to the interim rule.
    The council forwarded to National Marine Fisheries Service 
an interim rule that was backed by a number of industry 
participants to try and address the problem of the Amendment 16 
delay. At that time, it was clearly stated by the National 
Marine Fisheries Service that the proposal did not go far 
enough.
    The Magnuson-Stevens Act states that the Secretary can 
implement interim rules to reduce or address overfishing. It 
does not necessarily have to end overfishing, nor does it give 
the authority to address F-rebuilds.
    The council has requested an 18 percent cut in days at sea. 
And to be quite honest, I do not think that the Maine 
groundfish boats that are left here today will ever be able to 
handle the 18 percent cut without mitigating measures, which 
will not be implemented in an interim rule.
    I actually think the way the economy is, the crisis in the 
banking system, unemployment rising, low fish prices, high fuel 
prices, we need a complete freeze in any reduction in days at 
sea until Amendment 16 can be implemented, and the mitigating 
measures, such as they are, put into place and a buyback plan 
implemented. At that point, Amendment 16 should go in place, 
and that would be May 2010.
    Next I would like to talk a little bit about the science. I 
first want to say that I am not critical or attacking any of 
the people at the Northeast Science Center. I agree that they 
work very hard, but their task is impossible. It is impossible 
to have an absolute number of fish in the ocean and an absolute 
number that can be taken out. It just cannot be calculated.
    The industry has very little confidence in the science, and 
I, too, see a lot of alarming issues. There was absolutely no 
consistency in the peer review in the process of the GARM III, 
and it is quite clear that this has caused problems. If we look 
at the 19 stocks, we can see that the industry brought in Dr. 
Butterworth, and he was able to look at only two stocks, white 
hake and the Gulf of Maine cod.
    He had major impacts on white hake assessment, and if the 
Northeast Science Center assessment would have been allowed to 
stand, it could have effectively shut down the groundfish 
industry right away. Dr. Butterworth pointed out an error in 
the assessment, and this was corrected. He also pointed out 
some problems with the Gulf of Maine cod, and this was also 
corrected. To me, the question is how many more mistakes are 
there?
    We then started to look at pollock, and we found a huge 
mistake in the pollock assessment. This was after the peer 
review was completed. The assessment used one data point to 
come up with its conclusions. Common practice in all GARM--its 
index-based assessments is that they should use three data 
points. We only used one. Again, after peer review, the Council 
staff pointed this out.
    Now the Northeast Science Center, in my opinion, is trying 
to defend the determination that pollock was overfished by 
stating that even if we wait and use the 2008 survey data, it 
is still likely to be overfished. My question is how do they 
know the outcome of the 2008 survey that hasn't been done yet? 
And how can a mistake like this get by the peer review and be 
pointed out by the Council staff?
    Even if the next data point is lower, maybe this is 
actually the average. The index that you use for this 
assessment could be wrong. Indexes, to me, seem to be a best 
guess.
    Next I will talk a little bit about Georges Bank cod. The 
Northeast Science Center has done what they call ``splitting 
the time series,'' which back a few short years ago, they would 
have never considered. One of their longstanding claims to fame 
was that they had the longest time series in groundfish 
management in the world.
    Now, for some reason, in 1994, the trawl surveys all of a 
sudden started catching more fish. Same gear, same boat--just 
started catching over 100 percent more fish. Then by splitting 
the time series, they are saying that the fish changed and the 
catchability of the fish became much easier.
    As someone that has spent 20-plus years working day and 
night with fishing gear to make it as effective as possible, 
this has never happened to me. And I doubt that it has ever 
happened to any fisherman in this room, that all of a sudden, 
without any gear changes, catches went up over 100 percent and 
was sustained. Maybe, just maybe, the explanation of 
catchability is that there are just more fish being caught in 
the survey because there are more fish out there.
    These are just a few examples where I feel there are 
problems with the science. Of course, the scientists will try 
to explain most of these issues away.
    Finally, as far as the future of the Maine groundfish 
industry, I have to say it is very bleak at this time. However, 
I ask Congress to look at the science. It is just not accurate 
enough to meet the demands of the current MS--Magnuson-Stevens 
Act and still have an industry left. Congress needs to amend 
the Magnuson-Stevens Act to provide flexibility in a 
multispecies fishery and especially address the arbitrary 10-
year rebuilds.
    Congress must insist on a new stock assessment on Georges 
Bank on pollock, on Gulf of Maine winter flounder, and witch 
flounder. I want to talk about witch flounder for a minute.
    Witch flounder, in the last assessment, was not overfished. 
Overfishing was not occurring, and the stock was fully rebuilt. 
We have a new assessment that says the stock is overfished, and 
overfishing is occurring. Yet the industry never caught more 
than one third of what the scientists said we could catch in 
the interim period. How did it become overfished?
    Next, Congress must provide for a vessel buyback to 
stabilize the industry and let some people stay in and supply 
the market and the infrastructure on a steadier basis to allow 
us to get our markets back and stabilize the infrastructure in 
the industry as a whole. Congress must clarify the intent of 
flexibility of stocks that are under international fishing 
agreement or understanding. Otherwise, U.S. fishermen are going 
to lose further quota to Canada.
    Senator Snowe, in a time of many crises, I am extremely 
grateful for your attention to this crisis facing our 
groundfish industry. It seems clear that continued aggressive 
oversight of groundfish management is warranted.
    Thank you.
    [The prepared statement of Mr. James Odlin follows:]

          Prepared Statement of James A. Odlin, Vessel Owner, 
                    Atlantic Trawlers Fishing, Inc.
    Good morning, Senator Snowe. My name is James Odlin.
    Thank you for the opportunity to be here today and to provide an 
industry perspective on several questions you have raised with regards 
to groundfish management in New England.
Interim Measures
    When the National Marine Fisheries Service (NMFS) imposed an 
interim rule for the NE groundfish fishery in 2006, they chose a broad-
brush management approach that was in complete conflict with the more 
proper approach ultimately chosen by the New England Fishery Management 
Council (Council). The interim rule imposed differential counting of 
days-at-sea on all management areas, with the result that one 
management area (western Gulf of Maine) and two stocks (Gulf of Maine 
cod, and Gulf of Maine yellowtail) were under-protected while other 
areas and stocks were overprotected. The Council approach (FW42) 
ultimately imposed more appropriate restrictions with a focus on 
problem areas and stocks.
    The need for interim rule for 2006 was repeatedly characterized, by 
NMFS, as a failure of the Council to develop management restrictions 
within the necessary time frame. What is left out of the discussion is 
the fact that the NMFS did not provide to the Council the scientific 
information it needed in time to develop those management 
recommendations.
    Today, the Council and the industry face the same timing conundrum. 
At the September meeting of the Council, the Regional Administrator 
reported that the NMFS is preparing an interim rule for 2009 because 
the Council had ``failed to do its job''. However, NMFS has known since 
2004 that an assessment of all groundfish stocks (GARM III) was pending 
for 2008. Still, the final meeting of GARM III was scheduled for mid-
August 2008, instead of an earlier time frame, which may have afforded 
adequate time for the Council to develop recommendations.
    At a special meeting in September to receive the GARM III advice, 
the Council did develop a recommendation for interim measures, and by a 
vote of 15 to 1, the Council did approve that recommendation. However, 
the Regional Administrator has unilaterally determined that the Council 
recommendation is not acceptable, and reported that the NMFS would 
begin work on different, more ``simple'' interim measures.
    The industry is concerned that the NMFS will, in the interest of 
``administrative simplicity'', impose inappropriate restrictions for 
2009--restrictions that will once again cause unnecessary economic harm 
to the industry without providing adequate protection to appropriate 
stocks and areas. The industry supports the process outlined by the 
Magnuson-Stevens Act (MSA), which empowers the regional Councils to 
develop fishery management recommendations, and we do not support 
unilateral action by the NMFS.
    NMFS personnel have suggested that an interim rule would need to 
achieve F-rebuild for some or all stocks. However, section 304(e)(6) of 
the rebuilding provisions of the MSA does not include any requirement 
for interim measures promulgated by NMFS under section 305(c) to 
achieve F-rebuild. In fact, section 304(e)(6) plainly states that 
interim measures may be implemented even though they are not sufficient 
by themselves to stop overfishing.
    ``(6) During the development of a fishery management plan, a plan 
amendment, or proposed regulations required by this subsection, the 
Council may request the Secretary to implement interim measures to 
reduce overfishing under section 305(c) until such measures can be 
replaced by such plan, amendment, or regulations. Such measures, if 
otherwise in compliance with the provisions of this Act, may be 
implemented even though they are not sufficient by themselves to stop 
overfishing of a fishery.'' (16 USC 1854(e)(6)).
    Section 305(c) clearly states that the objective of interim 
measures is to ``reduce'' or ``address'' overfishing; not to achieve F-
rebuild or end overfishing immediately.
    NMFS personnel have also signaled a plan to use the interim rule to 
impose additional restrictions for stocks that have been newly declared 
``overfished'' by the GARM III even though existing and proposed 
guidelines allow the Council 1 year to develop an appropriate 
rebuilding plan. Amendment 13 made it clear that status determination 
criteria are not effective until adopted by the Council, therefore NMFS 
is going beyond its authority if the interim rule includes restrictions 
for those stocks newly declared overfished by GARM III.
    Today, the industry is faced with the overwhelming uncertainty of 
what kinds of measures will be implemented in the interim rule, but we 
can be certain that there will be no measures to mitigate the economic 
impacts.
Amendment 16
    The NMFS has been putting extreme pressure on the Council to comply 
with the provisions of the recently reauthorized MSA, yet the agency 
has failed to provide the final guidance necessary to comply with those 
provisions. It is quite possible that the Council may develop policy 
and management measures that will need to be redeveloped at a later 
date. The NMFS is also pressuring the Council to develop rebuilding 
plans, in Amendment 16, for those stocks newly declared ``overfished'' 
by GARM III, even though they otherwise would have 1 year to develop 
rebuilding plans. This takes staff and Council time away from 
developing potential mitigation measures for the severe cutbacks 
anticipated in Amendment 16.
Science
    The industry has no confidence in the Northeast Fisheries Science 
Center (Science Center) stock assessments for groundfish.
    This year, the industry engaged the expertise of Dr. Doug 
Butterworth, University of Cape Town, South Africa, to participate in 
GARM III. Due to limited resources, the industry engaged Dr. 
Butterworth's attention to only the Gulf of Maine cod assessment and 
the assessment for white hake. In both cases, his intervention produced 
significantly better results in terms of calculating current biomass 
and fishing mortality levels as well as biomass and fishing mortality 
reference points. We believe that had we the resources and time to 
engage his attention to all 19 stocks we would have improved results 
for several other stocks.
    I will list several examples of our concerns. (Please also note the 
attached letter from Council Executive Director Paul Howard to NMFS 
Regional Administrator Pat Kurkul that also expresses concerns about 
the results of GARM III, as well as a copy of Administrator Kurkul's 
response.)

        1. According to the 2005 groundfish assessment--witch 
        flounder--a highly valuable stock that comprises a significant 
        part of groundfish landings by Maine boats--was determined by 
        the Science Center to be nearly rebuilt. In the intervening 
        years, the industry caught about 1/3 of the ``scientifically 
        determined'' total allowable catch, and the fishing mortality 
        was well below the ``scientifically determined'' target. 
        However, GARM III now declares the stock as overfished and 
        overfishing is occurring.

        2. The GARM III assessment for Georges Bank cod produced 
        different results than those produced by the Transboundary 
        Resource Assessment Committee just a few short weeks prior to 
        GARM III.

        3. With regards to the Gulf of Maine winter flounder 
        assessment, the GARM III panel noted that the ``analysis could 
        not be used to provide management advice nor stock 
        projections'', yet the Science Center did just that to 
        recommend a drastic reduction in fishing mortality.

        4. The pollock assessment is an index-based assessment meaning 
        it is dependent on the amount of fish caught in the trawl 
        survey. For that type of assessment, scientists typically use a 
        3-year running average of survey indices. However, in GARM III 
        the Science Center used only 1 year of data instead of 3, which 
        has resulted in a determination of overfished. As you know, 
        once declared overfished, a rebuilding program is required, and 
        as I've stated earlier, NMFS is proposing to take action for 
        this stock in the interim rule. Once the 2008 data is 
        available, a 3-year calculation may show that the stock is not 
        overfished, which would again reverse the status of this stock.

        5. For the white hake assessment the Science Center used proxy 
        age data for the time period of the 1960s and 1970s, which was 
        obtained by assuming that the average relationship between age 
        and length over the 1980s and 1990s applied to every year of 
        the earlier period. However the Review Panel rejected this 
        assumption because of a potential to introduce errors. Instead 
        the Panel preferred Dr. Butterworth's assessment, which avoided 
        the need to make this questionable assumption for the earlier 
        years.

        6. You will recall that in 2005 the biomass targets for several 
        stocks were dramatically increased--in some cases doubled--and 
        in at least one case, the target was set higher than any 
        observed level of abundance. In 2008, many of those same 
        targets have been reduced; others have been increased. As you 
        know, these wildly divergent ``estimates'' become the 
        determining ``facts'' on which new management restrictions are 
        based.

    The industry cannot continue to withstand this constant whipsawing 
of scientific information.
    The groundfish assessment process itself was problematic. A panel 
comprised of scientists external to the Science Center, developed final 
recommendations on the basis of analyses presented by Center staff, at 
each of a series of 4 week-long meetings. However of the 5-member Panel 
for the last meeting, which provided the final management advice, only 
the Chair (Dr. O'Boyle) and Dr. Butterworth were present at all 
meetings. At each of the meetings, as many as 19 different stocks were 
discussed. The industry believes that this provided insufficient time 
to discuss any of the stocks at the level of depth required for 
reliable recommendations.
Vessel Buyout
    A buyout is crucial to lessening the negative impacts of Amendment 
16. The industry has advanced a proposal to Congress for an industry-
funded buyout. A buyout would remove excess capacity, give those who 
wish to leave the industry a dignified way to exit, and allow those who 
wish to remain the opportunity to succeed. A West Coast groundfish 
buyout has provided increased profitability for fishing businesses and 
stability for fishing communities.
Sectors
    The industry has been working for a long time on developing 
groundfish sectors. This has been a costly endeavor in terms of time 
and financial resources. Sector allocations will be based on landings 
histories of each vessel in the fleet, yet the industry has had 
considerable difficulty retrieving landings data from the NMFS. The 
Sustainable Harvest Sector submitted a roster of vessels with a data 
request nearly 2 years ago, and we have still not received the data. 
Sectors seem to be the only alternative to massive cuts in DAS and/or 
derby style fishing. At every step of the way during the development of 
Amendment 16, the NMFS has thwarted the Council's ability to develop 
sectors.
    If we are to be forced to adhere to a catch based management system 
(as opposed to DAS) the industry believes that ITQs, for several 
reasons primarily related to cost, would be preferable to sectors. 
According to the current draft of Amendment 16, sectors will be held 
responsible for the costs of dockside monitoring, at sea monitoring, 
development of an environmental assessment (yearly) as well as a sector 
manager salary. In addition, NMFS has decided that sector members will 
also be held joint and severably liable for ANY violation of the 
management restrictions, even though this type of liability was never 
recommended by the Council. However, it is unlikely that the Council 
would ever seriously contemplate development of an ITQ proposal for 
groundfish because of the onerous requirements proposed for the 
referendum process.
Recommendations
    The future of groundfishing in Maine is bleak.
    The State no longer has very many medium and no large vessels 
necessary to maintain a year-round landing stream, which is then 
necessary to maintain the shore-side infrastructure.
    However, there are some actions that Congress could take to improve 
the outlook.
    First and foremost, Congress must amend the Magnuson-Stevens Act in 
a way that clearly articulates the flexibility necessary for fisheries 
managers to restore fisheries resources while preserving fishing 
communities. The most recent reauthorization, at least from the draft 
guidelines proposed by the NMFS, will most likely decrease the 
flexibility manager's desperately need. Congress must also remove the 
requirement for a referendum for ITQ management as the referendum 
process serves only as a major obstacle to ITQ management.
    Congress must insist on a new benchmark assessment for Georges Bank 
cod, pollock, and winter flounder.
    Congress must insist on a complete analysis of the appropriate 
natural mortality estimate for each stock, instead of defaulting to a 
natural morality rate of 0.2 for all stocks.
    Congress must provide the funding necessary for a buyout, or 
alternatively advance the industry-funded buyout.
    Congress must provide funding for the costs of sector monitoring. 
In other fisheries where dockside and at-sea monitoring are required, 
the cost to industry is more than 10 percent of the landings value. The 
NE groundfish fishery cannot sustain those costs now, or anytime in the 
near future.
    Congress must clarify that when stocks are jointly managed by the 
U.S. and Canada this be considered an agreement under MSA.
    Congress must work more closely with the executive and legislative 
branches of Maine government to encourage the State to focus more 
resources on improving groundfish science and to make involvement in 
groundfish management a State priority.
    Again, thank you for the opportunity to be here today. I am happy 
to answer any questions you may have.
                                 ______
                                 
                     New England Fishery Management Council
                                Newburyport, MA, September 16, 2008
Ms. Patricia Kurkul,
Regional Administrator,
National Marine Fisheries Service,
Gloucester, MA.

Dear Pat:

    Your letter of September 2, 2008 notified the Council of the 
results of the Groundfish Assessment Review Meeting (GARM III). It also 
reported changes in stock status as a result of those assessments. I 
have some concerns that I want to bring to your attention.
    According to the letter, GOM winter flounder has been determined to 
be overfished and subject to overfishing. The GARM III report does not 
provide any support for this conclusion. While it is true that the 
Executive Summary of the GARM III report includes this listing, the 
actual chapter on GOM winter flounder does not. In fact, the Peer 
Review Panel (Panel) summarized its conclusions in the following 
paragraphs (emphasis added):

        ``Given the problems encountered, the Panel agreed that none of 
        the models put forth gave a clear picture of the status of the 
        resource. Further, the Panel noted that until these issues were 
        resolved, the proposed analysis could not be used to provide 
        management advice nor stock projections.

        While the Panel was unable to determine the stock's status 
        relative to the BRPs, it agreed that the current trend in the 
        population was very troubling. The Panel generally agreed that 
        it is highly likely that biomass is below B<INF>MSY</INF>, and 
        that there is a substantial probability that it is below \1/2\ 
        B<INF>MSY</INF>. The Panel noted that other stocks in the area 
        of this mixed fishery were also at low levels.''

    Given the Panel's unequivocal rejection of any of the models 
presented, the Executive Summary errs when it presents estimates of 
fishing mortality and stock biomass for this stock from an explicitly 
rejected assessment model. The report also erred by providing 
projections results, again contrary to the clear language of the Panel. 
The status of this stock should be reported as unknown. This is not to 
suggest there are no concerns for this stock, as noted by the Panel, 
which is clearly not rebuilt and may indeed be overfished.
    Your letter also reports that pollock was overfished and 
overfishing was occurring as of 2007. The biomass reference point for 
pollock is an index-based proxy first recommended by the Reference 
Point Working Group in 2002. Significantly, that document determined 
biomass status by using a centered three-year moving average of the 
fall survey index. As an example, status in 2005 is based on the 
average of the survey indices for 2004, 2005 and 2006. This means that 
status cannot be determined for 2007 until the 2008 fall trawl survey 
index is available. The 2007 value reported in Table 2 of the report is 
0.754 kg/tow. This does not appear be the average of anything--it is 
the same value reported for the 2007 fall survey in Table M.1. There is 
no justification in the report, and there was no discussion at the 
meeting suggesting that a single year of the trawl survey index should 
be used as a biomass proxy.
    This error results in an incorrect determination of status for 
pollock. The centered three- year average of the trawl survey index for 
2006 is 1.42 kg/tow, more than half the GARM III recommended 
B<INF>msy</INF>-proxy of 2.0 kg/tow. As I said previously, consistent 
with the approved reference points, the status for 2007 cannot be 
determined until the fall survey is completed in 2008. The relative 
exploitation index is also based on a centered three-year average of 
the trawl survey index. As a result, the 2007 relative exploitation 
index cannot be determined. In 2006, the relative exploitation index, 
based on a centered three-year average, was 5.03, less than the 
F<INF>msy</INF> proxy of 5.66, and overfishing was not occurring. 
However, given the recent decline in the trawl survey index, pollock 
should be reported as approaching an overfished condition.
    Finally, please note that Amendment 13, approved by the Secretary 
of Commerce, made it clear that status determination criteria are not 
effective until adopted by the Council. (``Over time, development of 
new analytic techniques or additional data may result in scientific 
advice recommending changes to the status determination criteria 
parameters. In order to comply with M-S Act requirements that status 
determination criteria be determined by the Council, a Council action 
is necessary to change the status determination criteria parameters.'') 
Further, Amendment 13 made it clear that any changes to numerical 
estimates of parameters that resulted from the GARM III review would 
only become effective when adopted by the Council (``For this review, 
any updated numerical estimates will be adopted through a Council 
management action--amendment or framework adjustment.'') This is 
essentially the same stance taken by NMFS on the recent change in 
monkfish reference points that resulted from an assessment in August 
2007. NMFS continued to report stock status based on the old status 
determination criteria until the new reference criteria were formally 
adopted by the Council in a change to the fishery management plan.
    In conclusion, I recommend the following:

        1. That the status of GOM winter flounder be reported as 
        unknown in the quarterly status report, consistent with the 
        GARM III peer review Panel's rejection of all assessment models 
        presented and the Panel's explicit statement that they could 
        not determine status with respect to the biological reference 
        points.

        2. That the status of pollock be revised to approaching an 
        overfished condition and overfishing not occurring as of 2006, 
        the last year that this determination can be made in a manner 
        consistent with recommended status determination criteria.

        3. And for the quarterly status reports, that a more consistent 
        policy be considered for when status determination criteria 
        become effective.

    I look forward to your response.
            Sincerely,
                                            Paul J. Howard,
                                                Executive Director.
cc: Nancy Thompson, NEFSC
                                 ______
                                 
                                                    October 3, 2008
United States Department of Commerce,
National Oceanic and Atmospheric Administration,
National Marine Fisheries Service Northeast Region,
Gloucester, MA.

Mr. Paul J. Howard,
Executive Director,
New England Fishery Management Council,
Newburyport, MA.

Dear Paul:

    Thank you for your September 16, 2008, letter in which you 
highlighted important issues with respect to the results of the recent 
Groundfish Assessment Review Meeting (GARM III), In addition, you 
requested consideration of a consistent policy pertaining to when new 
status determination criteria become effective.
    You are correct in pointing out that there are inconsistent 
statements in the GARM III report about whether the Gulf of Maine (GOM) 
winter flounder stock status can be determined. These statements 
resulted from the fact that this assessment was very uncertain, a point 
that was clearly made in the GARM III Report by both the assessment 
scientists and the GARM III Review Panel (Panel). Because there was so 
much uncertainty, the Panel had a difficult time deciding whether a 
status determination was possible, as reflected in their statements. 
Although the models did not fit well, the Panel concluded that ``it is 
highly likely that biomass is below B<INF>MSY</INF>, and that there is 
a substantial probability that it is below \1/2\ B<INF>MSY</INF>,'' and 
offered this input as guidance to managers. However, everyone agrees 
that the results are very uncertain. At this stage, it is largely a 
policy decision that the New England Fishery Management Council 
(Council) must make as to whether to use the results from the final 
model (as was done in the GARM III report), or to conclude that the 
status is unknown.
    Regarding pollock, you are also correct in pointing out that the 
GARM III report (Table 2 on page xiv) incorrectly used the single fall 
survey biomass index from 2007 as a basis for making a status 
determination about whether the pollock stock is overfished. To be 
consistent with approaches used by the Plan Development Team in the 
past, the appropriate method for determining stock status should have 
been based on an average of recent fall survey biomass indices. There 
are several ways to compute the average based on the recent data, and 
different formulas for the average (lagged vs. centered; latest 3 years 
vs. latest 2 years) lead to different conclusions about whether the 
stock is overfished. For instance, the centered average based only on 
the two most recent surveys (2006 and 2007) is 0.856, which indicates 
the stock is overfished (B<INF>THRESHOLD</INF> = 1 kg/tow). In 
contrast, the average biomass index based on the last three surveys 
(2005, 2006, 2007) is 1.42, which indicates the stock is not 
overfished. This high sensitivity to the inclusion of a particular data 
point suggests that it is uncertain whether the stock is currently 
overfished.
    Even though there is uncertainty about whether the stock is 
overfished, there are several signs in the recent fall survey indices 
and in the annual landings that indicate that the average biomass of 
the stock will decline to a level approaching an overfished condition 
and that the threshold will be breached within 2 years. For example, 
the high 2005 survey biomass index value will be dropped from the 
calculation of average biomass as soon as an additional year of data 
from 2008 becomes available. The value from 2005 was the highest in the 
last 25 years, and the value from 2008 is unlikely to be greater than 
the 25-year maximum; so the updated 3-year average is likely to 
decrease and be close to, or less than, B<INF>THRESHOLD</INF>. 
Likewise, landings have been increasing since 1995, and the highest 
value in the time series (1995-2007) occurred in 2007. Thus, the 
relative fishing mortality rate (F) is likely to be much higher the 
next time it is calculated. Both of these factors will push the stock 
status calculation in the direction of being overfished and overfishing 
occurring.
    In addition, uncertainty exists in determining the overfishing 
status for pollock because the 3-year centered average cannot be fully 
computed without the 2008 survey biomass index. However, two 
calculations can be made involving the 2007 landings: 2007 landings 
over the average biomass from 2005-2007 = 6.64 for Relative F; and 2007 
landings over the average biomass from 2006-2007 = 10.98 for Relative 
F. Both of these calculations suggest that overfishing is occurring, as 
FMSY proxy for this stock = 5.66 for Relative F.
    Much of the uncertainty over which formula to use for average 
biomass and for Relative F for pollock is caused by not having the 2008 
fall survey index yet. When it becomes available, likely in January 
2009, that value could be used to compute the centered average biomass 
index and Relative Fishing Mortality Index for 2007 based on data from 
2006, 2007, and 2008. Therefore, based on the most recent information, 
the pollock stock is best categorized as approaching an overfished 
condition and overfishing is occurring, as you suggest. However, this 
revised conclusion does not alter the responsibility of the Council to 
take action to prevent overfishing from occurring, as required by the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act) and highlighted in Pat Kurkul's September 2, 2008, letter 
regarding the status determinations of several stocks. Should the stock 
become classified as being overfished with the addition of the 2008 
fall survey index, the Council will be required to develop management 
measures that rebuild the stock.
    Finally, your letter requested a more consistent policy regarding 
when status determination criteria become effective. As you note, 
Amendment 13 to the Northeast (NE) Multispecies Fishery Management Plan 
(FMP) clearly states that changes to such criteria only become 
effective upon the implementation of a management action by the 
Council. Under normal circumstances, the preferred approach would be to 
use existing status determination criteria until revised criteria 
become effective upon the implementation of a Council action. As you 
know, this is the approach taken for recent stock status changes in the 
Monkfish FMP and is consistent with the requirements of other FMPs 
managed by the Council. However, due to the length of time it will take 
before Amendment 16 becomes effective (Amendment 16 is scheduled to 
become effective 1.5 years after GARM III was released), should NOAA's 
National Marine Fisheries Service (NMFS) implement an interim action 
for fishing year 2009, NMFS intends to rely on the new status 
determination criteria and updated estimates of stock status outlined 
in the GARM III. We feel this approach is appropriate in order to 
develop interim management measures that are based on the best 
available scientific information, as required by the Magnuson-Stevens 
Act.
    Although the new status determination criteria and numerical 
estimates of stock status may be included in an interim action, it is 
still necessary for the Council to formally integrate such criteria and 
estimates into the FMP under Amendment 16 and develop measures under 
the amendment that end overfishing and rebuild overfished stocks, as 
identified by the best available scientific information from GARM III, 
in order to maintain compliance with approved rebuilding plans and the 
requirements of the Magnuson-Stevens Act.
    Thank you for bringing these issues to our attention. We look, 
forward to continuing to work with the Council in developing effective 
measures under Amendment 16 that will continue rebuilding depleted 
groundfish stocks.
            Sincerely,

Patricia A. Kurkul,
Regional Administrator.
  
Nancy Thompson, Ph.D.,
Science and Research Director,
Northeast Fisheries Science Center.

    Senator Snowe. Thank you very much for your testimony and 
for reflecting the industry. Thank you, Mr. Odlin.
    Mr. Libby?

               STATEMENT OF GLEN LIBBY, CHAIRMAN,

              MIDCOAST FISHERMEN'S ASSOCIATION AND

          PRESIDENT, MIDCOAST FISHERMEN'S COOPERATIVE

    Mr. Libby. Thank you, Senator Snowe. I am honored to have 
been invited to testify here today.
    My name is Glen Libby. I am a life-long, second-generation 
fisherman from Port Clyde, Maine. I am currently Chairman of 
the Midcoast Fishermen's Association and President of the 
Midcoast Fishermen's Cooperative. I additionally serve on the 
board of the Portland Fish Exchange and on the Maine Marine 
Resources Advisory Council.
    From our point of view, the current management system for 
groundfish, days-at-sea, is a dismal failure and has fallen 
short of its original intent to meet requirements of the 
Magnuson Act. While there are a few successes outlined in the 
latest stock assessment, we have seen a steady decline of fish 
in the near-shore areas of Down East Maine over the past 
decade.
    This landscape, coupled with fuel prices rising to 
historical levels while the wholesale price for fish remains 
flat, is a recipe for disaster to an industry that has been in 
this State long before the country was founded. I am always the 
first person to say, ``If it ain't broke, don't fix it.'' Our 
current management system is broken. It needs to be fixed 
before the last fisherman leaves Maine.
    Those of us with a vested interest in healthy resources and 
sustainable fishing communities see an opportunity to attain 
this with alternatives to current management within the 
Amendment 16 process. Two alternatives that hold great promise 
as a way to leave behind the failing days-at-sea system are 
area or community-based management and sectors.
    Sectors are now being promoted by the New England Fishery 
Management Council and are planned for implementation in time 
for the 2010 fishing season. Sectors will need diligent work by 
the Council and the agency over the next year. However, they 
could still be stalled in the Amendment 16 process while we 
debate the science, which would only be to the detriment of the 
resource and the fishermen.
    We now also face interim action by the National Marine 
Fisheries Service for the 2009 fishing year that will most 
likely lead to even greater cuts in days at sea. This action 
will continue to cripple fishermen, which is why it is critical 
to have a new management structure in place for 2010.
    This turmoil has also led to the proposal for an industry-
funded buyout--a Federal loan to be paid back by remaining 
active fishermen. Many fishermen are struggling, for all of the 
aforementioned reasons, and this would be a means for them to 
retire from the industry with financial security.
    However, their retirement would be funded on the backs of 
the remaining fishermen. The concept behind the industry-funded 
component is that if you remove a certain number of permits 
from the fishery, the stocks will eventually rebound, and a 
portion of that effort can be redistributed to the remaining 
fishermen.
    Since 1994, we have had multiple buybacks, and the 
groundfish fleet has gone from more than 1,000 boats to less 
than 600. Yet stocks have not rebuilt because the days-at-sea 
system does not work.
    While we are struggling with an overcapacity issue in other 
areas of New England that demands a capacity reduction, we 
certainly do not have an overcapacity issue in Maine. There is 
one boat left that is actively fishing between Port Clyde and 
the Canadian border, where at one time there were hundreds.
    According to DMR, only 70 boats actually landed their catch 
in Maine in 2007. Already this year, several Maine fishermen 
have sold out of the fishery forever. Maine cannot and should 
not lose access to this industry. It is essential that we keep 
this critical food source and industry here in Maine now and 
for future generations.
    In spite of all this, the fishermen I have the privilege to 
work with have found hope. Although in its infancy, the initial 
success of this working model holds great promise for the 
replication for fishermen everywhere. We currently have a 
fishery whose market structure is based on volume. Fishermen 
catch high volumes of fish that flood the market, resulting in 
lower prices. Depleted stocks do not allow for the industry to 
be economically viable.
    However, if the market structure is changed to catching low 
volumes of high-quality fish that are sold at a premium price, 
economic viability can be reached. By increasing profit, this 
model achieves conservation of the resource by reducing the 
fishing effort, thus redefining overcapacity and maintaining 
access to the resource for fishermen and the people of Maine.
    To groundtruth this theory, the fishermen of the Midcoast 
Fishermen's Cooperative created a Community-Supported 
Fisheries, CSF, based on the successful agricultural model of 
Community-Supported Agriculture, CSA. By selling directly to 
the people of Maine using this model, we have established a way 
to keep Maine's fishermen fishing as well as creating a bond 
with our customers.
    Our CSF customers feel a sense of ownership for the fishery 
and the fishermen. They know that they are helping to preserve 
one of Maine's last remaining traditional fishing communities 
while supporting environmentally sustainable fishing, which 
will restore the resource and strengthen Maine's local economy.
    We have altered our gear to reduce bycatch and lessen the 
impact on habitat. By branding a product caught in a 
sustainable manner off Maine waters and landed in our harbor, 
we are able to market it at a higher price than that of 
wholesale prices.
    This model has piqued the interest of people all over the 
country as a potential way to avoid consolidation of the 
fishery, to help restore the resources, strengthen local 
economies, and create a local food supply. This was pioneered 
in Maine, and Maine could lead the way by example.
    Through our CSF program, the people of Maine have sent a 
clear message that they want ``their'' community-based fishery 
to remain and prosper. The fishermen that I work with are 
determined to leave this fishery in better shape than it is 
right now for their children and grandchildren.
    I would ask you, Senator, to give your full consideration 
to this model, along with an alternative management plan, like 
area management and sectors, as sound tools that would benefit 
Maine and New England for generations.
    Thank you.
    [The prepared statement of Mr. Libby follows:]

   Prepared Statement of Glen Libby, Chairman, Midcoast Fishermen's 
      Association and President, Midcoast Fishermen's Cooperative
    Thank you, Senator Snowe, I am honored to have been invited to 
testify here today. My name is Glen Libby, I am a life long, second-
generation fisherman from Port Clyde Maine. I am currently Chairman of 
the Midcoast Fishermen's Association and President of the Midcoast 
Fishermen's Cooperative. I additionally serve on the board of the 
Portland Fish Exchange and on the Maine Marine Resources Advisory 
Council.
    There are many issues currently confronting the groundfish industry 
right here in Maine. Myself, and the fishermen I represent thank you 
for providing us with this opportunity to speak about those concerns as 
well as the positive efforts that our two organizations, the Midcoast 
Fishermen's Association and the Midcoast Fishermen's Cooperative, are 
doing to insure that groundfishing will continue with sustainable 
resources and a thriving industry along the coast of Maine today and 
for future generations.
    From our point of view the current regulation system we are 
operating under, Days-at-Sea, is broken and has fallen short of its 
original intent to meet the requirements of the Magnuson Act. While 
there are a few successes outlined in the latest stock assessment, the 
reality of fishing in our area has been, to use a Maine phrase, tough 
sledding lately. Over the past decade, we have seen a steady decline of 
fish in the near shore areas of Down East Maine. This decline has led 
to a loss of fishing opportunity and continual cuts in Days-at-Sea that 
fail to restore our resource. This landscape coupled with energy prices 
rising to historical levels while the wholesale price for fish remains 
flat, is a recipe for disaster to an industry that has been in this 
state long before the country was founded.
    The current allocation of Days-at-Sea (48 days in most cases) 
barely provides enough time to make a living fishing in the spring, 
summer and fall. We are fortunate that our shrimp fishery carries us 
through the winter months. The shrimp fishery, while well managed, 
carries its own set of problems: the rising costs of fuel, the 
historically low wholesale prices for shrimp and competing efforts with 
imported farm raised shrimp.
    When you consider all these variables it is remarkable that there 
are any fishermen left in Maine who pursue anything but lobster. The 
lobster fishery has been the one bright spot for Maine's fishing 
economy but that fishery is beginning to suffer from the same set 
problems that have plagued other fisheries. The real danger to Maine's 
fishing economy is that we are becoming a single species fishery 
dependent solely on lobster. If all other fisheries fail due to 
depletion or market forces, that leaves us in a precarious position of 
having all of Maine's fishing related economy dependent on one resource 
and this is not sustainable.
    I am always the first person to say ``if it ain't broke--don't fix 
it'', our current management system for groundfish is broken and needs 
to be fixed before the last fisherman leaves Maine. Those of us with a 
vested interest in healthy resources and sustainable fishing 
communities saw an opportunity to attain this with new alternatives to 
fisheries management within the Amendment 16 process. Amendment 16 
could be our light at the end of a dark tunnel. Fishermen, 
conservational and fishing advocacy groups aligned to propose 
innovative and tried and true alternatives to New England's current 
management system.
    Two examples that my organization has and still supports, are Area 
or Community Based Management and Sectors. Area Management assigns 
fishing opportunity to fishermen as well as allocating a portion of 
fish to a specific area. Each area is recognized as unique and is 
managed accordingly. This form of management also advocates for changes 
in fishing technology that reduces bycatch and impact to habitat. These 
concepts are radically different from the way that the groundfishery 
has been managed in the northern Gulf of Maine, but is strikingly 
similar to how our lobster fishery is managed.
    The second management structure that my organization supports is 
Sectors. The development of sectors, a tool with strong accountability 
measures, hold great promise as a way to get away from of the failing 
Days-at-Sea system. Sector management, now being promoted by the New 
England Fishery Management Council, is planned for implementation in 
time for the 2010 fishing season. Monitoring of the catch and the costs 
involved are the biggest hurdles facing the Council, which may require 
innovative approaches and fast action within a process that is 
cumbersome at best. Sectors will need diligent work by the Council and 
the agency over the next year. Although, they could still be stalled in 
the Amendment 16 process while we debate the science, this would only 
be to the detriment of the resource and the fishermen.
    We are now facing a decision by the National Marine Fisheries 
Service that will guide fishing effort for the 2009 fishing year. This 
interim action will most certainly put additional pressure on an 
already fragile industry with even greater cuts in Days-at-Sea. The 
council, with credit to those who serve, has tried to balance the 
rebuilding goals of our stocks with the needs of our fishing 
communities. The two are directly linked, for fishing communities to 
prosper healthy resources and a streamlined management system that can 
act in a timely fashion are needed. These impending cuts for 2009 will 
continue to cripple fishermen to the point of no return, which is why 
it is critical to have a new management structure in place for 2010.
    This recent turmoil in the fishing industry has lead to another 
proposal, an Industry Funded Buyout, a Federal loan to be paid back by 
active fishermen. The rationale supporting this buyout is two fold: 
when Magnuson was enacted the 200-mile limit was established and an 
enormous amount of money was pumped into the fishing industry around 
the country. The government played a large role in this by making funds 
easily available to build a domestic fleet to harvest the seemingly 
limitless bounty of fish along our coast. As we have painfully learned 
the supply was not limitless. We are still struggling with an over 
capacity issue in some areas that demands capacity reduction. The other 
issue is the fact that many fishermen are struggling for all of the 
reasons that I have already mentioned and this would be a means for 
them to retire from the business with financial security. Both of these 
reasons make sense for a buyout, but there are aspects of this proposal 
that the fishermen I represent feel would not be in the best interest 
for the State of Maine.
    The concept behind the industry funded component is that, if you 
remove a certain number of permits from the fishery then a portion of 
that effort can be redistributed to the remaining fishermen. This is 
based on the assumption that this amount of effort reduction will 
result in a recovery of fish stocks due to the buyout. If this recovery 
does not happen as quickly as hoped and no new reallocation of effort 
is possible then you have then saddled the remaining fishermen with an 
additional burden of a tax on their landings that could last for thirty 
years. Consider that the average age of a fisherman in New England is 
50 years of age, that fisherman would be well into his 80s before this 
loan was paid back. If profits do not increase as hoped and more 
fishermen leave the business during this time the debt may fall to the 
remaining few fishermen, creating a heavier burden and spinning the 
industry into a vicious cycle. These considerations seem to warrant 
caution and careful analysis of its direct impact to Maine.
    We certainly do not have an overcapacity issue in Maine. There is 
one boat left that is actively fishing between Port Clyde and the 
Canadian border, where at one time there were hundreds. According to 
the DMR, only 70 boats actually landed their catch in Maine in 2007. 
Already this year several Maine fishermen have sold out of the industry 
and with impending further cuts in Days-at-Sea there may be many more 
fishermen not far behind to sell out of this fishery forever. Maine 
cannot and should not lose access to this industry. If the remaining 
permits are sold to interests outside the state of Maine or are simply 
taken out of the fishery, we may never regain access back to the fish 
right off our shores. It is essential that we keep this critical food 
source and industry here in Maine now and for future generations.
    In spite of all this the fishermen I have the privilege to work 
with have found hope. By taking one of the criteria from the buyout 
equation, the market structure and changing the parameters, we have 
found a solution for the short and long term sustainability of this 
fishery. Although, in its infancy, the initial success of this working 
model holds great promise for replication for fishermen everywhere.
    Consider that we currently have a fishery whose market structure is 
based on volume. Catch high volumes of lower quality fish for a low 
price. We have a depleted fish stock here in Maine that does not allow 
a sufficient volume to be taken for the industry to be economically 
successful. There are two ways to fix this, consolidate the number of 
fishermen, which increases the volume of fish that can be taken thus 
allowing the remaining fishermen catch more fish. This leads to a 
consolidated fishery putting many out of work and leaving Maine's 
communities vulnerable, this is the Industry Funded Buyout plan. Or, 
you change the market structure; you catch low volumes of high quality 
fish and sell it at a premium price. By increasing profits, this model 
achieves conservation of the resource by reducing the fishing effort 
thus redefining overcapacity and maintaining access to the resource for 
fishermen and the people of Maine.
    To ground truth this theory, the fishermen of the Midcoast 
Fishermen's Cooperative created a Community Supported Fisheries (CSF) 
based on the successful agriculture model a Community Supported 
Agriculture (CSA). By selling directly to the people of Maine using 
this model we have established a way to keep Maine's fishermen fishing 
as well as creating a bond with our customers. With this bond, they now 
feel a strong sense of ownership for the fishery and the fishermen in 
the Gulf of Maine. Our CSF customers are helping to preserve one of 
Maine's last remaining traditional fishing communities while supporting 
environmental sustainable fishing which will restore the resource and 
strengthen Maine's local economy. We have altered our gear to reduce 
bycatch and lessen the impact on habitat. By branding a product caught 
in a sustainable manner off Maine waters and landed in our harbor we 
are able to market it at a price as much as ten times that of wholesale 
prices.
    This model has piqued the interest of people all over the country 
as a potential way to avoid consolidation of the fishery, to help 
restore the resources, strengthen local economies and create a local 
food supply. This was pioneered in Maine and Maine can lead the way by 
example.
    Through our CSF program the people of Maine have sent a clear 
message that they want ``their'' community-based fishery to remain and 
prosper. The fishermen that I work with are determined to leave this 
fishery in better shape than it is right now for their children and 
grandchildren. I would ask you Senator, to give your full consideration 
to this model, along with alternative management plans like Area 
Management and Sectors as sound tools that would benefit Maine and New 
England for generations.

    Senator Snowe. Thank you, Mr. Libby. Great idea. Yes, very 
innovative. Thank you.
    Dr. Holland?

STATEMENT OF DANIEL S. HOLLAND, Ph.D., RESEARCH ECONOMIST, GULF 
                  OF MAINE RESEARCH INSTITUTE

    Dr. Holland. Thank you, Senator, for the opportunity to 
testify before this committee. It is an honor to be here.
    These are very difficult times for the groundfish fishery, 
as we heard, and I am grateful that the Subcommittee and 
particularly you, Senator Snowe, is focusing attention on the 
needs of the industry at this time.
    Please note that my statements today reflect my own 
opinions and research experience. They don't represent the New 
England Fishery Management Council's Groundfish Plan 
Development Team on which I do serve as a member. My remarks 
today are focused primarily on Amendment 16 to the Multispecies 
Fishery Management Plan and, in particular, on the development 
and implementation of groundfish sectors.
    Sector management in New England and similar types of 
management elsewhere in the world has been a primary focus of 
my work for several years, and the Gulf of Maine Research 
Institute is now deeply involved in providing technical 
assistance to groups developing sectors. It appears likely that 
to meet mortality reductions required by law, the regional 
administrator will need to implement further and possibly deep 
effort reductions.
    Indications are that such cuts will continue under 
Amendment 16 for those that remain under effort controls. While 
there may be limited flexibility to mitigate these cuts in the 
next fishing year, Amendment 16 provides some potential relief 
in 2010 and beyond in the form of sectors.
    Sectors offer fishermen an opportunity to increase 
profitability and access to healthy fish stocks and to improve 
safety at sea. Community-based sectors combined with permit 
banks may provide an opportunity for fishing communities in 
smaller ports, such as Port Clyde, to maintain their fleets 
and, hopefully, grow them as fish stocks rebuild.
    Although sectors may offer opportunities for fishermen, 
they also impose new responsibilities and financial burdens on 
the industry at a time when most are struggling to survive. One 
of the greatest new costs of sectors is monitoring. A good 
monitoring system is critical to ensure that all catch is 
accounted for.
    However, a report commissioned by GMRI found that an 
adequate monitoring system will be expensive, and it will be 
difficult for the industry to bear the full cost of this 
initially. An investment made by the Government now to support 
the implementation of monitoring systems and help defray the 
cost in the initial few years should pay dividends as it will 
both support a more profitable fishery and improve data quality 
for stock assessments.
    Sectors present an opportunity to fishermen, but also a 
potential threat to fishing communities and fishermen in 
smaller ports, such as Port Clyde or communities Down East that 
have lost access to the fishery. I say this for two reasons and 
present some ways to mitigate this threat and to turn it into 
an opportunity.
    First, the per-vessel cost of developing, implementing, and 
operating a sector may be higher for smaller sectors in smaller 
ports because costs will be shared between fewer vessel owners 
and because monitoring costs may be higher for more remote 
ports with fewer landings. If the public desires to preserve 
these fishing communities, it may be necessary to provide them 
with some particular assistance. An example would be to defray 
higher monitoring costs for the small ports.
    I do not wish to suggest that sectors based out of larger 
ports do not also face financial difficulties. There is a need 
for assistance with sector implementation costs throughout this 
industry.
    A second threat to small fishing communities and small 
independent operators may actually result from the economic 
success of sector management. If sectors succeed in increasing 
the profitability of members, the value of permits is likely to 
rise. This may make it an expensive proposition to maintain or 
gain access to the fishery.
    The reason for the expected increase in the value of 
permits under sectors would be a belief by permit buyers that 
the long-term profitability associated with the fishing 
privilege is higher and more secure. Those with access to 
capital could reap the rewards of a more profitable fishery, 
but those without access to capital are left on the outside.
    A potential solution to this problem may be the creation of 
financing mechanisms for individual fishermen to get low-
interest loans to buy permits. It may also be useful to create 
financing mechanisms that would allow community trusts to 
purchase permits to be affiliated with community-based sectors. 
Something along the lines of this has been done in Alaska in 
the halibut fishery and sablefish fishery.
    In conclusion, I would urge this committee to consider the 
pressing needs of the groundfish industry not only to survive 
the next year, but to thrive in the coming years. An investment 
now in improving monitoring systems may be critical to the 
success of sector management and should pay dividends in future 
years. Providing new financing tools to fishermen and fishing 
communities will also be critical to the continuation of small 
owner-operator fishing businesses, and small fishing 
communities.
    Thank you, Senator.
    [The prepared statement of Dr. Holland follows:]

  Prepared Statement of Daniel S. Holland, Ph.D., Resource Economist, 
                    Gulf of Maine Research Institute
    Thank you for the opportunity to testify before this Committee. It 
is an honor to be here. These are difficult times for the groundfish 
industry, and I am grateful that the Subcommittee and particularly the 
Senators present today are focusing their attention on the needs of 
this industry. Please note that my statements today reflect my own 
opinions based on my research and experience and do not represent the 
New England Fishery Management Council Groundfish Plan Development Team 
on which I serve.
    My prepared remarks today are focused primarily on Amendment 16 to 
the Multispecies Fishery Management Plan and, in particular, on the 
development and implementation of groundfish sectors. Sector management 
in New England, and similar types of management elsewhere in the world, 
has been a primary focus of my work for several years, and the Gulf of 
Maine Research Institute is now deeply involved in providing technical 
assistance to groups developing sectors.
    It appears likely that, to meet mortality reductions required by 
law, the Regional Administrator will need to implement further and 
possibly deep effort reductions. Indications are that such cuts will 
continue under Amendment 16 for those that remain under effort 
controls. While there may be limited flexibility to mitigate these cuts 
in the next fishing year, Amendment 16 provides some potential relief 
in 2010 and beyond in the form of sectors. Sectors offer an opportunity 
to increase profitability and access to healthy fish stocks, and to 
improve safety at sea. Community-based sectors combined with permit 
banks may provide an opportunity for fishing communities in smaller 
ports such as Port Clyde to maintain their fleets and hopefully grow 
them as fish stocks rebuild.
    Although sectors may offer opportunities for fishermen they also 
impose new responsibilities and financial burdens on the industry at a 
time when most are struggling to survive. One of the greatest new costs 
for sectors is monitoring. A good monitoring system is critical to 
ensure that all catch is accounted for. However, a report commissioned 
by GMRI found that an adequate monitoring system will be expensive, and 
it will be difficult for the industry to bear the full costs initially. 
An investment made by the government now to support the implementation 
of monitoring systems and help defray costs in the initial few years 
should pay dividends as it will both support a more profitable fishery 
and improve data quality for stock assessments.
    Sectors present an opportunity to fishermen but also a potential 
threat to fishing communities and fishermen in smaller ports such as 
Port Clyde or communities Down East that have lost access to the 
fishery. I say this for two reasons and present some ways to mitigate 
this threat and turn it into an opportunity.
    First, the per vessel costs of developing, implementing and 
operating a sector may be higher for smaller sectors in smaller ports 
because costs will be shared between fewer vessel owners and because 
monitoring costs may be higher for more remote ports with fewer 
landings. If the public desires to preserve these fishing communities, 
it may be necessary to provide them with some particular assistance. An 
example would be to defray higher monitoring costs for small ports. I 
do not wish to suggest that sectors based out of larger ports do not 
also face financial difficulties--there is a need for assistance with 
sector implementation costs throughout the industry.
    A second threat to small fishing communities and small independent 
operators may actually result from the economic success of sector 
management. If sectors succeed in increasing the profitability of 
members, the value of permits is likely to rise. This may make it an 
expensive proposition to maintain or gain access to the fishery. The 
reason for the expected increase in the value of permits under sectors 
would be a belief by permit buyers that the long term profitably 
associated with the fishing privilege is higher and more secure. Those 
with access to capital can reap the rewards of a more profitable 
fishery, but those without access to capital are left on the outside. A 
potential solution to this problem may be the creation of financing 
mechanisms for individual fishermen to get low interest loans to buy 
permits. It may also be useful to create financing mechanisms that 
would allow community trusts to purchase permits to be affiliated with 
community based sectors.
    In conclusion, I would urge this Committee to consider the pressing 
needs of the groundfish industry not only to survive the next year, but 
to thrive in the coming years. An investment now in improving 
monitoring systems may be critical to the success of sector management 
and should pay dividends in future years. Providing new financing tools 
to fishermen and fishing communities will also be critical to the 
continuation of the small owner-operator fishing business and small 
fishing communities.

    Senator Snowe. Thank you very much, Dr. Holland.
    Ms. McGee? Thank you.

    STATEMENT OF SALLY McGEE, NEW ENGLAND FISHERIES POLICY 
 DIRECTOR, OCEANS PROGRAM, ENVIRONMENTAL DEFENSE FUND; MEMBER, 
                      NEW ENGLAND FISHERY 
                       MANAGEMENT COUNCIL

    Ms. McGee. Thank you, Senator Snowe. I am honored to be 
invited to testify today.
    My name is Sally McGee. I am the New England Policy 
Director for Environmental Defense Fund's Oceans Program. I 
have also served for 5 years as a member of the New England 
Fishery Management Council.
    Environmental Defense Fund's motto is ``finding the ways 
that work.'' We are committed to grounding solutions in science 
to protect natural resources and the communities that depend on 
them. Our six-person New England team is 100 percent focused on 
reforming our fishery management system to support a robust, 
sustainable fishing economy.
    There is a proven solution that can address each of the 
concerns that you have raised today. That solution is catch 
shares, or essentially cap and trade systems for fish. As the 
name implies, catch shares dedicate a percentage of the annual 
catch to an individual fisherman, groups of fishermen, or to a 
community. The catch share system of greatest interest in New 
England is sectors, where quotas are allocated to groups of 
fishermen.
    On the heels of a study published by Environmental Defense 
Fund in 2007, just last month, the journal Science published a 
survey that looked at more than 11,000 fisheries worldwide of 
which 121 were managed using catch shares. The results were 
clear. Catch share fisheries were 50 percent less likely to be 
collapsed than traditionally managed fisheries. And the longer 
a catch share system is in place, the less likely it is to 
collapse.
    The researchers in Science concluded that the difference 
between catch share and traditional management systems was so 
clear that their results showed ``the potential for greatly 
altering the future of global fisheries.''
    In New England, advocating for a catch share approach has 
meant lending my strong support for groundfish sector 
allocations. One of the most memorable Council meetings for me 
was in Newport, Rhode Island, last November. Fishermen from 
throughout the region packed the room. They all came to say the 
same thing. ``We want sector allocations, catch shares.''
    In exchange for fishing under fixed quotas, they understood 
that they would gain regulatory relief from wasteful and 
ineffective rules, like trip limits, while improving the 
economic performance of their businesses. We have the means 
right now to get beyond this decades-long struggle to restore 
the region's fisheries.
    The sector approach that we have been working to develop in 
New England will be a win-win all around once we get there. The 
fishermen win. The Government wins. The public and the resource 
win because the fishery will finally be managed sustainably.
    There are currently 19 proposals for new or revised sectors 
in front of the Council, all developed by fishermen. If 
implemented, these sectors will cover a large portion of the 
groundfish fleet. Others in the groundfish fishery, including 
many in Maine, are interested in individual transferable 
quotas, another type of catch share. Either way, catch shares, 
designed correctly, address community and conservation needs 
and hold the key to addressing the concerns you raise today.
    I do not believe that further delaying action to redo what 
was a highly rigorous and thoroughly peer reviewed stock 
assessment will further our shared goals. We need to continue 
our work through Amendment 16 to transition away from the 
failed days-at-sea system. Further delays in corrective action 
will only increase the balloon payment that fishermen will 
ultimately have to pay while taking control even further away 
from a far more democratic Council process.
    I do believe the fishery needs significant Government 
investment, and I hope to work with your office on securing the 
needed aid. Specifically, an effective monitoring system is 
critical to successful catch share programs. An appropriation 
to establish such a monitoring system is vital to help 
fishermen through this transition period and to improve our 
understanding of the status of fish stocks.
    Focusing on solutions like catch shares will let stocks 
rebuild, let fishermen fish knowing their businesses will be 
there for the long term.
    I thank you for your attention and look forward to any 
questions.
    [The prepared statement of Ms. McGee follows:]

    Prepared Statement of Sally McGee, New England Fisheries Policy 
     Director, Oceans Program, Environmental Defense Fund; Member, 
                 New England Fishery Management Council
    Thank you Senator Snowe. I am honored to be invited to testify 
today. My name is Sally McGee. I am the New England Policy Director for 
Environmental Defense Fund's Oceans Program. I have also served for 5 
years as a member of the New England Fishery Management Council.
    Environmental Defense Fund's motto is ``finding the ways that 
work''. We are committed to grounding solutions in sound science to 
protect natural resources and the communities which depend on them. Our 
six-person New England team is 100 percent focused on reforming our 
fisheries management system to support a robust, sustainable fishing 
economy.
    There is a proven solution that can address each of the concerns 
you have raised: Amendment 16, the future of the industry and fishing 
communities and scientific uncertainty. That solution is catch shares, 
or essentially cap-and-trade systems for fish. As the name implies, 
catch shares dedicate a percentage of the annual catch to an individual 
fisherman, groups of fishermen, or a community. The catch share system 
of greatest interest in New England is called ``sectors,'' where quotas 
are allocated to groups of fishermen.
    Just last month the journal Science published a study that looked 
at more than 11,000 fisheries worldwide, of which 121 were managed 
using catch shares. The results were clear. Catch share fisheries were 
50 percent less likely to be collapsed than traditionally-managed 
fisheries. And the longer a catch share system is in place the less 
likely it is to collapse. The researchers concluded that the difference 
between catch share and traditional management systems was so clear 
that their results showed ``the potential for greatly altering the 
future of global fisheries.''
    In 2006, Environmental Defense Fund released a report called 
``Sustaining America's Fish and Fishing Communities,'' which studied 
existing catch-share systems in North America. The results were 
dramatic.
    Not only did overfishing stop, but average revenues per fishing 
boat increased by 80 percent due to higher yields and dockside prices. 
Safety at sea improved significantly and fishing effort dropped by 
twenty percent, leading to greater profits and lower environmental 
impacts. Bycatch was reduced by more than forty percent. And, a key 
point regarding the subject of this hearing, the science was greatly 
enhanced. Catch shares improve monitoring, data quality, and accuracy 
of allowable catch limits.
    In New England, advocating for a catch share approach has meant 
lending my strong support for groundfish sector allocations. One of the 
most memorable council meetings for me was in Newport, Rhode Island 
last November. There were at least fifty fishermen from throughout the 
region packing the room. They all came to say the same thing--we want 
sector allocations--catch shares. In exchange they understood that they 
would gain regulatory relief from wasteful and ineffective rules, like 
trip limits, while improving the economic performance of their 
businesses.
    We have the means--right now--to get beyond this decades-long 
struggle to restore the region's fisheries. The sector approach that we 
have been working to develop in New England will be a win-win-win once 
we get there. Fishermen win--gaining assurance of access and increased 
flexibility to fish when the economic and weather conditions are right. 
The government wins--since the fishery will be in compliance with the 
Magnuson-Stevens Act. The public and the resource win because the 
fishery will finally be managed sustainably.
    There are currently 19 proposals for new or revised groundfish 
sectors in front of the Council, developed by fishermen. If 
implemented, these sectors will cover a significant portion of the 
groundfish fleet. Others in the groundfish fishery are interested in 
individual transferrable quotas, another type of catch share. We 
believe that catch shares, designed correctly, address community and 
conservation needs and hold the key to addressing the three concerns 
you raise today.
    I do not believe that further delaying Amendment 16 or the interim 
rule to redo what was already a highly rigorous and thoroughly peer-
reviewed stock assessment will further our shared goals. We need to 
continue our work through Amendment 16 and to transition away from the 
failed days-at-sea system and implement catch shares.
    I do believe the fishery needs significant government investment, 
and I hope to work with your office on securing the needed aid. 
Specifically, an effective monitoring system is critical to successful 
catch share programs. An appropriation to establish such a monitoring 
system is critical to help fishermen through this transition period.
    The Magnuson Stevens Act mandates that NMFS end overfishing. They 
will do so in their interim regulations for 2009. While the results are 
likely to be severe, further delays in corrective action will only take 
control away from the far more democratic Council process. And, the 
longer corrective action is delayed, the greater the economic cost 
fishermen will have to pay to get groundfish back on track.
    Focusing on solutions like catch shares will let stocks rebuild and 
fishermen fish knowing their businesses will be there for the long 
term. By aligning economic incentives with the conservation goals, our 
fishermen become effective front-line stewards in rebuilding our 
fisheries.
    I thank you for your attention and am glad to answer any questions.

    Senator Snowe. Thank you very much, Ms. McGee.
    Just to ask you a question on that point about 
appropriations for monitoring such a system. What would your 
estimate be? Do you have any idea?
    Ms. McGee. That is something that I have been talking with 
a number of people, including those at this table, to come up 
with a number that makes sense. The transition period that a 
number of people mentioned is critical. The cost is going to be 
significant at the beginning, in the beginning years. And then, 
as the fishery recovers, presumably the fishery will be able to 
take on--industry will be able to take on a larger percentage 
of the cost.
    I am not comfortable giving you a number today but would 
very much welcome the chance to come back with some other 
people at this table with a firm number.
    Senator Snowe. Would peer review assessments--you are 
suggesting that there shouldn't be any additional between now 
and then? That we should just proceed based on what we know?
    Ms. McGee. As far as the stock assessment?
    Senator Snowe. As they appear? Yes, the stock assessment.
    Ms. McGee. Correct. Yes.
    Senator Snowe. OK. Well, obviously, I think the question is 
getting from there to here, or here to there, in terms of 2009 
and then, obviously, to 2010. And obviously, the first major 
challenges are the interim measures that are put in place 
before we can even get to the 2010 scenario.
    Dr. Balsiger, in trying to ascertain exactly what is going 
to happen with this interim measure, can you give us an idea in 
terms of what you are thinking, what the agency is thinking 
about a time frame, substance? I mean beyond the Council's 
recommendation of 18--reducing the days at sea by 18 percent, 
which is onerous enough.
    And if you are saying that it isn't sufficient, then that 
is obviously raising some serious concerns about what that 
means and suggests for the industry that is already struggling. 
And so, I would really like to have you give us some idea today 
of how the agency intends to proceed on this question now.
    Dr. Balsiger. Thank you, Senator Snowe.
    We haven't quite figured out how to do this yet. So I can't 
give you concrete responses on exactly what we will do. But of 
course, we will start with the Council's recommendations. We 
will look at that, and the driving principle is the need to end 
overfishing, as the Magnuson Act requires us to do.
    So, if the recommendations from the Council do not end 
overfishing, we may have to make some different changes to it. 
But I will assure you, we won't do those by ourselves. It won't 
surprise anyone. But we will develop these, and there will be a 
proposed rule. We will work with the Council and others and 
take public comment on this and try to do it as cooperative and 
coordinated as we can.
    Senator Snowe. Well, I gather from what you are saying is 
that you might take some of their recommendations overall, but 
not necessarily the issue of days at sea? I mean, I think that 
was illustrative of the regional administrator in terms of 
rejecting what the Council had done, which is another issue 
unto itself.
    But right now, what can we expect in the industry? I mean, 
if this is not sufficient, what is left for the industry if you 
go deeper in cuts in terms of days at sea, for example? I mean, 
how much more can they bear?
    Dr. Balsiger. Senator, again, we will use the Council's 
recommendations as much as we can. But if they don't meet the 
requirement to end overfishing, some additional changes would 
have to be made.
    We haven't yet worked out what those additional measures 
might be or what they might have to be. We are working very 
hard to make the impact as minimal as we can, of course, but 
driven by the need to end overfishing.
    Senator Snowe. Mr. Cunningham, do you have any points, or 
Mr. Stockwell, on this question? Because, obviously, it is the 
central issue here now what we can expect, how severe those 
cuts will be, what approach is taken. This is for May 2009, and 
I know that the regional administrator indicated, in rejecting 
the Council's assessment when it was a 15-1 decision, that the 
Council's approach was too complex.
    Well, I gather it would be if you are talking about 19 
species, and perhaps that is part of the problem here is that 
there is no individualized recognition of how we should treat 
one versus the other. If the haddock population, for example, 
has been rebuilt, the fishing industry ought to be able to take 
advantage of that without spilling over to the other species or 
having to achieve the lowest number possible because of the 
other fish that have been--that aren't in abundance and need to 
be rebuilt.
    Yes, Mr. Cunningham?
    Mr. Cunningham. Thank you, Senator.
    I think there are a couple of issues here. First, as I 
indicated in my testimony, the Council is not informed as to 
what the interim measures are going to entail. Obviously, we 
made our recommendations to the service what we thought would 
be some measures to be included.
    I think the problem that we are faced with was also 
indicated by Sally McGee, and one is whatever shortfall is 
given during the interim measures, that is going to have to be 
made up unless we see a change in Magnuson or a change in the 
flexibility of how we rebuild these stocks. It is just going to 
be harder for the industry to actually make up those shortfalls 
in the fewer years that they have left in the rebuilding 
period.
    What we are faced with is a situation where, essentially, 
we are forced to manage to the weakest stock. And until we can 
get around that or come up with another management strategy, 
that really sort of handcuffs what we can do.
    Senator Snowe. Ms. McGee, you are on the Council and 
obviously agreed with the recommendations of the Council. I 
gather then you agreed that the assessment was sufficient for 
rebuilding?
    Ms. McGee. I agreed that it is good--I support the Council 
process. And I agreed with the final vote on that measure as 
much because of the contents of it as because I feel like the 
deliberative nature and the very public process that the 
Council goes through is important to establishing rules that 
are actually going to stick and be abided by the industry 
because the industry is involved in developing them.
    Senator Snowe. And so--yes, Mr. Stockwell?
    Mr. Stockwell. Importantly, too, the industry agreed, as 
part of the deliberations we made for proposing interim action, 
to a payback in 2010, when sector management was implemented, 
when we had a workable process. Much of the conversation was 
based upon the interim action being a band-aid until we get to 
sector management.
    The common issue we have all been referring to about the 
reporting and monitoring issues, we have a common pool that we 
are very concerned about incorporating into this also for 
reporting and monitoring. So we are band-aiding our way also 
from Amendment 16 into Amendment 17.
    But there are a couple of issues. In a letter that the 
executive director of the Council wrote to the Fisheries 
Service that addressed the status of the Gulf of Maine winter 
flounder and the status of pollock being revised to overfished 
condition and overfishing not occurring in 2006. And these 
are--it is a very--it is an ongoing dialogue between the 
Council and the Fisheries Service right now, and I feel 
comfortable that we are going to be able to work our way 
through this.
    Senator Snowe. Well, you had mentioned, I gather, that 
there are alternatives to days at sea. I mean, is that 
something that could be possible in an interim measure rather 
than the drastic cuts of days at sea?
    Mr. Stockwell. Well, the Council itself, with concurrence 
from the industry, proposed the 18 percent default reduction 
just because we knew we weren't in a position to be able to 
move ahead in alternative management at this point. We made 
collectively, throughout this room, great efforts to try to 
move ahead implementation of sectors in 2009, but for a number 
of reasons, we weren't able to do it.
    Senator Snowe. Yes, Mr. Cunningham?
    Mr. Cunningham. Thank you.
    Just one comment on the 18 percent reduction in days at 
sea. That was actually part of Amendment 13. That was scheduled 
out as part of that. So it is not something that we, as the 
Council, just pulled a number out of the thin air.
    Senator Snowe. Right, right. No, that is actually a very 
good point.
    How would the industry be able to absorb even this 18 
percent? Would it? I mean, that is the issue here. It is the 
real central question about maintaining the viability of the 
industry in order to overcome these challenges and be on the 
other side and be able to take advantage of their efforts now.
    Mr. James Odlin. As I stated earlier, I think it is going 
to be very difficult because in an interim action, you can't 
put any mitigating measures in the action, and that 18 percent 
reduction is going to take a lot of people out of the State of 
Maine.
    I would further like to comment out that Magnuson-Stevens 
Act Section 304(e)(6) states that during the development of the 
Fisheries Management Plan, a plan amendment, or proposed 
regulations, the Council may request the Secretary to implement 
interim measures necessary to reduce overfishing under Section 
305(c) until such measures can be replaced by such plan, 
amendment, or regulations. Such measures, if otherwise in 
compliance with provisions of the Act, may be implemented even 
if they are not sufficient by themselves to stop overfishing of 
the fisheries.
    So, for me, that says we could do the 18 percent reduction, 
even if it is not enough to completely end overfishing. It will 
reduce it, and then that would let you get to Amendment 16.
    Senator Snowe. Well, Dr. Balsiger, do you read it that way? 
I mean, is that a point here that the ultimate objective at 
this point, this interim measure would not be, according to the 
Magnuson-Stevens Act, to address the overfishing and to achieve 
the final goal?
    Dr. Balsiger. Senator, I don't know that our lawyers have 
looked at that or not. I have made some notes here. I would 
say, though, that I think the agency will still work hard to 
end overfishing, even if there may be this loophole there. But 
I understand the question. We will take a look at that and get 
back to you.
    Senator Snowe. I think that would be helpful and useful 
because I know that Mr. Odlin cites many examples in his 
testimony as well. So I think it would be worthwhile to really 
evaluate them, and is that another avenue? Because there is 
very little time, in the final analysis, in order to absorb 
draconian cuts. Based on what has happened, based on the fact 
that they didn't have the assessment in time, and for all of 
those reasons, and also to support an industry because some of 
those species certainly have been rebuilt.
    And I think that we have got to find a way to mitigate this 
situation so that we just don't impose a very harsh sentence on 
the industry with no flexibility, with no means of minimizing 
the adverse impact in this period of time. There is no way to 
rebound from that.
    And I just wonder what this process is going to be. Because 
the agency, as you are suggesting, is obviously going to come 
up with another rule, is what I gather. And you are going to 
issue it for public comment. But the period--the time in which 
it is going to turn around is going to be very limited and how 
can the industry respond to that and what are the mitigating 
measures that might be necessary to offset that?
    So I just wonder how this is all going to work in such a 
short period of time, not knowing what it is going to be.
    Dr. Balsiger. I appreciate your concern, Senator Snowe. And 
we will try to enhance our communication with you and with the 
industry as much as we can as we go through this process. There 
are no great solutions to this, but I do appreciate your 
comment that this is a way to get to the next management 
regime, and we have to keep that in mind.
    Senator Snowe. Yes, I see that as sort of a bridge. And so, 
the fact that it is an interim measure. The fact is that we 
didn't get the benefit of the report until recently from GARM 
on the stock assessments, there was very little time in which 
to respond, and the requirements--the time frame in which you 
are required to respond. And the agency has rejected the 
Council's recommendation, at least ostensibly by the fact that 
the regional administrator did, which is another issue in the 
sense of what is the role of the Council in that regard?
    I mean, if you have a 15-1 decision that is a broad-based 
decision because it includes many stakeholders, as Ms. McGee 
represents environmental stakeholders, for example. It is 
broad-based. How is it that, unilaterally, that decision can be 
rejected and vetoed? Because then you are not getting the input 
that is necessary to make these decisions and build confidence 
in the decision that is ultimately rendered.
    Dr. Balsiger. Senator, I greatly appreciate that and Ms. 
McGee's comment that a recommendation that goes through the 
public process is vastly superior to anything that the Federal 
Government is going to make up on its own. We are a 
bureaucracy, and we suffer from the slowness therein.
    But--and it is not so much of a rejection or a veto of the 
Council's action, it is a question as to whether legally it 
accomplishes--whether it will accomplish what we believe we are 
legally required to accomplish by the Magnuson Act. If it 
doesn't accomplish that and we get sued, we could lose. So if 
that would happen, the industry would lose.
    So we want to make sure that what we do do implementing the 
interim rule is defensible so that we can have some way to 
bridge over to the new regime.
    Senator Snowe. Yes, and I understand what you are saying 
because it has to be sustainable, the decision. I just wonder, 
though, when you have the sort of wrenching process by which 
you have something established with the Council and to go 
through that whole public process. They have a broadly-based 
representation on the Council. Everybody offers their views, 
gets the input, makes the decision 15-1, which is, you know, 
all of us would like to have those kind of decisions with such 
almost unanimity.
    So that suggests to me that a consensus was reached on that 
question, and then it is to be ultimately rejected because it 
was--in her view, I guess it was insufficient, too complex, or 
whatever. But the point is it puts the industry in a very 
difficult position.
    And it seems to me there is something in between all of 
that. I mean, you go through the process and say, well, one 
person gets to veto it in the final analysis because she is 
obviously the regional administrator for the agency. But on the 
other hand, how does that build confidence for the overall 
process, and what is the point of the process?
    I think that is one of the issues here that I hope that we 
could sort of resolve at some point because I think we have 
to--not to say that everybody is going to agree with every 
decision, but when you get a 15-1, it seems to me that should 
really be the basis of a decision. I know you have the issues 
regarding legal interpretations and being able to sustain that 
in a court of law. And the agency has been sued many times. So 
I understand all that.
    But I think in the meantime there has got to be some kind 
of bridge between the Council and the agency when these 
decisions are being made so that you don't get to the end of 
the process and somebody says, ``Well, sorry. It is not going 
to work that way.'' And I think that is the point here on 
something so important, so critical, and ultimately represents 
some grave consequences for an industry in a state of unknowing 
and uncertainty.
    Dr. Balsiger. Thank you, Senator.
    I think that we could say that around the country, the 
instances where the Fisheries Service has disregarded or 
rejected recommendations from the Council are very, very few. 
And they are all based on those cases where we believe that the 
action taken was not--would not allow us to put a regulation in 
place that allowed us to meet our legal mandates.
    But I take your point, and it is excellent, that once a 
decision goes through that great public process, all of the 
constituent subcommittees, advisory bodies, that that is the 
way we want recommendations to come to the agency, and we don't 
change those.
    Senator Snowe. Yes.
    Dr. Balsiger. We accept them. We don't actually have a 
legal capability to change those unless they don't stand up 
legally and let us meet our legal requirements. We don't get to 
add to the recommendations of the Council. We don't get to take 
away from the recommendations unless they don't achieve what we 
think the law says we have to achieve.
    Senator Snowe. But isn't that something you determine 
beforehand? I don't know, Mr. Cunningham, you know certainly 
far more than I do about the process. I mean, all of you have 
been involved in that process. But what is it that we could do 
better in that regard so that we don't get to this point and we 
are left not knowing, ultimately? When a decision is made, it 
is reflective of broadly-based interest for the groundfishery.
    Mr. Cunningham. I am actually not sure how to answer that 
question.
    Senator Snowe. I assume that you have to meet the same 
objectives as are under the law in terms of being sustainable 
and meeting the rebuilding requirements. So I think you are all 
governed by the same statute, the same requirements. So is 
there a different interpretation, or is there no interpretation 
when it comes to a legal analysis?
    Mr. Cunningham. Well, we--in a number of instances, we make 
recommendations like these kinds to the service, and the 
service has the legal staff to look at it. We don't have our 
own legal staff. We actually rely upon the service.
    Senator Snowe. Does anybody else--yes, Ms. McGee?
    Ms. McGee. I think one of the problems that a number of 
people have pointed out already today is the timing issue and 
the problem with the new stock assessments coming out and the 
Council having to make a decision just very shortly after the 
stock assessments were published.
    Senator Snowe. Which were in August, right? Wasn't that in 
August?
    Ms. McGee. It was completed in August, and the Council 
received that 1,000-page report in September. There is not 
enough time for anybody to be able to make good sense of that. 
But the fact was that Amendment 13--or sorry, Framework 42, 
which was subsequent to Amendment 13, set up that time line. We 
knew that was coming.
    And I argued several years ago that we needed to make sure 
that we are getting the science and giving ample time for the 
Council to develop meaningful measures that don't put National 
Marine Fisheries Service in the awkward position of saying, 
well, what you have done in a very short period of time isn't 
going to cut it.
    So it has been--everybody has been in a bind in the last 
couple of months. The council has--that vote that you have 
cited a number of times I know was not comfortable for a number 
of people, including myself. But it is kind of like what are 
you going to do when you only have a week to read something 
that is 1,000 pages long? And the Council set it up that way, 
and that was a mistake.
    We need to figure out a way to get the science, have 
confidence in the science, build that monitoring system so that 
the confidence is built because fishermen are having more 
direct input into the monitoring system that the stock 
assessments are based upon, and that the outputs from the stock 
assessments are done far enough in advance--not too far in 
advance so you are not using old information, but far enough so 
that people can make sense of it.
    Senator Snowe. Dr. Holland?
    Dr. Holland. Yes, I think one reason or potential reason 
for sort of a difference of opinion is not necessarily purely 
legal. But it has to do with the fact that since you are using 
an effort control management system rather than an output 
control system, there is a lot of uncertainty about whether you 
will actually accomplish your objective in terms of fishing 
mortality.
    So I think Jim Odlin mentioned that in a number of cases 
for a number of stocks, the catches have been actually well 
below what were supposed to be the target TACs. We come to find 
later on or were told later on that there was overfishing 
occurring.
    So, to some extent, you could say, OK, we are going to take 
a cut that the model does not tell us, the model that they are 
using for predicting what the catches are going to be. It 
doesn't appear to get you there all the way. And you might get 
there anyway. If you don't get there, then you have to pay it 
back the following year, which is, I think, what the Council 
was saying that they would pay that back, the overage back. 
So----
    Senator Snowe. Well, do you have any--how much more could 
the industry absorb and still be economically viable?
    Dr. Holland. I am sure that is----
    Senator Snowe. Do you have any models or analysis on that? 
I mean, I think that is the real question.
    Dr. Holland. I don't. I think the economist at the 
Northeast Fishery Science Center, they do have the wherewithal, 
the information on costs and earnings and some models to look 
at how profitability is going to be affected. My guess is that 
there are some fishermen that are going to survive and that are 
profitable at this point, but there are a lot that are right on 
the margin or maybe have been making losses in recent years. 
And those ones will go over the edge.
    Senator Snowe. How many people do we have--oh, 19? Wow, a 
lot of people want to speak. All right. I think we might as 
well begin that process, and we can always--yes, Dr. Holland?
    Dr. Holland. Before we do that, could I just make one 
comment----
    Senator Snowe. Yes.
    Dr. Holland.--related to your earlier question, your first 
question to Sally regarding the additional cost for monitoring.
    Senator Snowe. Right.
    Dr. Holland. We hired some consultants to do a study of 
monitoring costs, and they came up with an estimate in terms of 
actually building the system and implementing, just 
implementing the system, which includes buying electronic 
monitoring equipment and such, of around $7 million for 
implementation.
    And then to actually operate the system, we are looking at 
potentially $800,000 to $1.6 million a year more than what they 
are doing now for dockside monitoring. And then when they 
implement an at-sea monitoring component, that could be 
anywhere from another $5 million to $10 million more annually 
above what the cost that the industry is bearing right now.
    So they may be able to absorb that. The industry may be 
able to absorb that with higher profitability down the road, 
but it will be difficult.
    Senator Snowe. Certainly at the outset, it would be 
difficult to absorb.
    Dr. Holland. Right.
    Senator Snowe. Not to mention the other costs that might be 
associated with it. So that would be on an ongoing basis?
    Dr. Holland. On an ongoing basis. If they have the full at-
sea monitoring program that has been proposed by the Council, 
it is another $5 million to $10 million a year, and that is on 
a fishery that has been running at under $100 million a year 
recently. So we are talking about 6 to 10, 12 percent of the 
value of the fishery, which is a significant amount.
    Senator Snowe. So would that money have to be in place 
before an alternative management system was in place? I mean, 
for example, in the sector management, would that not have to 
be in place before?
    Dr. Holland. Well, the current model is that the industry 
has to build this themselves and pay for it themselves. So 
right now, the onus is on the industry to actually pull it 
together and pay for it as they go. So we were hoping, we had 
come and put some proposals earlier that it would be helpful to 
have some additional, some Federal funding to help implement 
that in the first place and not put all those costs on the 
industry at the beginning.
    Senator Snowe. OK. One other question, Dr. Balsiger, that I 
want to make sure that I get in here because it was something 
that I mentioned in my opening statement about the secretarial 
declaration of disaster. I am concerned about that, as I 
indicated earlier, as is the Governor and Senator Collins and 
many of us who continue to write to the Secretary and express 
our views on this matter.
    Because we have now included $75 million in the continuing 
resolution, our concern is that that money is going to 
evaporate before he ever decides, if he decides, to declare a 
disaster for the groundfishery. And I don't understand why he 
wouldn't, given the circumstances. I know that recently they 
did in the Maryland and Virginia crab fisheries, that we have 
lost a value of 5 to 6 times of that fishery.
    And so, I don't understand what the standard is, and I know 
that NMFS is working, the agency is working on developing a 
standard to put into law. But in the meantime, we want to make 
sure that we are not excluded from the opportunity, although it 
does depend on getting the Secretary of Commerce's declaration 
that the fishery is a disaster or it has failed.
    So what can we expect on that? Because I could see, this 
money being gone, and we are not going to have any opportunity 
because it is based on these regulatory restrictions. And I 
want to make sure there is some consistency and fairness and 
equity in these appropriations and the declaration that 
obviously has to occur first.
    Dr. Balsiger. Thank you, Senator.
    The Governor asked for a similar finding of disaster in 
2006, which the agency and the Secretary did not find a 
disaster. So they didn't support that. But we don't--the 
circumstance is reasonably close to the same in the current 
request for disaster from Governor Baldacci. But we are looking 
at that very closely, particularly, as you point out, in light 
of the other disasters we have declared.
    So we do have that fairly recently, that request to examine 
it. So we are looking at it. There are two things we have to 
find, of course--a commercial fishery failure and the resource 
disaster. And so, those are the bars that we need to get over, 
and we have people working on it as we speak.
    Senator Snowe. Yes, well, just last week--it was about last 
week, he did declare the Chesapeake blue crab fishery, citing a 
41 percent decline in landing values, a drop overall of $6.5 
million. And then what I said in my letter to the Secretary 
again last Friday, we said our industry has experienced 
obviously a 32 percent decline in landings, more than $30 
million shortfall in the same period and $41 million from its 
peak.
    So I mean we have lost more than half of our groundfish 
landings in 10 years. So I don't know what is the threshold for 
declaring a disaster. Frankly, I think that there has got to be 
fairness involved here and not an inconsistent interpretation 
of what constitutes a disaster when it is clear, abundantly 
clear that Maine has suffered even disproportionately to the 
entire fishery in New England, that, without question, it has 
been the hardest hit.
    So I want to be sure that fairness is applied in that 
declaration, and I don't want the money to disappear and then 
the Secretary decides to declare it and we have no money.
    Dr. Balsiger. I understand, Senator. And we are looking at 
it now.
    Senator Snowe. OK. I would appreciate that. We all believe 
the whole New England groundfishery is in jeopardy. Maine is 
just even more so. So I think that is illustrative of the 
problem and the depth of the problem that we are facing here.
    Do you think it would be helpful to have a definition on 
the book what constitutes a disaster?
    Dr. Balsiger. Senator, we are working on a proposed rule 
that would identify the criteria more specifically. I look 
forward to that point in time when we have that. I understand 
there is a debate about how useful that would be, but 
personally, I think that we should have that and it would be 
helpful.
    Senator Snowe. No, I think it would be, both for Maine and 
New England, the entire industry. And we want to make sure that 
a portion of that funding is available for that declaration and 
for the New England groundfish industry. So that is what our 
concern is that, all of a sudden, the sectors will make 
declarations on other industries, and we are going to be 
excluded.
    I just don't understand why he is refusing to do so. I 
really don't. Given the numbers, given the dimensions of it, 
this should be a slam-dunk, frankly, and I just don't 
understand it.
    But we are going to continue to ask for it, and I know the 
Governor is, too, and the governors in New England. But we are 
going to insist on it. It is a matter of fairness in analyzing 
the statistics and the value of the loss certainly to Maine and 
to the entire New England region. OK?
    And I hope that I can hear back, and we have all sent 
letters. We are going to keep sending letters and talking to 
him about it, but I hope that you could reinforce that view 
with the Secretary.
    Thank you. I appreciate it.
    OK. Why don't we begin to have those who want, more 
importantly, to hear from the public here and the industry. So 
I will be going by number. Number one. Did people get numbers? 
Yes. And up in the balcony, you just have to turn, when it is 
any of your turns, just turn on the microphone.
    Thank you.

        STATEMENT OF BILL GERENCER, MEMBER, GROUNDFISH 
   ADVISORY PANEL; MEMBER, ATLANTIC HIGHLY MIGRATORY SPECIES 
     PANEL; COMMERCIAL FISH BUYER, M.F. FOLEY COMPANY, INC.

    Mr. Gerencer. Somebody has got to go first. Thank you, 
Senator. Thanks, everybody.
    Senator Snowe. Thank you.
    Mr. Gerencer. My name is Bill Gerencer. I have made my 
living in the seafood business for 28 years as a lobsterman, 
fisherman, and in seafood buying and sales.
    I spent 10 years on the board of directors of the Portland 
Fish Exchange, including 6 as treasurer and a term as 
president. I have also served on the Groundfish Advisory Panel 
for over 10 years and on the Highly Migratory Species Advisory 
Panel for more than 8, giving thousands of hours of my time at 
AP meetings, attending committee and council meetings, and 
making visits to Woods Hole to become better qualified to serve 
through ad hoc training sessions with Northeast Science Center 
staff. I still serve on both advisory panels.
    First and foremost, I want to say about the employees at 
National Marine Fisheries Service Woods Hole, those that I know 
personally, I believe to be decent, honest, dedicated, and 
hard-working public servants. However, I grow increasingly 
concerned with stock assessments, lack of information, critical 
proper fisheries management, and management itself.
    Back in June, we were looking toward a 77 percent cut in 
effort because of hake, a devastating blow to the industry. 
Now, a few months later, hake is no longer the issue, and 
months of work on the amendment had to be scrapped. Flatfish 
are currently--some flatfish are currently the problem, a 
finding I do not disagree with.
    However, it is not only almost impossible now to run a 
business, given the rapidly changing nature of the scientific 
advice, it is now apparently impossible to craft a management 
plan. We spent over a year developing a plan that had to be 
thrown out because the assessment report came out late and 
nearly at the same time as the completed plan was due. The over 
900-page GARM report has yet to be fully digested.
    On my first visit to Woods Hole as an AP member, then-chief 
of the Population Dynamics Branch Steve Murawski impressed upon 
me that the random stratified design for collection of stock 
assessment data was one of the best in the world, in part based 
on the continuous data collection time line stretching back to 
1931. But he also stressed that while the system was an 
excellent tool for determination of relative stock abundance, 
it was probably not a great management tool.
    Perhaps this has been manifested in the increasing problems 
we currently face, some of which include the following--and I 
will try to gloss over the redundant ones--the pollock 
assessment, where a single data point was used as opposed to 
the 3-year center average. A 3-year center average would have 
resulted in defining the stock as not overfished, and 
overfishing not occurring. We have noticed that the best thing 
we can say about a stock is something negative. It is not 
overfished, and overfishing is not occurring. And even that 
sounds bad, even though it is good.
    [Laughter.]
    Mr. Gerencer. Using the most recent year, the stock is half 
of that. Overfished and overfishing is occurring. And I 
question how is it that the peer review either did not comment 
on the use of a single year or that those comments never made 
it into the report?
    To accept the northern windowpane flounder assessment, you 
must believe the industry discarded over 800 metric tons of 
these legally saleable fish valued at close to $400,000. The 
peer review comments recommended that the Gulf of Maine winter 
flounder stock assessment not be used. It was used anyway. It 
was left to the industry to point this out before any 
explanation was given.
    And gray sole landings are a third of the recommended total 
allowable catch, and the stock dropped by two thirds. Gulf of 
Maine cod was routinely overfished by large amounts, according 
to the data, and is now considered not overfished and close to 
be recovered. How are we supposed to follow management advice? 
It becomes very confusing.
    The primary modeling tool used to manipulate data collected 
by the random stratified design survey in New England is called 
virtual population analysis. VPA models are designed to assess 
single stocks that are fished without restrictions because 
landings are the primary determinant of stock size. In New 
England, we use them to assess an interactive multispecies 
complex stock by stock as if they were single stocks, with 
fishing effort and presumably landings restricted by closed 
areas, mesh sizes, TACs, trip limits, days at sea, et cetera.
    Not surprisingly, the model started to fail about the same 
time effort controls were put into place. This is important 
because these are meant--the model depends on complete access 
to the stock, unfettered fishing ability throughout the time of 
the year, the range of the stock, et cetera, and we are 
inputting data that is full of restrictions. So it is going to 
affect the model.
    I recently downloaded the VPA model used by the National 
Marine Fisheries Service in altered landings up and down and 
reran the assessments myself. And admittedly, my knowledge and 
experience with VPA modeling is preliminary, but the results 
were as expected. Inputting lower landings into the model 
result in a decreased stock estimate, and increased landings 
did the opposite.
    The attempts to fix the VPA models include a retrospective 
pattern analysis, used a factor called ``Mohn's rho'' developed 
by a Canadian, Bob Mohn. Bob sat in the meeting when the use of 
his rho factor, which was an adjustment factor, was discussed. 
It didn't seem to bother anyone that he objected to the way it 
was being used.
    The other part of the solution of the VPA problem was to 
split the time series and essentially throw out all the data 
prior to 1994, when effort controls came into place. I am still 
trying to learn how this model accounts for the intentional 
reduction in landings when it uses landings as a primary 
determinant of stock size.
    The value assigned to natural mortality in the VPA models 
used is assumed to be the same for all stocks. In single stocks 
not interacting with each other, this assumption may hold 
water. But with 19 stocks in the complex interacting with each 
other and interacting with populations of many other species, 
these assumptions may require a second look.
    Intuitively, if fishing mortality is lowered, then fish are 
going to die of something else, we call that natural mortality. 
If we are assuming that every stock has a constant natural 
mortality and it doesn't change, then that is something we 
might want to take another look at.
    In order to compensate for reduced fishing effort and 
constant natural mortality, some other explanation must be 
considered to make the models work. That explanation apparently 
assumes significant additional discards. Based on private 
conversations with employees at the Science Center and in 
Silver Spring, I find this assumption to be widely held. To my 
knowledge, although our recorded and estimated discards are 
significant and point to a severely mismanaged fishery, they 
are also accounted for as part of fishing mortality.
    In order to account for the discrepancies in the model, 
considerable additional unobserved discards have to be assumed. 
When the fishing industry offers that kind of information, it 
is usually referred to as ``anecdotal.''
    Both the monkfish and scallop fisheries perform their own 
surveys and assessments and use these to effectively manage 
their industries. In both cases, stock assessments improved 
compared to NOAA assessments, and both stocks seem to be well 
managed with concurrent NOAA and industry assessment and 
oversight.
    The groundfish industry was able to afford to hire Dr. Doug 
Butterworth to assess the Gulf of Maine cod and hake. He was 
able to change the cod assessment by showing it was 
significantly larger than the original GARM assessment. He made 
some impact on the hake assessment as well. Where would the 
other 19 stocks be if fishermen could have afforded to pay him 
to do the rest?
    The Canadian DFO assessed the eastern Georges Bank cod 
stock using the same data that we used and concluded there was 
twice as many cod as the U.S. assessment found. This, of 
course, has caused problems with the transboundary resource 
sharing agreement.
    In my opinion, there is also several key pieces of 
information that we continue to do without. What is the actual 
size of the fleet in 1988 versus what exists today? That 
information is there but has never been tabulated and compared.
    I did get the impression that what exists today is assumed 
to be equally powerful as what existed in 1998 because of 
advances in technology. Again, that is a big assumption, and I 
would be much happier to see that actually investigated. We 
need more than assumptions here. Without an accurate accounting 
of how much effort really has disappeared, we can never 
accurately understand how much effort has actually been reduced 
and apply the correct adjustments we need to manage this 
fishery.
    What is the total biomass today versus what existed in 
1988? What is the carrying capacity of the ecosystem? Are there 
better assessment models we could be using? And of course, how 
much more can the industry take before we go out of business?
    I think the real problem is that we are using tools not 
suited for the job we are trying to accomplish. Dr. Brian 
Rothschild, professor of marine science at UMass Dartmouth, 
points to the overfishing definitions as sometimes arbitrary 
and overly precise. Not a problem until you remember that once 
we cross them, we have to act or we get sued.
    If we continue to accept the term ``best available 
science'' as a placeholder for staying the course in spite of 
correctable shortcomings, then it doesn't matter what tools are 
placed in our fishery management toolbox. Without refinements 
in our scientific approach, we will be back here 4 years from 
now, crying about the failure of catch shares, LAPPs, and the 
like.
    Listening to some of the scientific advice given to the 
Council, one could easily, but incorrectly, assume that each 
stock lives in a near vacuum and is minimally affected by 
another. Similarly, we manage the same way, with a hammer. It 
is no wonder we failed to catch our haddock TAC and discard 
more cod, haddock, and yellowtails than we actually land from 
eastern Georges Bank.
    The Magnuson-Stevens Act mandates we use the best available 
science. To me, that means using stock assessment models best 
suited for a given fishery and including actual facts about 
fishing power, discards, biomass, and economic viability over 
assumptions.
    The every species at optimum yield approach of Magnuson 
completes the problem puzzle. In a recent article of National 
Fisherman, Neil Stopay writes that while effort and landings 
have decreased, relative total biomass in the Gulf of Maine and 
Georges Bank, as indicated by the trawl surveys, is now close 
to those seen in the 1980s. Yet we continue to cut effort.
    And Mr. Cunningham said the same thing, and when I was 
visiting with Paul Rago. If you just read the report, it looks 
bad until you realize that all these stocks are moving in the 
right direction. And effort has been cut severely, but all we 
can think to do is cut it some more. So it is time to really 
think about that.
    The problem is we have an ecosystem that was once depleted 
and is fast returning to the past total biomass levels, but it 
is out of balance. Dogfish, haddock, redfish are at historic 
levels. No one has ever seen, according to the assessment, as 
many haddock as we have in the ocean right now, and the dogfish 
stock is considered to be 60 percent larger. And yet other 
stocks aren't coming back in the same kind of balance.
    Well, it is entirely possible that some stocks are thriving 
in part at the expense of others. And when viewed in this 
light, the situation becomes more understandable. The problem 
is the fishery, scientific, and regulatory tools we have aren't 
the right ones for the job. It is no surprise to me that 
science is problematic. Fishery management doesn't work, and we 
are always getting sued.
    Thanks for your time.
    Senator Snowe. Yes, we appreciate that. And I appreciate 
your comments. I think they are very well said, and that is one 
of the big challenges is obviously avoiding what Dr. Balsiger 
talks about on the legal issues. But also what we have got to 
recognize is focusing on the best science possible.
    I mean, I agree with you. I think that has been the source 
of our problem, and the final analysis is that we have got to 
decide--we have got to make the investments in the research 
that gives confidence to the fishing industry that we are 
making these decisions based on the best science available. And 
that is one of the issues that I think would be even helpful to 
hear any of the panelists.
    Anybody have any ideas about what we should do to focus our 
efforts? Yes, Mr. Odlin? Jim?
    Mr. James Odlin. Yes, I have one important one, and I think 
that we need to have industry-based surveys side by side with 
these Northeast Science Center surveys. That would do two 
things. It would take away the argument of catchability. It 
would give you the--make sure that the surveys are getting a 
good cross-section of the year classes, put scientists on the 
fishing boats. The survey ship does a tow, and the fishing boat 
is there doing the same tow.
    It also will build confidence and give the industry the 
confidence it needs to go forward. It was done in monkfish, 
done in scallops. It needs to be done in multispecies 
groundfish.
    Thank you.
    Senator Snowe. Yes, we have--yes, Dr. Holland? I think we 
certainly have to have continuity. This has been a longstanding 
issue, and somehow we have got to resolve it. I would agree. 
Thank you.
    Dr. Holland?
    Dr. Holland. Yes, no matter how much we invest in stock 
assessments and surveys, there is still going to be a lot of 
uncertainty in stock assessments. Even the best stock 
assessments anywhere in the world have high degree of 
uncertainty.
    And one way to deal with that or to try to deal with that 
is to use something called management strategy evaluations or 
management procedures, which are you design rules and you test 
them with simulations, computer simulations to come up with 
rules for changing total allowable catch over time that are 
robust to that uncertainty and that directly try and meet 
objectives like keeping the TAC stable over time.
    And that is an area I think that it would be wise to invest 
in. I know that there is interest in doing that at the Science 
Center, but a lack of resources to do that. But I think they 
are moving in that direction.
    Senator Snowe. Is that something that--yes? Yes, go ahead, 
Mr. Libby.
    Mr. Libby. Yes, I think it is important to consider that I 
know there is a lot of talk about science, and there is--I have 
some issues with some of it, like the pollock, for example. We 
couldn't get away from the things all summer.
    But it is important to consider an area component, too, 
because there are vast stretches along the coast of Maine where 
there hasn't been anything for a long time. So it is not just 
totally an assessment problem that is hurting the industry in 
Maine. It is the lack of fish.
    Senator Snowe. Thank you.
    Thank you. Yes? Oh, yes. Then I have to move on because 
there are so many others.
    Mr. Gerencer. I think it is interesting that there is 
considerable uncertainty in any assessment, but we have little 
uncertainty of what we have to do once an assessment is 
actually delivered.
    Thank you.
    Senator Snowe. Thank you. And I appreciate that. I think 
that is something that we certainly have to look at and do 
something about.

  STATEMENT OF EDWARD BRADLEY, PRESIDENT AND MANAGER, VESSEL 
                         SERVICES, INC.

    Mr. Bradley. Good afternoon, Senator.
    Senator Snowe. Good afternoon.
    Mr. Bradley. My name is Ed Bradley. Senator, I can't think 
of any elected official who has done more for the groundfish 
sector, the industry in Maine in the last 30 years. So thank 
you for this, and thank you for your continued attention.
    Senator Snowe. You mean I was here 30 years ago?
    [Laughter.]
    Mr. Bradley. Started. I have only been here 30 years.
    Senator Snowe. Thank you.
    Mr. Bradley. I am here representing Vessel Services. I am 
the president. I am, unfortunately, currently the manager. 
Since May, I have gotten a close look at the microeconomics of 
the groundfish fishery in a way that I had never fully 
appreciated before.
    And if we are talking about what is really going on on the 
waterfront--and I will limit it to Portland because that is 
truly all I know about--I checked our numbers before I came 
here so I would have something quantitative to say. And in the 
last 3 years, we have had a 40 percent reduction in the gallons 
of fuel and the tons of ice we have sold to fishing vessels in 
the State of Maine.
    There is no question from the perspective of this canary 
that there is danger in the mine, that the collapse is 
imminent, and whether we can survive the next spate of 
regulations I don't think is an issue for us. If it continues 
to go the 10 or 15 percent reduction that we are experiencing 
without the next set of reductions, were they to occur and were 
they to affect Maine vessels the way they have been affecting 
them in the past, then a critical point or component of the 
infrastructure in Portland will disappear.
    Two or 3 years ago, I was a member of the fisheries task 
force that the Governor set up, and we dealt with all the 
issues affecting the groundfish fishery. To me, it is a little 
bit amazing that we are here asking what can we do when the 
groundfish industry has answered that with 30 recommendations 
if you don't take care of lobster, but one if you do.
    And I know nobody wants to talk about it, but vessels have 
left Portland, have left Maine in a disproportionate rate 
because--in large part because of that issue. If you can't deal 
with it politically, nobody can, and I understand you can't, 
then you have to deal with the other recommendations that would 
support the groundfish industry.
    They didn't cost $109 million for monitoring. They cost $3 
million, and they ran the gamut from things like subsidize the 
fuel tax, take care of permit acquisition in the State of Maine 
so that we don't lose the right to the resources it recovers to 
Massachusetts and other states that are doing it.
    None of these things have been done by the State or by the 
Federal Government. So we are essentially an industry on our 
own, you know, subject to the regulatory process that you have 
all talked about in great depth. But economically, there is 
very little attention being paid to what is actually happening 
other than to say it is a disaster and to what specific 
economic steps could be taken to hold the fort so the industry 
is here still when the thing turns.
    So my first recommendation would be get all these people 
who--at the Federal level, the State level, and in the industry 
together, take a look at those groundfish task force 
recommendations, ask which ones make sense? Which ones could we 
implement in this crisis situation to make sure that the 
industry stays?
    Senator Snowe. Good point.
    Mr. Bradley. Unfortunately, in my old life, I was a lawyer. 
So my ears were just ringing when I heard all the conversation 
about the law. And if you are looking not at the small issues, 
the management issues that are in front here, this gentleman, 
Mr. Balsiger, is absolutely right. I mean, he has no choice but 
to do what the courts have told him that that law says he has 
to do.
    So if he can't make in good faith or his legal staff can't 
in good faith make the determination that Magnuson permits more 
than the 18 percent--or less than his determination the 18 
percent the Council has developed, then he is stuck. So, again, 
with an idea of hopefulness, what could be done?
    Well, and my question is if we can get $700 billion in 
about a week to bail out Wall Street, can't we get a Senate 
resolution that authorizes in an interim period the National 
Marine Fisheries Service to adopt, as you say, this publicly 
developed and confident recommendation for an 18 percent or 
less reduction to get us to the point where all of these great 
ideas that these people are coming up with can be implemented?
    I know I am taking a lot of time. I want to say one more 
thing. This year, Vessel Services was presented with a lot of 
concerns raised by a number of people in this room in the Maine 
industry, and they have suggested that once you get beyond the 
basic determination as to what is MSY, what is the mortality, 
how many days at sea, the basic conservation recommendations, 
there is a huge range of discretion that gets exercised with 
respect to the individual rules.
    And that cumulatively over a period of 10 years, those 
rules have been adopted in a way that disadvantages Maine 
fishermen, Maine groundfishermen. And as a result, our 
attrition has been greater than the attrition of other 
groundfish vessels in other states.
    I thought that was an interesting idea. I didn't know 
whether it was true or not.
    Senator Snowe. Well, what are the reasons why it is 
disproportionate here in Maine?
    Mr. Bradley. The suggestion from the industry was that as 
you adopt rules and regulations to implement the conservation 
requirements that are set by Magnuson, those that are--you 
can't change because the law says you can't. But you have a lot 
of discretion as to what rules you use to implement them. And 
that over a long period of time, rules have been adopted to 
disadvantage the Maine fleet.
    We looked at three different specifics, and I don't want to 
get into it because it is technical and legal. But the 
determination of independent counsel, public counsel--not us--
was that, yes, you can look at the record of the Council and 
see over a period of time that the rules that have been adopted 
have disadvantaged the Maine fleet and put them in a situation 
where they can't compete with Massachusetts and New Hampshire.
    And there are a lot of reasons for that. I don't say that 
they are evil. But it is a fact. And so, all I would suggest is 
we go forward and we talk about the things that are going to 
change this process, which are really allocation issues. Once 
you start talking about area management, when you start talking 
about sectors, when you start talking about almost any rule 
within the confines, you are talking about who gets the pie.
    And given the fact that Maine has been disadvantaged, as 
demonstrated by the current situation, that everybody pay close 
attention to the fact that we have been. You are starting with 
Maine underwater, and as you adopt rules, make sure we don't go 
further underwater. When you adopt the rules, you have 
discretion to adopt within the range of discretion you are 
given.
    So thank you for the hearing.
    Senator Snowe. That was very helpful. I thank you. On all 
those issues, very helpful.
    And I think it just illustrates the problem you are talking 
about--40 percent less in fuel, 40 percent less in ice. I mean, 
it is just the breadth of the problem that we are experiencing 
right here, which is certainly, I think, stark. And we 
recognize it, and we have got to do something to turn it 
around.
    I think the real question is, is how do you get this 
process that seems to be consolidated in a very short period of 
time, very little time to review the assessments, the stock 
assessments that were given back in August of, what, you are 
saying like a week for 1,000 pages. Much of which, I think, is 
an indication that it is an unrealistic timetable, time-frame 
to make these very difficult, intractable decisions because 
they are irreversible. I mean, certainly the implications and 
the consequences are irreversible once they are imposed.
    And if Dr. Balsiger, as he said, is constrained by the 
legalities in upholding the law, and obviously, it is up to one 
lawyer's interpretation versus another. But in the final 
analysis, you end up in court. I mean, so much of what we have 
done has been determined by the courts in the final analysis. 
It has been one of our greatest sources of frustration, and we 
have just got to figure it out.
    I am just thinking about 2010. Well, we are here doing the 
interim, how are we going to get to this 2010 with an 
alternative management process and all that that requires is 
what I am thinking. I am sure you are all thinking it because 
you are there. But how are we going to put that together?
    It is a very difficult process, to say the least. And I 
just don't know that there has been any room for flexibility. 
There may be flexibility somewhere in that law, but it doesn't 
seem like the way in which it has been implemented that it is. 
But the rules, that is an interesting point.
    Mr. Bradley. Thank you for listening.
    Senator Snowe. Thank you.
    OK. Next? Number three. I am sorry. It is number three. We 
will move faster. That is right.

STATEMENT OF CYRUS HAMLIN, AUTHOR, PRELIMINARY DESIGN OF BOATS 
                           AND SHIPS

    Mr. Hamlin. My name is Cyrus Hamlin. I am a naval 
architect. I came to Maine in 1939 to work for Henry Hinckley. 
I have been here ever since.
    Although my specialty is naval architecture, about a half 
of my time has been spent in fisheries matters, both in this 
country and in various countries around the world.
    Are you getting the signal OK?
    And for a time, I was involved with--I had a corporation 
called Ocean Research Corporation, which did several things. 
Among them, it was the--did the layout for the fish pier here, 
which we worked with Parsons Brinkerhoff, and I think at the 
time that fish pier was built, it was the best in the country. 
I don't think there was anything like it. And it saddens me to 
see it ignored by such low throughputs of fish.
    I am here because about 3 years ago, I began to question 
the fact that so little progress was being made by the 
Magnuson-Stevens Act and the bureaucracy that it spawned. And 
it seemed to me that with generations of the fish being around 
3 or 4 years that in 30 years, there should have been 
considerably more progress than there has been.
    So I have spent 3 years examining the Magnuson-Stevens bill 
and the present bureaucracy, which is trying to carry out its 
dictates, its mandate. Oddly enough, the first problem I ran 
into was that there is no name for this huge project, which is 
extending--I don't know how many people know, but there is a 
4.5 million square miles contained in our EEZ along with the 
shore. We have to manage that. That is part of the management 
process.
    So the name is a small one, but a small item here. If 
people have the handout, I left a few of them around. It has 
nine items in it, which I will briefly go through, if that is 
OK?
    Senator Snowe. Yes, just not too long because I have got so 
many people. So if you can go through it quickly, yes, please.
    Mr. Hamlin. It will be quite short.
    Senator Snowe. OK, thank you.
    Mr. Hamlin. The first item is that it has no name. It 
should have a name. It should have something like ``New Deal'' 
or ``Manhattan Project.''
    There is no clear-cut statement of goals and purposes. 
There is one in the published book, but it doesn't go far 
enough. It doesn't specifically cover all the areas in which 
this important work should be aimed.
    There are no baselines or specific goals established. There 
are no numbers, no quantification. There are no--they say this 
stock is improving or this stock is not improving, or it is not 
as big as it was in 1996 or it is bigger than it was in 1996. 
Those are really not very useful ways to describe progress or 
lack of it.
    Leadership is required. There is, so far as I know, not one 
person who is in charge of this or one person that we would 
recognize. How many in this room would know who the leader was 
of this whole big venture? Maybe there isn't one leader. Maybe 
it is just an amalgam of all these small efforts. It seems to 
be very inefficient.
    Governors are important. The governors, we must not forget 
that all the people in the State own the resources. These are 
common resources. The governor is, therefore, the one who 
should be intimately involved in all negotiations, all work 
such as this being done here.
    Maintaining the fishing industry is a big one that has been 
touched on here. We are going to have--we have had and we will 
have more downtime of the fishing industry. What do you do with 
these? Do you just sell everything off? Do you get rid of it? 
Do you get rid of the industry?
    It has been pointed out this is one of the oldest 
manufacturing industries in the country. It is the oldest, as a 
matter of fact. So there has to be something done to keep 
fishing vessels and their infrastructure viable, to keep them 
going, so that when the fish come back to the levels of, let us 
say, 1900 that there will be a structure there, both the 
infrastructure on shore and the vessels and gear required to 
catch them.
    The council's makeup should be improved. It should include 
some private citizens who are not otherwise associated with the 
fishing industry. I think the Council has done a very fine job, 
but I think it is focused in such a way that it does not 
include the actual owners of the resource.
    In Maine, when there are a million pounds of sea urchins, 
one pound of that belongs to me. And one pound belongs to the 
potato farmer and so forth. That should not be forgotten. 
Because they are the ones who issue the licenses to the 
fishermen.
    A major flaw is to increase the use of graphics in all the 
work that this nameless body does. They turn out loads of 
texts, reports. Reading one of those, reading anything from the 
Federal Register, it is very difficult to make any sense of it 
without some kind of graphics.
    In this handout of mine--I think there are a few out 
there--there is a graph here. Nobody else got one of these? 
There is a graph here, which shows the progress of fishing 
after World War II, and this is important to know how this all 
came about. This starts down here. This, by the way, this line 
across here is the maximum sustainable yield curve. It is not--
who knows whether it is accurate or not, but it would be 
somewhere in there.
    So the Canadian and the United States fishermen went 
gangbusters after the war and caught fish very busily. And they 
got up and pretty soon they started having the foreign vessels 
come in and help them catch the fish so that we have this one 
curve here, which shows the catch by the Canadian and United 
States vessels, and then the foreign vessels added onto that. I 
don't know if those quantities are anywhere near right, but it 
is close enough. It shows what happened.
    And right there, where that crosses the maximum sustainable 
yield curve, is a vital point because from that point on, all 
the fish caught are coming out of the brood stock. And what 
happens when they come out of the brood stock? The egg supply 
is smaller. They do not reconstitute the resource so that your 
maximum--the number of fish drops, declines. So that it is very 
important for the fishermen to be stopped when they get to that 
point and level out their fishing effort so that they stay 
below that maximum sustainable yield.
    This is obviously an idealized version. This goes up and 
down like that. Excuse me. But the principle is the same. You 
can't exceed the maximum sustainable yield and maintain a 
sustainable industry.
    Senator Snowe. Excuse me. I am going to have to move on 
because I have got so many other people that want to talk. One 
more point? OK.
    Mr. Hamlin. I have one more.
    Senator Snowe. Yes, and we are glad to have a copy of that 
as well.
    Mr. Hamlin. Yes. I would like to--one more point is, where 
am I? One more point is I think that the--I would like to 
relate a brief story to you, which you are all familiar with.
    During World War II, Franklin Roosevelt was told about the 
atom bomb. And he was told that if he didn't get it quickly, 
Germany would have it first, and we would lose the war. So 
being a man of action, he set it up, and he set it up within 
the Beltway in the Washington style.
    And after a short while, he realized that at that rate of 
progress, they were going to lose. So that he cut that off and 
set up the Manhattan Project, which was a semi-military 
operation under General Groves. It was probably the biggest and 
most complicated and most sophisticated industrial effort this 
country ever undertook. And in 3 years, General Groves was able 
to drop 2 bombs on Japan.
    Our fisheries are in this State now. We should be treating 
fisheries as something that is more urgent than having the 
typical Beltway of doing it.
    Thank you very much.
    Senator Snowe. Well, thank you. And I appreciate your 
comments, and I hope to have a copy of your paper. OK, thank 
you.
    Mr. Hamlin. Yes, I have some copies here. Incidentally, 
this is my full report of what I have been doing, and there are 
a few copies here I have. And I will be--if somebody, anybody 
leaves their name, I will be----
    Senator Snowe. Well, thank you very much.

  STATEMENT OF CRAIG PENDELTON, FORMER COORDINATING DIRECTOR, 
  NORTHWEST ATLANTIC MARINE ALLIANCE (NAMA); OWNER, F/V OCEAN 
                             SPRAY

    Mr. Pendleton. Good afternoon, Senator Snowe.
    I am Craig Pendleton, and I am from Saco. I came here to 
talk to you today because of my friendship and my deep respect 
for you. I came here today to testify as a casualty. I 
currently am under contract to sell my permit, and I have four 
individuals looking to buy my boat.
    I will be the last Pendleton fishing out of Saco. And while 
that may not be economically important, from a heritage point 
of view, it is a big deal.
    My business has been regulated down to a small window of 
opportunity. During that window of opportunity, we faced 
mediocre prices. Forty cents for pollock is near criminal. My 
48 days were actually 24 days because my backyard is in the 
middle of the 2-for-1 area.
    Add that to the high cost of doing business, where fuel 
prices rose to $4.68 a gallon at our fuel facility, and low 
inventories in the repair shops actually caused us to lose more 
valuable time every time we have a breakdown. At the end of the 
day, there was no money. My family and I got tired of living 
one breakdown away from a disaster.
    And similar to some of the symptoms the current economic 
crisis in front of us has, I had no confidence to invest in 
more equipment for other fisheries or my own fishery. I am not 
allowed to operate at a deficit like some of the big banks.
    One of the things I wanted to talk to you about today, as I 
worked closely with your staff and Congressman Allen's staff 
during the reauthorization, one of the things we talked about a 
lot was accountability. That seems to have turned into 
accountability measures for fishermen. I just wanted to remind 
you that a lot of the discussions were around accountability to 
the agency and to the managers.
    This is not a one-sided equation. It is not only my fault 
that there aren't any fish. In a recent letter that I sent and 
is probably the last letter I sent, I actually asked for 
resignations of some of the managers. No longer should it just 
be us.
    Ultimately, I did not agree with the way management was 
headed, and my efforts over 20 years had far more losses than 
victories. And so, I have chosen to leave. I couldn't wait for 
a buyback. I couldn't wait for a disaster declaration. And 
hopefully, some day this profession will be turned back to 
being the honorable profession that it used to be.
    Thank you.
    Senator Snowe. I deeply regret that you are a casualty of 
all this, and I want to say because I know you have been so 
hard-working, as I have known you over the years and about your 
family's generations. It is truly a tragedy that you are at 
this point and having to make that decision, given the 
circumstances of the groundfishery today.
    Yes?

           STATEMENT OF JENNIFER LITTERAL, DIRECTOR, 
               MARINE PROGRAMS, ISLAND INSTITUTE

    Ms. Litteral. Thank you, Senator Snowe. Jennifer Litteral 
from the Island Institute.
    I think you really put your finger on the pulse of this 
today that it is very overwhelming. Which piece do you tackle? 
Do you tackle the interim action or the plans for 2010 or the 
transition packages? And it is really all of it.
    I really commend you for recognizing what happened at the 
recent council meeting. That decision, seeing it firsthand, was 
very surprising to know that not only the Council was in 
support of it, but behind the scenes as well, the industry and 
other interest groups that were there.
    And a credit to the Council, in addition to that, for being 
able to balance that tightrope between rebuilding the goals of 
the stocks in addition to working with the fishing communities.
    The thing I wanted to highlight was that not to get stuck 
in this band-aid year, and I do not mean to slight that term 
for the 2009 fishing year, but we really hope that this 2009 
fishing year doesn't turn into a band-aid year for 2010 because 
that will be even more devastating.
    We are moving toward output management. Sectors is just one 
of those that the Council is and just recently, last week, has 
moved forward. I know that looking at the uniqueness of Maine, 
sectors may not be the only output management that is going to 
suit everybody in Maine. It is the first one coming up the 
dock, and it is ready to be implemented in 2010. But it is a 
big transition, and we are going to need help with the 
transition, transition packages, transition assistance.
    And I just wanted to leave it with bringing it back to 
Maine and our ports. And I think it is really a critical thing 
that the gentleman from Vessel Services highlighted the loss of 
people in Maine not only due to lobsters, but I think that 
looking at other states and why is it it is so enticing, 
outside of the lobster realm, for fishermen to move to a 
different state or to fish in a different state and land there?
    What is it that we can bring them back with and keep them 
here and keep them viable? The fuel tax is a perfect example. 
We had that up until July of this year. How do we find money to 
bring things like that back? And again, additionally, 
supporting, having permits available to keep fishing in Maine.
    And I just thank you for all of your support.
    Senator Snowe. I appreciate that. And thank you very much. 
Great suggestions.
    Who's next? That's six?

                 STATEMENT OF TERRY ALEXANDER, 
                 FISHERMAN AND OWNER, F/V JOCKA

    Mr. Alexander. Hi, I am Terry Alexander from Cundys Harbor. 
I am a fisherman.
    I have a question for Dr. Balsiger. Is that OK to ask him a 
question directly?
    Senator Snowe. Yes.
    Mr. Alexander. When you are talking about the interim 
measures and you are talking about implementing new ones, are 
you talking about basing those measures on the old numbers or 
the newly defined overfished fish?
    Dr. Balsiger. I am not certain where we are in that 
process. I think that we have to adopt a new status of stocks 
document. So I think that we have framed it. We are looking at 
the new overfishing definitions that we are going to have to 
live with.
    Mr. Alexander. But according to the law, the Council 
actually has a year to develop a plan on the new stock. So you 
would have to basically base it on the old--old defined 
overfishing stocks? Am I correct in that or----
    Dr. Balsiger. There may be a nuance here that I am missing, 
but I would be more than happy to get back to you on very short 
notice to say what we are doing in that. I don't want to 
misspeak just now.
    Mr. Alexander. OK. All right, thank you.
    Senator Snowe. We will get the name and address so that you 
can respond to him. Yes, thank you.
    Go ahead, number seven.

            STATEMENT OF JOHN WILLIAMSON, MANAGER, 
        FISH CONSERVATION, NEW ENGLAND OCEAN CONSERVANCY

    Mr. Williamson. I think I am next. This is John Williamson 
with the Ocean Conservancy, and I am speaking also as a former 
fisherman, 9 years as a council member, now working for an 
environmental organization.
    I attended portions of the GARM III meeting over a couple 
of different sessions. It was very impressive, a total of 20 
meeting days over a 10-month period, dozens of top section 
scientists from around the world, working on various aspects of 
the plan. I talked to people in the Ocean Conservancy's Fish 
Conservation Team from around the country. We have never seen 
anything like it anywhere in this country.
    It was very impressive. It was unprecedented, and there is 
every reason we should have faith that it is the best science 
that can be available for managing groundfish at this point.
    The science is not our problem here. It is how we use the 
science. I think Dan Holland made a very good point in that the 
task of fishery management, the challenge for fishery 
management is managing risk. It is managing the inevitable 
uncertainty, the inherent uncertainty in the data.
    And so, it falls to management to make the science work, to 
use the science and make it work for the fishing communities. 
And unfortunately, we have seen groundfish play out as a 
tragedy over 20 years. It is just that--and that responsibility 
falls to management. We have some of the best science in the 
country here in the Northeast for managing. But managers are 
human, and we have made mistakes over the years.
    For all the communities, fishing communities, groundfish 
communities in the region have suffered from groundfish 
management as the way it has played out over the 20-year 
period. Geographic, economic, ecological reasons--the burden 
seems to have fallen disproportionately heavily on the Maine 
groundfish communities.
    I think if we were looking at this in retrospect and we 
would say that 20 years ago, at least in the early 1990s when 
the overfishing problem first was identified, if the Council 
had taken decisive action then, we wouldn't be talking about 
the loss of Maine groundfish communities now. The burden would 
have been much more equally shared because the history of 
groundfish fishing in times of abundance would have been the 
history that you would have been managing around.
    Instead, depletion has settled heavily on these Maine 
communities. And you know, Glen Libby has identified that 
problem in his testimony this afternoon. And that depletion is 
what has gradually over the years compounded and used up his 
resources, used up people's borrowing power and has compounded 
the problem of dealing with the loss of fishing opportunity to 
the point where people have simply dropped out of the business.
    The longer we delay groundfish rebuilding, the more likely 
that management is going to continue to select against Maine 
fishing communities. Ocean Conservancy supports staying the 
course on rebuilding for this reason. We do recognize that 
there are some improvements in biomass that we are seeing in 
the numbers, and that is not--but that is not a reason to back 
off of a strong rebuilding program.
    We support NMFS's strong interim action this coming fishing 
year. I was at the Fishery Management Council meeting last 
month when the Council requested interim action and put forward 
an industry-developed plan built around an 18 percent cut in 
days at sea. I wanted to support that plan because it was an 
industry plan, but there were some obvious faults with it.
    The one is that it was a long way from tackling 
overfishing, and at this point, in the law, that is illegal. We 
have to address overfishing. We have to eliminate it.
    And two, even if there was a technical loophole to be 
followed to get through that for 2009, the--falling that far 
short in taking action in 2009 would compound the challenge for 
managers in 2010. Compound it to the point where to address the 
overfishing problem in 2010 would probably mean that any action 
the Council took would be a virtual shutdown of the fishery 
certainly in southern New England and very possibly in the Gulf 
of Maine.
    That has to be avoided. The way to avoid that is to take 
strong interim action in 2009, and that responsibility is now 
on the service.
    I will say that one of the mistakes I think that has been 
made in the past is that in attempting to do a rebuilding 
program, it was not also a requirement--there was a requirement 
for rebuilding stocks. It is a biological requirement. The 
managers did not have the same mandate required to--for a 
rebuilding program for the industry as well.
    So when Amendment 13 was done, it was an attempt to rebuild 
stocks, but there was not a commensurate plan for rebuilding 
communities, for distributing the rebuilding of--the biological 
benefits of rebuilding and designating to whom those benefits 
would flow. What I see happening now is the development of 
sectors, programs for catch shares, and other possible programs 
are an after-the-fact attempt to deal with this economic 
distribution of these benefits.
    And for that reason, I think there is a need to make an 
investment. The costs that have been identified for monitoring 
and for administration are going to be substantial, the startup 
costs to make the transition, and I think that that is 
something that the Senator could be very constructive in 
helping to address. Ocean Conservancy pledges to work with your 
office and other organizations to make that happen as well.
    Thank you.
    Senator Snowe. How do you maintain a viable industry, 
though, if the measures are so drastic? I mean, for example, 
you are saying very strong interim measures----
    Mr. Williamson. How do you maintain a viable industry if 
people's resources have been completely exhausted? The longer 
we prolong rebuilding this resource, the less likelihood that 
the people that are in it now will make it through to the end.
    Senator Snowe. Do we have to paint a broad brush with all 
of the stock? For those that had been rebuilt?
    Mr. Williamson. I think there are some real deficits in the 
groundfish plan's use of days at sea that have created this--
that have exacerbated this management for the weakest stock. I 
think it is very difficult for people to take advantage of the 
stocks that are now strongly rebuilding, the few that are 
strongly rebuilding, such as haddock. But in the end, Georges 
Bank cod is at 12 percent of its target biomass, and we are in 
danger of losing that stock.
    So making that balancing act happen effectively under days 
at sea has proven to be an insurmountable challenge for 
managers using the days at sea system. Now it is very possible 
that there may be other systems other than days at sea that 
could facilitate access to haddock. But unfortunately, that is 
not on the books right now.
    Senator Snowe. OK. Thank you.
    Any questions, anybody? No?
    Number eight? All right. Number nine.

         STATEMENT OF SEAN MAHONEY, VICE PRESIDENT AND 
         DIRECTOR, MAINE ADVOCACY CENTER, CONSERVATION 
                         LAW FOUNDATION

    Mr. Mahoney. Good afternoon, Senator Snowe. My name is Sean 
Mahoney. I am from Falmouth, Maine, and I am Vice President of 
the Conservation Law Foundation, which is often the proverbial 
skunk in the woodpile when it comes to the legal compliance 
conversations we have been having earlier today.
    But I am here today to talk about our focus on sustainable 
management of the resource. I think one thing that is important 
to recognize is we are here today because the resource was 
fished too hard historically. We are not here because of a 
regulatory problem. The basic fact is that we fished the 
resource too hard, and we need to rebuild the resource.
    There is no dispute that the current days-at-sea system is 
broken. It is the worst-case scenario for fishermen because 
it--in terms of the economics and in terms of the safety, and 
it is worst case for the resource, particularly the failure to 
address the critical issues of bycatch and discards.
    As Glen Libby and Craig Pendleton talked about earlier, 
challenging the science of the GARM won't change that reality. 
Even if the current days-at-sea system doesn't change at all 
and we are left with 48 days or 24 days, depending on where you 
fish, the groundfish industry, particularly here in Maine, will 
still be in crisis mode. So we need to do something.
    I am not really sure what to do about the interim measures. 
It is a problem. The Magnuson-Stevens Act was recently 
reauthorized. Everybody in this room was part of that process, 
and the law is what the law is unless Congress chooses to 
change it.
    But I think our focus should be on 2010 because we can't 
put off changing the regulatory system for Amendment 17, which 
is anticipated but undefined. We have to look at the new 
management proposals that are being tested by the Midcoast 
Fishermen's Association, or put out there by Ms. McGee's 
organization, or the research that Dr. Holland has been doing, 
supports.
    But we cannot put off a new direct management structure as 
opposed to the indirect method that hasn't worked. If we do put 
it off, then I predict if we have an Amendment 17 that deals 
with this, we are going to be in this room again in 3 or 4 
years dealing with the same issues, but likely with fewer 
groundfishermen who still have a stake in the industry and with 
little to show for it in terms of resource protection.
    So we would strongly urge that the focus be on how we 
revise the management structure, and the Council is making a 
good start on that, and we would urge the Congressional 
delegation to support that.
    Senator Snowe. I think the real issue is not having sort of 
an either/or. No one is saying abandon the process. We 
understand we have to live by the laws, and the Magnuson-
Stevens Act does depend on interpretations of how you implement 
it, frankly. Whether or not there is flexibility in how you go 
about it so that you don't ultimately affect an industry that 
has no ability to survive.
    I mean, we want to preserve an industry so that they are 
there on the other side of this regulatory process at some 
point, but you are going to maintain their viability in some 
way because, otherwise, then it makes it virtually impossible 
for its survival. And I think that is the question.
    Year to year, they are working right now, month to month, 
day to day, on the margins. I mean, you heard what Craig 
Pendleton spoke to earlier. That is a very weighty, mighty 
decision to have made when you have been doing it for 
generations in a family. So these are people on the margin. So 
what is it that we can do? So we think of outside of the box 
within the wall. It is just--I think that is the issue here.
    And to get over the hump of the interim measure to get to 
2010 for Amendment 16, I think that is the issue. Do you have 
to treat every stock similarly under the law? I don't know. We 
know that Dr. Balsiger is going to work on that process and so 
on. But if you say have it the most stringent process possible, 
irrespective of what it does, the law doesn't say that. The law 
says you have got to take into account the socioeconomic 
effects, too.
    Mr. Mahoney. I agree.
    Senator Snowe. Which has gotten the short end of the stick 
these days. And for many years now this has been one of my 
major arguments, OK? So we talk about the past and the 
overfishing and so on, the point is we can't discard the 
industry. I mean, that is it.
    We have got to do something to preserve the industry. In 
the meantime, what can we do? What is that bridge that makes it 
possible? And I don't think we have lived up to our obligation 
to offset those issues in terms of what the adverse 
consequences have been and will be.
    Mr. Mahoney. One of the things that we would urge is that, 
and I think Dr. Holland noted it, that any sort of assessment 
of a resource this large has inherent weaknesses to it. And the 
focus on challenging the science underlying the GARM takes some 
of the focus away from the issues that you are concerned with 
and we are concerned with, which is bridging that 2009 and 
getting to a management structure that works for everyone.
    Senator Snowe. Yes. Yes, well, it is interesting about that 
because on the science question, from my experience in working 
with the industry and with the men and women in the fishing 
community, you have got to have confidence in what is being 
imposed on you and what it is exacting from your industry, 
which has been a way of life and a livelihood. So you have to 
have confidence in that science.
    So I see it as a building block and a foundation in order 
to accept what the hardship will be or what the regulation is 
going to be that represents and imposes some serious 
restrictions on their way of life and their livelihood. That is 
the point.
    So you have got to build the confidence, and that is 
something that we have not been as successful as we should be. 
I have been one who has advocated that we really should devote 
far more resources to the research and to make sure that we 
preserve that. I mean, that is really a jewel in this process, 
if the fishermen can have any confidence at all in what the 
outcome will be.
    We have got to build it. That is our responsibility, 
frankly. So when the questions are raised about the 
assessments, I think it is because they do see it. So you have 
to treat it as a reality and figure out, OK, what can we do 
better so that it doesn't undermine their confidence?
    I understand what you are saying. I think we are all there. 
It is just in a different way and, at the same time, preserving 
this industry so that they are there. One year is a lifetime 
for this industry right now because they are operating on the 
margin.
    So Craig Pendleton wouldn't be making the decision he did, 
when you are not operating on the margins and given all the 
other extraneous costs he has that are huge when it comes to 
fuel, for example. And it is just that alone or bait or 
whatever the case may be, and that is what I have heard.
    So, thank you.
    Mr. Mahoney. Thank you.
    Senator Snowe. Thank you.
    OK, who is next? What number are we on? Are we on nine? OK. 
We will move on because I know everybody has a time frame.

        STATEMENT OF SAM VIOLA III, COMMERCIAL FISHERMAN

    Mr. Sam Viola. Thank you for coming and for letting me 
speak.
    Senator Snowe. Yes, thank you.
    Mr. Sam Viola. Sam Viola, commercial fisherman out of 
Portland, 30 years. It is just I have a few things that I want 
to say that some Jimmy mentioned before.
    We need some kind of time schedule, not just a 2-year plan 
or a 60-day plan or 30-day plan. Every time we turn around, it 
is something new we have to do. We have to jump through another 
hoop. We never know what the next hoop is going to be.
    When you came out with the regulations for the whale 
protection, to protect the whales, the large tankers in the 
shipping industry, it was a 5-year plan. We don't have any of 
that. We don't--don't we get any kind of consideration for that 
ourselves?
    And the other was what Ed Bradley touched on. Everything 
seems to be stacked against the State of Maine in the National 
Marine Fisheries Service. 42 20' and below, fishing down there, 
we lost our steaming time. We lost our dock to go down off the 
cape and steam from Portland down to Cape Cod and go fishing.
    Now we have to actually return into a port to change your 
clock, even though we are monitored. They can tell exactly what 
we are doing every minute of the day, whether we are steaming, 
whether we are fishing, or what is going on with the monitors 
we have on the boats.
    Senator Snowe. But you had to return to port?
    Mr. Sam Viola. Pardon me?
    Senator Snowe. You have to return to port?
    Mr. Sam Viola. We have to return to port. If we want to go 
to another area, we not only have to return to port, we have to 
request for an observer to go into these areas where the big 
haddock concentrations are 3 days in advance.
    So if my brother is fishing down on Georges, calls me up, 
the way we traditionally fish, and says, ``Hey, I am getting 
10,000 pounds of haddock every tow.'' I can't just steam down 
there and catch those haddock. I have to return to port, call 
for an observer, wait 3 days, and then I can go if I get an 
observer.
    I mean, this is National Marine Fisheries Service. They are 
not helping us to even get by with what we are doing today. And 
it just seems to be them against the fishermen, and one of the 
enforcement agents told me that you are guilty. We can see that 
you are guilty with the black box. If you are steaming across 
an area or anything, they don't like the way it looks, you have 
to prove yourself innocent before they will accept it.
    It is just they seem to be very antagonistic toward 
fishermen. I don't know why that is.
    Senator Snowe. Yes, Dr. Balsiger, is there a way of 
correcting some of these issues or making it more efficient and 
less arduous and bureaucratic?
    Mr. Sam Viola. I don't know what you are looking for when 
you need an observer on these trips, every trip, and you have 
10,000 of them in the Gulf of Maine.
    Dr. Balsiger. Well, we aren't against fishermen. Without 
fishermen, we actually don't have a job. So we are in favor of 
having the fishermen there and having them, an ability to 
prosecute their livelihood economically.
    We have check-in and checkout requirements and observer 
requirements that are at all the different councils that are 
developed with good reasons. And of course, some of those good 
reasons cause problems for fishermen, and we should look at 
those if they do. I am not saying we can fix this, but we will 
look at it.
    I am sure the 3-day requirement for an observer is based on 
a good reason. There may be some way we can work around it. I 
don't know, but we will look at that.
    Senator Snowe. I appreciate that. We will look into that.
    Thank you.

  STATEMENT OF MAGGIE RAYMOND, EXECUTIVE DIRECTOR, ASSOCIATED 
                       FISHERIES OF MAINE

    Ms. Raymond. Good afternoon, Senator Snowe. Thank you for 
holding this hearing.
    I am Maggie Raymond. I am the Executive Director of 
Associated Fisheries of Maine. I was not going to speak today 
because as Mr. Odlin told you, he is speaking for Associated 
Fisheries of Maine today. But I heard an overwhelming theme in 
some of the testimony from some of the people on the panel as 
well as some of the people in the audience, which is that days 
at sea is a failure, despite the fact that all our stocks are 
growing and fishing mortality is the lowest it has been in 30 
years, and that somehow if we can just get through 2009, we 
will get the magic bullet of sectors.
    And I am not convinced that sectors are the magic bullet, 
and the reason is because I don't think sectors are going to 
solve some of the problems like the one that Mr. Odlin 
explained with witch flounder, where 3 years ago, the 
assessment said it was rebuilt. The industry caught a third of 
the TAC, and yet now it is considered overfished, and 
overfishing is occurring.
    Also, today, we have--since 2004, we do have three stocks 
that are controlled by hard TACs--Georges Bank cod, haddock, 
and yellowtail. In 2005, the industry caught the Georges Bank 
yellowtail TAC for the first time under a hard TAC, and next 
year it was determined to be overfished, and overfishing was 
occurring. It did not exceed the hard TAC. They achieved it for 
the first time in many years.
    We have not reached the haddock. We reached just a very 
small fraction of the haddock hard TAC, and it is because the 
cod TAC shuts the fishery down before we can achieve the 
haddock TAC.
    So sectors are going to have those same problems. Every 
species will then be under a hard TAC, and it is not going to 
be any easier to catch the haddock TAC because you are still 
going to be controlled by the hard TAC of Georges Bank cod.
    On top of that, sectors impose an enormous cost on the 
industry, which is why Associated Fisheries of Maine 2 years 
ago submitted a comprehensive ITQ proposal for the Council, 
which the Council had to abandon because of the referendum 
requirement, which they decided would be too stringent to try 
to impose. But Dr. Holland talked about the cost of sectors, 
$10 million to $15 million a year just for the monitoring on a 
fishery that grosses less than $100 million.
    That is something that the industry cannot absorb at this 
time. ITQs, I believe, would be a lot less expensive because 
there is a cap on how much can be charged for those.
    So I just want to make it clear that 2010, we may still be 
in a lot of the problems that we are in today because I am not 
convinced that the industry is going to be able to afford 
sector management. On top of the monitoring requirements, you 
have to pay for a sector manager. You have to develop an 
environmental assessment. All of those are very costly that the 
industry cannot afford right now.
    We also put forward--the Associated Fisheries of Maine put 
forward an industry-funded buyout proposal, which we have asked 
you and other Congresspeople to support. I understand that 
there are some people who don't want to pay back the fee, but 
what is the alternative? To go out of business slowly, 
painfully, or to perhaps be able to pay a fixed fee that you 
know what it is going to be and it depends on how much fish you 
catch and to be able to stay in business? We think that that is 
a proposal that needs to go forward.
    In other parts of the country where the industry has funded 
buyouts, they have prospered in a very short amount of time. 
Their TACs have increased. Their days at sea have increased. 
Their catch has increased. And they have been able to pay back 
that funding.
    So if you are not going to put forward the industry-funded 
proposal, then Congress needs to come up with the money 
themselves because there is no other choice. People are going 
out of business. The industry is consolidating. People with 
money are buying up everything, and people who don't have that 
money are not able to compete.
    So those are the points that I wanted to stress today. And 
again, thank you very much for your time. We appreciate it.
    Senator Snowe. Thank you. Thank you, Maggie, very helpful. 
Thank you.

 STATEMENT OF MATTHEW THOMPSON, FISHERMAN AND LOBSTERMAN, F/V 
                            STRIKER

    Mr. Thompson. My name is Matthew Thompson, and I am a 
groundfisherman and a lobsterman, and I hail from Monhegan 
Island. And I have got three things that I think are pretty 
important.
    One is I think the buyback is something that ought to 
happen, but I think that if this country can round up $700 
billion to bail out a few banks, it can come up with some money 
to bail out some groundfishermen.
    I think we have got a resource, the dogfish in the ocean, 
that is an elephant in the room. Nobody wants to talk about it. 
I don't know how fish can live in between the dogfish. And we 
are not allowed to catch any of them.
    And that brings us to the third thing with the National 
Marine Fisheries Service. I think the whole science behind the 
National Marine Fisheries Service and the accountability is a 
complete failure. I think if we can't make a boat payment, 
somebody doesn't come down and give us a peer review and set us 
up at another fishery. We lose the boat.
    And I don't--who gets spoken to in the National Marine 
Fisheries Service? I mean, this guy, he can't answer one 
question in five that you ask him. It really bothers me.
    And it is the same thing with this VMS problem. I live on 
Monhegan Island. I have got a VMS that says I live--I am 
outside the VMS line. They think I am fishing when my boat is 
home on the mooring and I am lying in bed. I have called the 
National Marine Fisheries Service I don't know how many times 
to move the VMS line, move it 3 or 4 miles down below the 
island where it ought to be. Nobody calls me back. Nobody----
    Senator Snowe. Who have you called?
    Mr. Thompson. National Marine Fisheries Service.
    Senator Snowe. In where? Boston?
    Mr. Thompson. Gloucester, Massachusetts.
    Senator Snowe. In Gloucester. OK.
    Mr. Thompson. So I would like to see some accountability is 
what I would like to see.
    Senator Snowe. Well, I can understand your frustration. If 
you are not getting any returned calls. So, Dr. Balsiger, I 
think----
    Mr. Thompson. Well, if someone would call you back and say, 
``Well, we are working or we are trying to----''
    Senator Snowe. No, well, no, you deserve to have a response 
and action. Dr. Balsiger, could you--is that something you 
could follow up with and for----
    Dr. Balsiger. Yes. I am sorry I don't have the answer right 
now. We have the ability to generate the answers. I don't have 
them. If you have a question about halibut in Alaska, I bet I 
can get it, though.
    Mr. Thompson. Well, thanks a lot. I appreciate you------
    Senator Snowe: No, I think we need to--we are going to get 
information from you, sir? Yes. We will get his address? OK. 
Yes, we have got your address. We will follow up with you.
    Dr. Balsiger. And if you have contacts with our people in 
Gloucester, we will cross link that and find out.
    Mr. Thompson. All right.
    Senator Snowe. Absolutely. Absolutely. You should have--you 
should not go through that. I am sorry.
    Mr. Thompson. All right. Thank you very much.
    Senator Snowe. Yes. No, I am sorry that you are, frankly.

            STATEMENT OF ANGELO CIOCCA, PRESIDENT, 
                       NOVA SEAFOODS LTD.

    Mr. Ciocca. Good afternoon, Senator Snowe. And thank you 
for finding the time to come to Portland today and hold this 
hearing. My name is Angelo Ciocca, president of Nova Seafoods 
here in Portland and a local boat owner.
    This afternoon, you have heard much about the proposed 
interim measures and how these measures could seriously damage 
our industry or will seriously damage our industry, I should 
say. I am concerned about how the incomplete results of the 
GARM III will be used against the industry, and I do believe 
the GARM III results were incomplete.
    Also how one man, Dr. Butterworth, and his small staff 
halfway around the world, on a very tight budget and a short 
period of time was able to redirect the Northeast Science 
Center's viewpoint on two critical species here in the 
northeast. This, after our scientists at the Science Center 
have spent countless hours and months preparing a model which 
has proven to be flawed by Mr. Butterworth--by Dr. Butterworth, 
like I said, in a very short period of time on a very tight 
financial budget. I personally, as a citizen of the United 
States, find that appalling.
    Instead, I am asking you to consider the fact that the way 
the survey data is collected is seriously flawed. I believe we 
need to hire the highliners of our fleet, place scientists and 
observers on the commercial fishing boats, and allow this group 
to do our surveys.
    Mr. Odlin recommended a side by side, which I guess is OK. 
But I really believe that our boats should be doing the surveys 
with the scientists and the observers onboard to get a real 
feel for what is out there, a true feel for what is out there.
    If this approach is taken and implemented properly, there 
should be no doubt about the survey results, which these days 
we have all kinds of doubt about the survey results and have 
for years and years and years. This would simplify that 
problem, that issue, and would save us countless millions of 
dollars a year at the same time.
    Now the hard part, though. If we agree to let the 
commercial fishermen do the surveys, what do we do with the 
good survey data? Because that will be good survey data.
    The models need to be thoroughly tested by an international 
group of fishery scientists who have modeling experience in a 
fishery similar to ours. In-depth discussions must be conducted 
with respect to the variables which impact the fisheries, such 
as changes in natural mortality for different species that 
can't happen on a yearly basis and probably do happen on a 
yearly basis, water temperatures, et cetera, et cetera.
    So what I am saying there is that it should not just be the 
Science Center. And I know we have had peer reviews and 
scientists from different countries come and help with the GARM 
III. But as Mr. Odlin said, I believe there was one scientist, 
the lead scientist was the only scientist that sat--as far as 
peer reviewers, that sat in on all the meetings, which I find 
disturbing, and why that would happen is beyond me.
    And we need--as far as the scientists are concerned that 
are going to be hired for this work, we need the best of the 
best to do this work. It has been too long. We have been 
getting bad science for too, too long. It is time to hire the 
best of the best out there, the most dedicated scientists we 
can possibly hire.
    They must work in concert with the industry every step of 
the way. The man who spends his life on the water has a 
different kind of knowledge than the scientist. The fisherman 
must be fully engaged in the process from beginning to end. 
This is crunch time. There is no tomorrow for the Maine 
industry, the Maine fishery.
    As you are, I am sure, aware, Senator Snowe, the chaos we 
are experiencing right now with the meltdown on Wall Street is 
primarily caused because of a faulty modeling system designed 
by Wall Street Ph.D.s. They are just realizing that when it 
comes to modeling--this is the Wall Street Ph.D.s are just 
realizing that when it comes to modeling, a relatively small, 
but early mistake entered into the model can or will produce a 
large error on the outcome.
    However, it is too late for businesses and tens of millions 
of people worldwide who have been irreparably harmed through 
these bad decisions. We who work in all aspects of the fishing 
industry believe we have been living the same type of mistake 
in our fishery. Senator, it is time to correct this process 
before the fishery implodes like Wall Street did.
    Of course, the Science Center, National Marine Fisheries 
Service, and certain other groups will claim that their models 
mostly work fine, except, of course, for the two that Dr. 
Butterworth had the time and funding to examine. He found flaws 
in both of them, and the Science Center agreed with his 
conclusions.
    We have had some discussion about Magnuson-Stevens Act. The 
Magnuson-Stevens Act as written today cannot work and does not 
work. It needs to be changed for the industry to survive. That 
also, the models as designed and used are not working. I mean, 
scientists can say that these things are the best available 
science. They are not working. Our numbers are lower by their 
estimation, which I am not sure I agree with.
    I believe we are placing too much pressure and faith on the 
Science Center and the complex models it has created. From my 
perch, the outcome in both cases is the same. That is our 
fishery and Wall Street, a disaster, as you mentioned earlier 
this afternoon.
    Wall Street has turned to the Treasury, the Fed, and the 
White House. Senator, we are turning to you.
    Senator Snowe. I thank you very much.
    Mr. Ciocca. And if I could also, just during the afternoon 
here, there are a couple other comments that I would like to 
make?
    Senator Snowe. Yes.
    Mr. Ciocca. One thing, sitting here this afternoon one 
thing strikes me is that through the years we have found 
multiple errors coming out of the National Marine Fisheries 
Service. And as John Williamson said earlier, we are human, 
right? People make errors.
    Well, that we should always keep in mind, OK? Because when 
we get numbers thrown at us, as far as biomass numbers or these 
targets, they throw them, and then all of a sudden, that is 
gospel. We forget we make errors, as Mr. Williamson originally 
stated.
    So I mean, how could we just input this information into 
these models that are questionable, get numbers thrown out, and 
then say, ``hey, that is the number. We know what we are doing. 
That is gospel.'' I mean, it is a faulty--to me, it is a flawed 
system.
    Mr. Odlin has mentioned on the pollock that it was peer 
reviewed and then actually fishery staff found the error after 
a peer review. I mean, it doesn't sound like good business to 
me. But yet we still come back to the table, and that is what 
we have to live by.
    And when we have to live by it, the ``we'' is the industry. 
Nobody else, science they might--a scientist might put his name 
on it, but his paycheck comes. The industry is the one who has 
to live with those final results and gets penalized. There is 
only one group that gets penalized when there is bad work done 
out of National Marine Fisheries Service. That is the 
industry--the fishing industry, the shoreside industry.
    One gentleman stated that we are in this--I think I can't 
remember the young gentleman that spoke just recently, stated 
that we are in this because we fished the resource too hard. 
Well, the haddock stock that we have today, which is at 
historical levels, came out of a severely depleted haddock 
biomass. So I would really like everybody to really think that 
if we--as human beings, I think we know how the ocean works.
    Because in that haddock resource, we had, if I am not 
mistaken--Maggie or Jimmy could help me--there was a time not 
too many years ago when there was a zero haddock, there was a 
zero possession limit on haddock because there were no haddock 
left in the ocean 10, 12 years ago. Now there is a biomass that 
is at historical levels. Came out of nowheres.
    And the cod will do the same some day, but it won't do it 
on our terms. It will do it on the ocean's terms. When the cod 
does that, very good chance that the haddock is at a much lower 
level. The gentleman from Monhegan Island said it very, very 
well before. His three comments were right on the money.
    Maggie mentioned the yearly observer cost, and I believe 
the yearly observer cost, depending on how you--if it is 100 
percent observers or anything like that, but I think the rates 
are from $7 million to $10 million or $12 million a year?
    Senator Snowe. Yes.
    Mr. Ciocca. Yes, a year. OK. And Maggie stated on a $100 
million fishery. Senator, I believe this groundfishery today is 
about a $60 million fishery. So $7 million to $10 million, $12 
million to observe a $60 million fishery? It is impossible.
    And this one is for Dr. Balsiger. Jimmy Odlin mentioned 
some numbers earlier about in Magnuson-Stevens Act that was a--
I shouldn't say an out, but it allowed National Marine 
Fisheries Service a little flexibility in reading the act, OK, 
by not going to the extreme of considering the stock 
overfished, but giving a little bit of time, a little 
flexibility in there to allow the regional administrator to do 
something less than calling the stock overfished, which, in 
turn, would give a little more leniency to the industry.
    And Dr. Balsiger, and I realize he is interim, but he 
doesn't think his attorney has looked at it. Well, I would say 
that the attorneys probably should look at that and report that 
to Pat Kurkul.
    Because if that is going to save this industry this much 
pain and suffering for 12 months, and it is allowed by law, and 
I would have to say that the Congress put it in there for 
exactly this kind of situation when an industry was possibly in 
a little flux and needed a little extra time, that is what that 
is there for. That is what the Congresspeople who wrote the law 
gave you guys the flexibility to do.
    But it sounds to me like the National Marine Fisheries 
Service doesn't want to use that flexibility. Instead, they 
would rather go to the extreme. And for what reason, I don't 
have a clue. But you should look into that.
    Senator Snowe. We will.
    Mr. Ciocca. And I think that is it for me.
    Senator Snowe. Well, thank you very much.
    Mr. Ciocca. I appreciate your time.
    Senator Snowe. No, I thank you. And I think your points 
underscore the fact how critical it is to have confidence in 
the science and engaging, you know, the men and women, the 
fishing industry as part of that process and having cooperative 
research. I mean, I think that is absolutely right and 
something that I have been a strong proponent of, and we have 
got to really try to make this a coherent, comprehensive, 
sustainable approach.
    So that those of you in the industry that have to live by 
these rules and regulations can have confidence in the outcome 
and what is required. And right now, that isn't the case, and 
it is unfortunate. And frankly, I just think it is very 
difficult. I am sure this effort in GARM, they know a lot of 
issues that have been raised about it, and the fact that they 
are not addressing them, I think, again erodes confidence in 
the process and in the outcome.
    And we have just got to do a better job in figuring it out 
and taking more time to evaluate it, frankly. I mean, just my 
point which you were mentioned, Ms. McGee, just to evaluate 
1,000-page report in a week and the complexities involved in 
this issue. For those of you who really understand it certainly 
appreciate that there are so many complexities and dimensions 
to this question that it really takes much more than that.
    And unfortunately, time didn't allow it for all the reasons 
we know, and that puts you in an untenable situation. These are 
the issues to avert when I think about, yes, in the 2010. I 
mean, you get in this 2009, 2010, but you have to live by these 
assessments or that process as well and depending on what 
alternatives develop. So I appreciate it.
    Mr. Ciocca. Yes, I agree. It is very, very unfair that a 
12-month period is going to cause so much pain when it does 
seem that within Magnuson-Stevens there is that little 
flexibility built in there that I would think is to be used for 
a time like this that will give us that 12 months and let us 
live, hopefully live compared to time.
    Senator Snowe. Exactly. Survive it.
    Mr. Ciocca. Another thing, too, is the--I mean, I am not a 
scientist, obviously. But I think if you get a scientist and 
sit down and have a cup of coffee with him or something, the 
numbers that they are--that they finally set for biomass 
targets or the actual biomass, I mean, they are estimates. I 
mean, we have to realize that they are estimates.
    Senator Snowe. Right.
    Mr. Ciocca. They are not--no one is counting every fish in 
the ocean.
    Senator Snowe. Exactly.
    Mr. Ciocca. And the also very important thing that I think 
to remember is that the haddock that we are harvesting right 
now was spawned from a very, very low biomass number, which 
tells me that the ocean is going to do what it wants to do when 
the time is right for it, and man is not the overriding 
influence, especially since natural mortality in many species 
is killing more fish than man is killing today, which I don't 
know if you are aware of that?
    Senator Snowe. OK. Thank you. Thank you.

          STATEMENT OF AARON DORITY, PROJECT DIRECTOR,

      DOWNEAST INITIATIVE, PENOBSCOT EAST RESOURCE CENTER

    Mr. Dority. Good afternoon, Senator Snowe, and thank you 
for the opportunity to speak here today.
    My name is Aaron Dority, and I work for the Penobscot East 
Resource Center in Stonington, Maine.
    I want to mention two main points today. One is our concern 
with the proposed buyback, and two is the current scale of 
management.
    First, a buyback is not the best way to reduce effort in 
New England's groundfish fishery. We have acknowledged today 
that we have lost numerous fishermen and much of our 
infrastructure. You can see that here on the Portland 
waterfront, and you can see it very clearly in eastern Maine, 
where I am from.
    You mention that there was only one fisherman left east of 
Penobscot Bay. Even he is no longer fishing this year because 
it is no longer viable for him to fish. Our concern is that a 
buyback will erode fishing livelihoods even further. However, I 
acknowledge that we need to bring effort in line with the 
current groundfish stocks.
    As one example of how to do this, I strongly encourage you 
to look to Port Clyde because they have clearly shown that they 
can make more money with less fish. They haven't asked 
fishermen to stop fishing. They have simply fished more 
sustainably.
    Second, and even more importantly, I encourage you to 
explore area management in this fishery. The basic premise of 
this approach is to bring the scale of management in line with 
the scale of our groundfish stocks. Since there is strong 
evidence that groundfish stocks exist at a finer scale than is 
currently recognized, the area management proposes managing at 
a finer scale.
    The benefits of this would be: (1) greater attention paid 
to full stock recovery at the local level; (2) attention paid 
to the need to preserve the critical coastal shelf, including 
protection for spawning and juvenile fish; and (3) a greater 
opportunity for fishermen to be engaged in the management 
process so that they may become stewards of the resource and we 
can look to Maine's lobster zone council as one example of the 
stewardship.
    Since there are still many questions regarding fine-scale 
stock structure of groundfish, the Penobscot East Resource 
Center is currently planning a fine-scale groundfish stock 
workshop in collaboration with the Gulf of Maine Research 
Council, Research Institute, and Maine's DMR. This will be held 
on April 2 and 3 at a location still to be determined. I will 
share the details of this workshop with your staff, and I 
encourage you or your staff to attend.
    In sum, I want to say that area management is an 
alternative to sustained groundfishing and rebuild depleted 
stocks in New England, but our fishery managers need to give 
this approach a chance. It can work in an output control 
system, and it can work with sectors.
    The best way to explore area management may be through a 
pilot program. And I know that Port Clyde fishermen would 
gladly try a pilot program. They have already demonstrated that 
they can do this. The remaining permit holders in eastern 
Maine, all 27 of them, though none currently fish under the 
restrictive days-at-sea system, they would also be willing to 
pilot area management.
    We have willing fishermen. Now we need willing fisheries 
managers.
    Thank you.
    Senator Snowe. Thank you very much. Appreciate it. We will 
have staff at that session. Thank you.
    OK, who is next? We are on, what, 13, 14? What? Fourteen? 
No. Fifteen? Who is next? Because I know Dr. Balsiger has to 
leave for the airport in 5, 10 minutes.

STATEMENT OF WILLARD H. VIOLA, COMMERCIAL FISHERMAN; PRESIDENT, 
                       BLACK BEAUTY, INC.

    Mr. Willard Viola. Hi, I am a commercial fisherman, Willard 
Viola. I have been about 35 years.
    It seems like it is just getting harder and harder to 
operate all the time. And when you look around this room here, 
there are more conservationists, conservationist groups, 
lawyers, and other people than there are fishermen here. And I 
thought the days-at-sea system was working. When it came out in 
the first place, I invested some money into buying days at sea. 
And then all of a sudden, a small group of people down off of 
Cape Cod started sectors.
    And I think they are in bed with the conservationist 
groups, too, getting money from them, able to buy permits and 
stuff. And all of a sudden, what they are getting looks better 
than what I have because I am working under days at sea. And a 
lot of people, like if she said Rhode Island, she has been to a 
meeting in Rhode Island, and they said the days at sea isn't 
working. Well, if I had 48 days, like most of Rhode Island guys 
have, I would say the system isn't working, too.
    And so, these people form their sector with the help of one 
of the conservationist groups, getting money from them. So 
their sector all of a sudden looks a lot better than my days at 
sea because they can go out fish in areas that are closed to 
normal fishing. Like in May, there is an area closed, and all 
of a sudden, they can go in there and fish. So I am saying, 
``Hey, I am under days at sea. I want to be under a sector 
because they have got special rules and regulations that I 
don't have.''
    And all of a sudden, we are going to all go to sectors. The 
only reason there were 17 or 19 sectors was they said we are 
going to go to sectors, and if you are not in a sector, you are 
going to be left in the common pool, which isn't going to have 
anything. They kind of scare you into the sector thing.
    I was doing fine in the days at sea because we bought 
permits to be able to fish, which I thought was the way to go 
at that time. And then it doesn't get a chance to work out, we 
are going to go to sectors because this group here has formed 
this sector down there that is working so much better for them, 
but it is for them because they are being supported by these 
other groups that buy permits and everything.
    And they get special rights that I don't think we are going 
to get. When they finally do form the sectors, I don't think 
that I am going to be able to fish in the 2-for-1 area with 1-
day or have no rolling closures, stuff like that, and be able 
to land all the cod history you have or all the whatever 
history you have.
    And I just go to these meetings and I see more and more 
less fishermen and everything. It is just discouraging, the 
whole thing.
    Senator Snowe. How long have you been fishing?
    Mr. Willard Viola. About 35 years.
    Senator Snowe. Thirty-five years.
    Mr. Willard Viola. Yes, I used to work at O'Hara's for 15 
years. Then I worked for Roger Woodman for 10 years. And 
finally, I went during the first buyback, I said, well, Roger 
was selling out to the Government, and I said, ``Well, if I 
don't buy my own boat now, I may end up working for somebody I 
don't want to work for or something.'' So that is when I bought 
my boat in 1996. And been pretty successful up until now with 
it, and it just gets every move you make, it seems like they 
are putting up a roadblock against you.
    Like they took away--used to be if I was going to fish 
Georges, I could steam down off Nauset, Cape Chatham, clock in 
down there. Like my brother was saying, you can't do that 
anymore. Asked why they were doing it, you asked, call up the 
VMS people in Gloucester, the law enforcement office, and they 
said, ``Well, don't ask us. It is the law. They made the law, 
and we are just enforcing it,'' and stuff like that.
    And recently, I just installed an ice machine on the boat 
to try to stay in business, have a better product. I was trying 
to sell--that is supposed to be how we can get the business 
back into Maine today--and was trying to sell at the Portland 
fish auction, but I just wasn't getting the bids on the fish.
    There are not enough buyers there now because so many boats 
have left. I think some of the buyers have left. There are more 
buyers in Gloucester, and so you just have to go there.
    Because we would get down to a price for like large haddock 
would go for $1.15, and one of the buyers would jump in there 
and bid $1.15 on it when I would be better off when they just 
didn't bid. Because when they do, I have to scratch, and it 
costs 8 cents to scratch that fish. I have to pay their fee. 
And so, I am thinking why did you bid that bid when you know I 
am going to scratch it?
    And just things like that would help out.
    Senator Snowe. Well, thank you for sharing your experiences 
and sorry for what you are going through. Hopefully, we can 
avoid some of this, and thank you for taking the time for being 
here and testifying. It is really important for all of us to 
hear it, frankly, because it is very helpful to us in this 
process. So we thank you.
    And on the sector management, how is consistency 
established in that? Is it up to--in developing sector 
management, when he was talking--when he was mentioning some of 
the options and how it was decided which areas and so on, who 
makes that decision? How is that constructed on a sector 
management area?
    Mr. Stockwell. Sectors are self-selecting, and----
    Senator Snowe. You say self-selecting by the industry?
    Mr. Stockwell. By the industry members, and there are----
    Senator Snowe. I see.
    Mr. Stockwell.--no areas attached to them at this point.
    Senator Snowe. And so, they establish their own rules?
    Mr. Stockwell. One of their charges is to develop an 
operations plan, which is then reviewed by the agency.
    Senator Snowe. I see. I see. Thank you.
    OK, where are we, 16? Seventeen? Sixteen, yes, thank you.
    And Dr. Balsiger, you feel free--I know you have to leave 
for a plane. So feel free.
    Dr. Balsiger. You must be keeping closer track than me.
    Senator Snowe. Well, I just want to make sure you don't 
miss your plane because I know you adjusted your schedule to be 
here today, and I truly appreciate it. And I just want to thank 
you, and we will follow up. And I appreciate your staying to 
listen to the comments that are so critical in this key 
process.
    Dr. Balsiger. Senator, this opportunity was good for me, 
personally and for the agency. So I appreciate the invitation.
    Senator Snowe. No, I thank you and thank you for being 
responsive. And we appreciate it, and thank you for taking the 
time for being here because I know you did alter your schedule 
today to be here. Thank you.
    Yes?

  STATEMENT OF BERT JONGERDEN, GENERAL MANAGER, PORTLAND FISH 
                            EXCHANGE

    Mr. Jongerden. Senator Snowe, Members of the Committee, my 
name is Bert Jongerden. I am the General Manager at the 
Portland Fish Exchange.
    The fish exchange has been the back-around for commercial 
fishing in the State of Maine for the past 22 years. Conceived 
in the 1980s by a partnership of the city and the State, 
fishermen, and processors, the all-display fish auction has 
been a wonderful success until Amendment 13. From 1988 to 2005, 
the exchange averaged over 22 million pounds of groundfish per 
year coming through this port.
    The economic benefit of that 22 million pounds is over $90 
million into this local economy. The landings created numerous 
support industries for vessels, processors, fuel and gear, gear 
shops, shipyards, insurance, finance, berthing, lumping, 
trucking, transportation, packaging, equipment. That is just to 
name a few.
    Along with all those wages, the Port of Portland had the 
distinction of being the most--handling the most groundfish in 
the New England States. After Amendment 13 in 2005, the 
landings dropped 15 percent. In 2006, 47 percent. In 2007, 
another 11 percent. We have lost over 76 percent of our 
landings in 4 years. Four years.
    We have gotten to a point now where we have reached a 
critical mass on the port of Portland. We have one ice 
supplier, one fuel supplier, one hydraulic gear yard, one 
electronics dealer. We just cannot afford to lose another part 
of our infrastructure.
    The regulations have dropped our fleet of over 350 vessels 
in that 22-year period to 70. Well, it is closer to 69 with the 
loss of Craig here. Along with that, we are losing our buyer 
and our processor base. All the buyers and processors are 
moving themselves to Massachusetts and New Bedford.
    There is one trucking company left in the State of Maine 
that brings fish from Portland to the markets. There used to be 
four. There is just one now. The processors now are all sorting 
fish out of New Bedford, Gloucester, and Canada. That is 
depressing the prices at the fish exchange.
    I also conservatively estimate that in December of every 
year, we lose 15 fishing boats to the Gloucester port. That is 
over 5 million pounds of fish that we lose off our docks down 
here. I am very deeply concerned that in May of 2009, with 
whatever interim actions they provide, the exchange could 
possibly close.
    We are at a critical mass of 9 million pounds a year, where 
we can barely break even. Any more days in sea reductions, we 
are not going to be around anymore. We lose the exchange, we 
are going to lose Vessel Services. We are going to lose our 
last hydraulics shop. We are going to lose our whole fish pier 
complex.
    I beg and I plead that we not cut any more days at sea. If 
we lose our infrastructure here, it is never going to come 
back.
    Senator Snowe. Well, those numbers are staggering, and I am 
truly sorry. I mean, I think we all are about what is happening 
to the Portland Fish Exchange. And you are absolutely right. We 
need to preserve this infrastructure. It is part and parcel of 
the industry, and we need to keep it to preserve the industry, 
and hopefully, we can avert that.
    Mr. Jongerden. I appreciate it.
    Senator Snowe. And that is a very--those are very serious 
statistics, without question. I know the role that the fish 
exchange has played, and it is pivotal. So, thank you.
    Mr. Jongerden. We have to survive.
    Senator Snowe. I appreciate you being here and sharing 
those unfortunate statistics.
    Seventeen? Eighteen? Anybody else? Yes? Yes, oh, you are 
19? Of course.

STATEMENT OF CAPTAIN ROBERT M. ODLIN, COMMERCIAL FISHERMAN AND 
                   OWNER, F/V MAINE LADY III

    Mr. Robert Odlin. Thank you, Senator Snowe, other 
distinguished guests.
    My name is Robert Odlin. I grew up here in south Portland. 
I now live in Scarborough. I am 39 years old, second-generation 
commercial fisherman, and I have been participating in State 
and Federal fisheries for 25 years.
    I served for 10 years and still serve on the State of Maine 
Sea Urchin Zone Council and serve on the Maine Commercial Fish 
and Safety Council.
    I own and operate two vessels, one of which groundfishes, 
and my access to the Federal fishery cost me $123,000 3 years 
ago. That bought me a boat, bought me a permit. The boat was 
pretty small. I used to fill the boat up in about 2 days. So 
the problem with not being enough fish I don't buy. We are 
catching fish.
    I recently invested another $110,000 in the fishery. I 
bought another boat. My access to the fishery is 88 days, 88 
days I can catch fish in Federal waters. Only 48 days is what 
everybody talks about because those are the A days. Those are 
the days we can target cod. And we also have B days, which we 
can target fish, but not cod.
    Guys were talking about not being able to get clear of the 
pollock? Great, I can go catch pollock on the B days. That is a 
good thing.
    My intention was to lease days this year and, hopefully, 
afford to buy another permit. Buying another permit, hopefully, 
will give me more access so I can catch more fish and make more 
money.
    With the sector ghost hanging over our heads, don't know if 
buying another permit is going to be the right move or not. So 
one permit is not sufficient. A cut in 18 percent on my A days 
will be two less trips. I make short trips. It will be two less 
trips, and my margins are pretty small. You mentioned the 
margins right now, and they are not huge. But we are surviving.
    I am not a great speechwriter. My speech was written while 
I was sitting upstairs, and I am kind of going to jump around a 
little. There are hundreds of square miles of our EEZ that are 
closed, closed areas. We can't fish there. The fish in those 
areas, I think, thrive. They spill over into the areas. So we 
fish along the edges, and we catch our fish.
    There are so many fewer boats, I fished--well, when I 
finally got my permit from National Marine Fisheries, which 
took a lot of phone calls and a lot of time, I have seen five 
boats since July 2nd. I have fished about 50 days. Seen five 
other boats. One was my friend. We fish together.
    The term ``ghost town'' is used to describe the City of 
Portland and the fishing industry. It used to be a robust 
community. You would always know people, see people. There were 
taverns you could visit and find crewmembers, and it was a good 
feeling of community. But now it is a ghost town, especially, 
like Bert said, in December when everybody goes to Gloucester.
    We are down to 70 boats from 350. That alone right there is 
enough to scream there is a problem. If we shrink much more, 
the struggle will grow greater. The confusion we have to deal 
with in trying to understand the regulations right now with 
National Marine Fisheries is huge. I can't imagine what more 
confusion is coming, but it is certainly there.
    Because the fleet has shrunk so much, and a lot of it has 
shifted to Massachusetts, it is almost impossible sometimes to 
find experienced crew. There are not enough boats around, not 
enough crew around. Fuel is the ultimate enemy, basically. It 
makes or breaks you. So when we had a tax relief from the fuel, 
it was very appreciated. I can't believe it went away, but it 
did.
    One question is why have my fellow groundfishermen, who are 
accessing the same resources as me, been given a Government 
subsidy and I have got nothing from the Government because I am 
a Maine fisherman? There was a time when I thought about moving 
to Massachusetts. I can't believe I am saying that. If I had 
done it 2 years ago, I would have got about 50,000 bucks. 
Instead, I stayed in Maine and paid my taxes.
    With the shrinking of the fishery, less shoreside support. 
No lobster sales here in Maine, so it is more difficult.
    We talked all about science, and basically, this whole 
meeting was about science, it seemed like. And the science is 
not perfect. You know, there are a lot of flaws. There are 
mistakes. They found the flaws in the science. It has been 
brought to our attention. So let us not make us pay for these 
flaws when you reassess our time to fish, let us make sure that 
those flaws are out in boldface.
    To stay in this business, you need to adapt, travel, 
reinvest in days. You can't just fish in your backyard anymore, 
you know? A 100-mile run is standard sometimes. An 88-day 
permit allows you to lease up to 88 more days, and you can 
double your effort. It is going to cost you, but you can double 
your fishing effort.
    So I am going to close now. We were once overfished. OK, a 
few species are still on the overfished line. But I think the 
fire is out. I mean, we put the fire out with so many cuts and 
so many closed areas, and we did have buybacks in the past. We 
shrunk the fleet. I remember they were taking boats and cutting 
them up. So don't let us die because of just the ashes that is 
remaining.
    You mentioned the socioeconomic effects, and that is part 
of the Magnuson-Stevens Act that needs to be considered. I want 
to call that the halo over this whole thing. Maybe that can 
save us.
    Guys mentioned dealing with National Marine Fisheries. 
Calling them on the phone results in recordings most of the 
time, run-around, getting bounced from department to 
department, voice-mails, and very few returned calls. It is 
very, very frustrating dealing with NMFS down in Gloucester.
    The dogfish in the Gulf of Maine are released in near shore 
waters are in a plague-like proportion. There are so many 
dogfish, you can almost walk on the backs at times. If I could 
take you out fishing on my boat in July, we will put 30,000 
pounds of dogfish on in a day. We can keep 600 pounds for the 
trip of dogfish. We can keep 800 pounds of cod for the day. It 
seems to be--it doesn't really seem to be balanced out.
    And I guess that is it for me right now.
    Senator Snowe. Well, I thank you very much, sharing your 
experience and also what you endure and have to overcome and 
the obstacles, to be resilient in the face of all of that. But 
I appreciate what you are having to say.
    And yes, I agree with you. Like Massachusetts, Maine ought 
to be able to have the benefit, and that is something we are 
going to work on in terms of the appropriations that we have 
been talking about and arguing about. And it is not fair. It is 
a matter of equity. It is similar to what we are talking about 
in the disaster declaration. We absolutely agree with you 
totally. There is no rationale for that.
    Mr. Robert Odlin. Do you think we might get a check in the 
near future?
    [Laughter.]
    Senator Snowe. The ``near'' is the--but, no, I hear you. I 
hear what you are saying, and you raise some very valid points, 
and that is what it is all about. We have got to make sure you 
stay in business and you stay in Maine. That is what it is all 
about. And that is the cause and effect, and you are describing 
the ripple effect, the ramifications of every decision that is 
made or isn't made, by default.
    And that is what it is all about, and that is what we have 
got to prevent and avert. So hearing your stories is so 
critical to this process and to all of us. Some obviously part 
of the industry are seeing, but it is certainly important for 
me to hear and, hopefully, for Dr. Balsiger at the Federal 
level, administering these programs, because there are always 
ideas that are emanating from all of you because you live it. 
You feel the practical effects of it. And we need to hear it 
and know it, and hopefully, we can go about doing it in a 
different way and a better way.
    I always think, you know, can we solve this problem 
differently? Is there a way? And that is what we have got to 
find out here. So we can improve your lives and do what you do 
best and want to do.
    I often think about the fishing industry. There aren't many 
industries that have to live with the interference of the 
Federal Government. I mean, that is saying an awful lot that 
you have to endure. That is a stark truth and adds so much 
complexity to your lives each and every day, not to mention it 
has some adverse consequences. It is what it is because we have 
a resource that we have to protect, but it doesn't make it any 
easier for you to go out and do your jobs every day. That is 
the point here. It doesn't.
    There are very few industries that have to endure what you 
have to endure in terms of that regulatory process and the 
bureaucracy that results from it. So we have got to be 
responsive. That is the other thing we have got to make sure. I 
think the calls that you make to Federal offices, they have got 
to be responded to. And we have got to hear that, and we have 
got to do something about it to make sure. It is just not 
right.
    So we will take care of--we will work on that as well. I 
just--I think we feel for what you are going through, and we 
have just got to do something to make sure that we can avoid 
the worst consequences here.
    Anybody else who cares to comment? OK.
    Dr. Balsiger, if you have to leave, you go right ahead. 
Thank you so much. Yes, thank you for being here.
    Dr. Balsiger. Again, thanks for the invitation. I am sorry 
I didn't have more time to spend in Portland. It is a wonderful 
town, and I look forward to seeing----
    Senator Snowe. Oh, no, thank you. Yes, thank you.
    Dr. Balsiger. Anyone in the audience should feel free to 
send me an e-mail because I don't intend to drop these issues.
    Senator Snowe. OK, I appreciate that. Thank you for being 
here and, again, adjusting your schedule. I appreciate it. 
Thank you.
    And I know others have to go, too. But we want to make sure 
we get in any other comments here. You go right ahead.
    Ms. Odlin. I think I am the last one. I am number 20.
    Senator Snowe. Oh.

 STATEMENT OF AMANDA ODLIN, CO-OWNER, F/V LYDIA AND MAYA, F/V 
                          BETHANY JEAN

    Ms. Odlin. Another Odlin up to bat here. Amanda Odlin. I 
have the fishing vessel LYDIA AND MAYA and the fishing vessel 
BETHANY JEAN.
    And I guess somebody kills another individual, isn't that 
considered breaking the law? I mean, that is a pretty upfront 
obvious one. You drink and drive. You get caught. That is 
breaking the law. There are consequences that go with breaking 
the law, am I not correct, pretty well defined.
    The Magnuson-Stevens Act is a law that governs the 
industry, the fishing industry. Correct? We are all together?
    Well, it seems to me one of the national guidelines, one 
that comes to my mind is a balance of conservation and economy, 
and that I haven't seen the economy side of it yet, just the 
conservation. In essence, isn't that breaking the law, and 
where is the accountability for that? Where is the consequence?
    I have seen letters of warning from you, yourself, Senator, 
to Patricia Kurkul, who is in charge of NMFS, warning about 
these emergency interim rules that she seemingly to the common 
guy, which is all of us, reels with no consequence or no 
accountability, even with warnings from somebody like yourself, 
but a warning without consequence.
    So I would hope that NMFS would have to become more 
accountable because I see it as breaking the law. If I break 
the law, my boat goes into a closed area even accidentally or 
doesn't declare into the correct area properly, if I have been 
fishing in a different one, they are going to either call me 
back to port or I am going to get a fine. I am going to pay for 
that. I am going to have a consequence.
    I haven't seen the consequence for NMFS as of yet, and 
there is no balance in conservation and economy. We have only 
seen the conservation. You have said it yourself. That is what 
I have heard the whole time. That is breaking the law.
    Senator Snowe. That is why I inserted it in the law back in 
1996.
    Ms. Odlin. But it is breaking the law, is it not, if it is 
not being adhered to?
    Senator Snowe. I know.
    Ms. Odlin. And there needs to be a consequence.
    Senator Snowe. You are absolutely right.
    Ms. Odlin. And so far, we haven't seen the accountability 
for that.
    Another thing is we are questioning the science at this 
juncture. How can we go into a new round of regulations when it 
is being investigated or supposedly investigated at this point 
in time? That to come up with a new set of rules without--and 
the basis for all the rules, a lot of it is the science that 
none of us believe in.
    Even our own Dr. Butterworth, who AFM had to hire, for the 
best available science. I believe that is part of the law as 
well. We actually had to go hire it at huge expense to our 
small group. It was proven codfish and witch hake or the white 
hake, whatever it is called. The ``W'' hake, the ``whack'' is 
what I call it, because that is what is on the little statistic 
sheets as having been rebuilt when we paid a huge price for 
supposedly those being overfished for the last 5 years ago Dr. 
Butterworth conducted this survey.
    And lo and behold, there was a mistake made, and how many 
people went out of business for that mistake? So, again, decent 
science, best available, according to the law--quote, unquote--
is what I read. I don't think we are using the best available. 
We had to hire the best available, a worldwide recognized real 
scientist.
    And that is the extent of my comments. And as far as the 
Maine fisheries go, really the only answer to that is to level 
the playing field. It isn't level. We can't land the offshore 
lobsters. Eliminate the fuel tax. I averaged my two boats out 
just on fuel tax alone, based on a $3.30 per gallon price, that 
is $24,562. That is my insurance payment on one boat. That is 
not counting the other one.
    You take--but that is not enough. You take the revenue from 
the offshore lobsters on top of that, I can't afford to throw 
that back and then land my species of concern and then drive 
the balance of the fish left to Portland. It doesn't make 
sense. You will never get those boats back here unless you 
level the playing field, and our legislators didn't really want 
to do that. There are however many thousand lobstermen not 
wanting that.
    So you are not going to have a groundfish industry. Even if 
you were to do any number of things, I mean, it just seems to 
me the boats already went to Massachusetts, where there is no 
fuel tax and you can land your offshore lobsters as long as you 
are licensed for it. What would be the lure? I don't see it.
    Senator Snowe. Well, hopefully, we can do something that is 
going to make a difference.
    Ms. Odlin. There is no creative solution. According to 
Michael Conathan; he was hoping that we could find another 
creative solution. That is the solution. It is not creative. It 
is what it is. When all the other New England States allow you 
those offshore lobsters, and this is the only one that doesn't, 
and then, at least in Massachusetts, you are going to eliminate 
the fuel tax. I don't know about the others. That is the only 
way you are going to level the playing field.
    So that is all I have.
    Senator Snowe. How long have you been fishing?
    Ms. Odlin. We have had the LYDIA AND MAYA since the year 
2000, but my husband has fished for Jimmy for over 30 years. 
And they are all generational.
    Senator Snowe. Yes, all generational. Well, we want to keep 
it that way for those who are in the industry at the minimum. I 
think it is so crucial to this State, not to mention to all of 
you who are in it and want to be in it as well.
    Ms. Odlin. And the families that we support through the 
crew we hire, the taxes we pay, I mean----
    Senator Snowe. Absolutely. Maintaining the small 
communities, and that is why it is so important.
    Ms. Odlin. Especially in an economically stressed time for 
the whole United States, let alone the State of Maine.
    Senator Snowe. No question.
    Ms. Odlin. It just seems ridiculous.
    Senator Snowe. But mentioning about the socioeconomic 
impact, that is true, and that is why we included it, I did 
back in 1996 in the reauthorization of the Magnuson-Stevens Act 
because there was an imbalance in the way we were approaching 
the fisheries law. And so, that is the point: We have to look 
at mitigating the effects. I just don't think there is any 
question about it. We have that obligation, but there has not 
been the same kind of investments in that dimension of the law 
that there has been on the conservation. You have got to do 
both if you want to maintain it. It shouldn't be mutually 
exclusive----
    Ms. Odlin. Absolutely, and I understand that. But the 
pendulum never swung. It is stuck on conservation like a 
magnetic hold there. However, at some point in time, maybe some 
flexibility in the time frame? As long as those stocks are 
being rebuilt, what is to say they have to be done in a year, 2 
years, 10 years, 50 years? As long as they are rebuilding to 
allow that balance of that pendulum.
    Because if you put that strict of a time frame on, of 
course, it is going to magnetize toward conservation at the 
expense of economy, and it is breaking the law. Quite simple. I 
mean, that is a simplistic approach to it, but there has got to 
be accountability for that as well, just like I would be if I 
were to, I don't know, run you over right now.
    Senator Snowe. Well, don't do that.
    [Laughter.]
    Ms. Odlin. I am just saying--but wouldn't that be 
considered illegal?
    Senator Snowe. I hope so. But anyways----
    Ms. Odlin. Well, it is no different for this.
    Senator Snowe. Some might not think so.
    Ms. Odlin. No different with an imbalance of that national 
guideline that you said yourself----
    Senator Snowe. I appreciate it. But you are right. 
Absolutely. The point you are making is you have got to uphold 
the law, and that is the law.
    Ms. Odlin. And there has got to be a consequence for 
breaking that law.
    Senator Snowe. Exactly. I appreciate that. And 
accountability. You are absolutely right.
    Ms. Odlin. Absolutely.
    Senator Snowe. Yes.
    Ms. Odlin. The driver, so to speak.
    Senator Snowe. I appreciate it, but accountability. 
Absolutely correct. And agencies have to be held accountable as 
well.
    Yes? OK, who else is there? Go ahead.

         STATEMENT OF CAPTAIN BILL LINNELL, LOBSTERMAN

    Mr. Linnell. I am going to get the last word. I am Bill 
Linnell. And I am a licensed lobster catcher, and I have also 
been groundfishing, gill netting, long lining, and urchin 
diving. And I have just a thought for you.
    I would like to see an analysis. In lobstering, one of the 
things that has served lobstering real well, a conservation 
measure, has been that in lobstering the owner/operator has to 
be on the boat. The guy with the lobster license is on the 
boat. I can't sub out, hire somebody to run my boat, OK?
    So I would like to--I wonder if that--if groundfishing 
adopted that policy, I suspect that that would take a huge 
amount of pressure off the fishery. And if you have a family 
that has a fishing boat and they are supporting that family out 
with that fishing boat from Port Clyde or Portland or whatever, 
that they could probably have a lot more days at sea. And the 
sort of the factory operations that are sort I would say 
roughly analogous to the big box stores, they would have to--
the pressure that they exert would fall off.
    And I would just like to see somebody do an analysis to say 
if there were owner/operators only in the groundfishing, as 
they are in lobstering, if that would take care of the problem. 
So that a family with a--one family with one fishing boat 
supporting themselves, I suspect that maybe they could have as 
many days at sea as they want. And that would be the end of the 
problem.
    Senator Snowe. Has there been anything like that, Mr. 
Stockwell? Do you know? Any analysis?
    Mr. Stockwell. Not that I know of.
    Senator Snowe. It has been helpful, though. Thank you very 
much. Thank you.
    Anyone else?
    I guess I have to wrap up because they are getting ready 
for a city council meeting. Is that what you are trying to tell 
me? Oh, OK. They are giving me the heave-ho, I guess.
    [Laughter.]
    Senator Snowe. But listen, I just want to, first, thank the 
panelists for taking the time, for your very thoughtful 
substantive statements here on a very critical matter that goes 
without saying. And I thank all of you for participating and, 
most especially, staying here to listen to the comments, and I 
know that you have gone through many processes and procedures 
in the course of this decisionmaking, as we will in the future.
    But I appreciate your willingness to be here today, on such 
a critical matter that is so vital to this State and to the 
region and to the industry and to the men and women who are a 
part of it and the families who depend on it. So I truly thank 
you for being here and taking the time.
    And to all of you and those who also gave their statements 
and testifying and expressing their views and describing their 
experiences during this time of hardship for the industry, they 
persevere and endure, and that is certainly the Maine way. But 
we need to do all that we can to help and assist in this 
process. Hopefully, we can avoid some of the worst-case 
scenarios so that we can get you to do what you do best, and 
that is to be out there fishing, what you want to do and what 
generations of families have done. It has been a way of life 
here in this State.
    So I appreciate the fact that you have taken the time to be 
here, to listen, to participate. Please feel free to follow up 
with other, additional comments. This is a formal hearing of 
the Subcommittee of the Commerce Committee, and we will include 
that in the record. We are going to review what has been said 
because, again, I draw so much, and I am sure many of the 
panelists here today and Dr. Balsiger will learn a lot from 
what has been offered here today and specific and concrete 
ideas on how to look at this and how to evaluate it in 
different ways.
    There is never only one way. I have always believed that in 
solving problems. There are many ways. And so, I appreciate the 
time that you have taken. I truly mean that, that so many of 
you are going through so much in an industry that means so much 
to this State.
    So, with that, this hearing is adjourned.
    [Whereupon, at 4:41 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
